<html>
<title> - AMTRAK NOW AND INTO THE FUTURE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                     AMTRAK NOW AND INTO THE FUTURE

=======================================================================

                                (116-41)

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON RAILROADS, PIPELINES,
                        AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 13, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
             
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       





     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                             
                              ______                      


              U.S. GOVERNMENT PUBLISHING OFFICE 
41-932 PDF             WASHINGTON : 2020 
 

                            
                             
                             
                             

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              DANIEL LIPINSKI, Illinois
MARK MEADOWS, North Carolina         STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
ROB WOODALL, Georgia                 HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN KATKO, New York                 Georgia
BRIAN BABIN, Texas                   ANDRE CARSON, Indiana
GARRET GRAVES, Louisiana             DINA TITUS, Nevada
DAVID ROUZER, North Carolina         SEAN PATRICK MALONEY, New York
MIKE BOST, Illinois                  JARED HUFFMAN, California
RANDY K. WEBER, Sr., Texas           JULIA BROWNLEY, California
DOUG LaMALFA, California             FREDERICA S. WILSON, Florida
BRUCE WESTERMAN, Arkansas            DONALD M. PAYNE, Jr., New Jersey
LLOYD SMUCKER, Pennsylvania          ALAN S. LOWENTHAL, California
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
BRIAN J. MAST, Florida               STACEY E. PLASKETT, Virgin Islands
MIKE GALLAGHER, Wisconsin            STEPHEN F. LYNCH, Massachusetts
GARY J. PALMER, Alabama              SALUD O. CARBAJAL, California, 
BRIAN K. FITZPATRICK, Pennsylvania   Vice Chair
JENNIFFER GONZALEZ-COLON,            ANTHONY G. BROWN, Maryland
  Puerto Rico                        ADRIANO ESPAILLAT, New York
TROY BALDERSON, Ohio                 TOM MALINOWSKI, New Jersey
ROSS SPANO, Florida                  GREG STANTON, Arizona
PETE STAUBER, Minnesota              DEBBIE MUCARSEL-POWELL, Florida
CAROL D. MILLER, West Virginia       LIZZIE FLETCHER, Texas
GREG PENCE, Indiana                  COLIN Z. ALLRED, Texas
                                     SHARICE DAVIDS, Kansas
                                     ABBY FINKENAUER, Iowa
                                     JESUS G. ``CHUY'' GARCIA, Illinois
                                     ANTONIO DELGADO, New York
                                     CHRIS PAPPAS, New Hampshire
                                     ANGIE CRAIG, Minnesota
                                     HARLEY ROUDA, California
                                     Vacancy

     Subcommittee on Railroads, Pipelines, and Hazardous Materials

 DANIEL LIPINSKI, Illinois, Chair
ERIC A. ``RICK'' CRAWFORD, Arkansas  ALBIO SIRES, New Jersey
SCOTT PERRY, Pennsylvania            DONALD M. PAYNE, Jr., New Jersey
RODNEY DAVIS, Illinois               LIZZIE FLETCHER, Texas
BRIAN BABIN, Texas                   ANDRE CARSON, Indiana
MIKE BOST, Illinois                  FREDERICA S. WILSON, Florida
RANDY K. WEBER, Sr., Texas           MARK DeSAULNIER, California
DOUG LaMALFA, California             STEPHEN F. LYNCH, Massachusetts
LLOYD SMUCKER, Pennsylvania          TOM MALINOWSKI, New Jersey
PAUL MITCHELL, Michigan              GRACE F. NAPOLITANO, California
BRIAN K. FITZPATRICK, Pennsylvania   STEVE COHEN, Tennessee
TROY BALDERSON, Ohio                 JESUS G. ``CHUY'' GARCIA, Illinois
ROSS SPANO, Florida                  ELEANOR HOLMES NORTON,
PETE STAUBER, Minnesota                District of Columbia
GREG PENCE, Indiana                  EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri (Ex Officio)    ALAN S. LOWENTHAL, California
                                     COLIN Z. ALLRED, Texas, Vice Chair
                                     ANGIE CRAIG, Minnesota
                                     Vacancy
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)



                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Daniel Lipinski, a Representative in Congress from the State 
  of Illinois, and Chairman, Subcommittee on Railroads, 
  Pipelines, and Hazardous Materials:

    Opening statement............................................     1
    Prepared statement...........................................     3
Hon. Eric A. ``Rick'' Crawford, a Representative in Congress from 
  the State of Arkansas, and Ranking Member, Subcommittee on 
  Railroads, Pipelines, and Hazardous Materials:

    Opening statement............................................     3
    Prepared statement...........................................     4
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chairman, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     4
    Prepared statement...........................................     6
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................    99
Hon. Eddie Bernice Johnson, a Representative in Congress from the 
  State of Texas, prepared statement.............................    99

                               WITNESSES

Richard Anderson, President and Chief Executive Officer, National 
  Railroad Passenger Corporation (Amtrak):

    Oral statement...............................................     8
    Prepared statement...........................................    10
Hon. Nancy Nathanson, State Representative, Thirteenth District, 
  Oregon State Legislature:

    Oral statement...............................................    17
    Prepared statement...........................................    19
Greg Regan, Secretary-Treasurer, Transportation Trades 
  Department, AFL-CIO:

    Oral statement...............................................    23
    Prepared statement...........................................    24
Jack Dinsdale, National Vice President, Transportation 
  Communications Union (TCU/IAM):

    Oral statement...............................................    28
    Prepared statement...........................................    30
Jim Mathews, President and Chief Executive Officer, Rail 
  Passengers Association:

    Oral statement...............................................    44
    Prepared statement...........................................    46
Bob Guy, Illinois State Legislative Director, International 
  Association of Sheet Metal, Air, Rail and Transportation 
  Workers-Transportation Division:

    Oral statement...............................................    63
    Prepared statement...........................................    66
Stacey Mortensen, Executive Director, San Joaquin Joint Powers 
  Authority:

    Oral statement...............................................    68
    Prepared statement...........................................    69

                       SUBMISSIONS FOR THE RECORD

Statement of the Transport Workers Union of America, AFL-CIO, 
  Submitted for the Record by Hon. Daniel Lipinski...............    72
Letter of November 12, 2019, from Constituents of Hon. Peter A. 
  DeFazio........................................................   100
Statement of Ian Jefferies, President and Chief Executive 
  Officer, Association of American Railroads.....................   101
Statement of the State-Amtrak Intercity Passenger Rail Committee.   104

                                APPENDIX

Questions to Richard Anderson, President and Chief Executive 
  Officer, National Railroad Passenger Corporation (Amtrak), 
  from:

    Hon. Peter A. DeFazio 



    Hon. Peter A. DeFazio on behalf of Hon. Anthony G. Brown.....   110
    Hon. Grace F. Napolitano.....................................   111
    Hon. Steve Cohen 
    



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                            November 8, 2019

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Subcommittee on Railroads, Pipelines, 
and Hazardous Materials
    FROM:  LStaff, Subcommittee on Railroads, Pipelines, and 
Hazardous Materials
    RE:      LSubcommittee Hearing on ``Amtrak Now and Into the 
Future.''
_______________________________________________________________________


                                PURPOSE

    The Subcommittee on Railroads, Pipelines, and Hazardous 
Materials will meet on Wednesday, November 13, 2019, at 10:00 
a.m. in 2167 Rayburn House Office Building to hold a hearing 
titled, ``Amtrak Now and Into the Future.'' The hearing will 
review recent service changes implemented by Amtrak and 
consider the needs of the nation's intercity passenger railroad 
to sustain and strengthen its existing network. The 
Subcommittee will hear testimony from Amtrak, an Oregon State 
Legislative Representative, the Transportation Trades 
Department of AFL-CIO, the Transportation Communications Union, 
the Rail Passengers Association, the Sheet Metal, Air, Rail and 
Transportation-Transportation Division, and the San Joaquin 
Joint Powers Authority.

                               BACKGROUND

ABBREVIATED HISTORY

    The National Railroad Passenger Corporation, known as 
``Amtrak,'' was created by the Rail Passenger Service Act of 
1970 (P.L. 91-518). Prior to Amtrak's creation, privately-owned 
railroads provided passenger rail transportation, pursuant to 
their common carrier obligation, that dated back to the late 
1800s. As the federal government supported the growth of 
airports and invested heavily to develop the expansive 
interstate system, travel by car and aircraft grew in 
popularity while passenger rail mileage declined from 40 
million in 1947 to less than 8 million just two decades 
later.\1\
---------------------------------------------------------------------------
    \1\ Wilner, Frank. Amtrak: Past, Present, Future. Omaha, Simmons-
Boardman Books, Inc., 2012. Page XIV.
---------------------------------------------------------------------------
    In 1970, with several major railroads in or nearing 
bankruptcy, Congress relieved the private railroads from their 
obligation to provide passenger rail service by creating Amtrak 
as the nation's passenger rail provider. Amtrak was established 
as a for-profit corporation under the laws of the District of 
Columbia (D.C.) but would receive government funding. Railroads 
bought into Amtrak and the purchase price was satisfied either 
by cash or rolling stock; in exchange, the railroads received 
common non-voting stock. Amtrak began operating passenger 
service on May 1, 1971.
    By statute, Amtrak's Board of Directors consists of 10 
members: the Secretary of Transportation (Secretary), eight 
appointees selected by the President with the advice and 
consent of the Senate, and the President of Amtrak, who serves 
as a non-voting member.\2\
---------------------------------------------------------------------------
    \2\ 49 U.S.C.  24302.
---------------------------------------------------------------------------
    Amtrak bargains with various labor unions, and the 
collective bargaining agreements between Amtrak and its 
employees are governed by the Railway Labor Act. These 
employees are also covered by the Railroad Retirement Act (RRA) 
and the Railroad Unemployment Insurance Act (RUIA), both of 
which are unique to the railroad industry. The RRA created the 
railroad retirement system that provides retirement and 
disability benefits to railroad workers who qualify, and the 
RUIA provides qualifying workers with unemployment and sickness 
benefits.

AMTRAK'S NETWORK AND RIDERSHIP

    The legislation that created Amtrak, and amendments that 
were made to the statute in the Passenger Rail Investment and 
Improvement Act of 2008 (PRIIA 2008) (P.L. 110-432), require 
Amtrak to operate a national rail passenger transportation 
system which ties together existing and emergent regional rail 
passenger service and other intermodal passenger service, 
subject to its discontinuance authority under 49 USC 24706 and 
24702.\3\ This system includes the Northeast Corridor, high-
speed rail corridors, long-distance routes, and short-distance 
routes operated by Amtrak.\4\
---------------------------------------------------------------------------
    \3\ 49 U.S.C.  24701.
    \4\ 49 U.S.C.  24102.
---------------------------------------------------------------------------
    To provide this national passenger rail service, Amtrak 
runs more than 300 trains per day, services over 500 stations 
located in 46 states and Washington, D.C. and operates a 
network that stretches more than 21,000 miles across the 
country.\5\ More than 31 million trips were taken on Amtrak in 
Fiscal Year 2018.\6\ Of all Amtrak passenger trips in 2018, 
approximately 38 percent were taken on the Northeast Corridor; 
48 percent on state-supported routes; and 14 percent on long-
distance routes.
---------------------------------------------------------------------------
    \5\ Amtrak FY 2018 Company Profile. Available at https://
www.amtrak.com/content/dam/projects/dotcom/english/public/documents/
corporate/nationalfactsheets/Amtrak-Corporate-Profile-FY2018-0319.pdf.
    \6\ Amtrak, Fiscal Year 2018 Route Ridership. Available at http://
media.amtrak.com/wp-content/uploads/2018/11/FY18-Ridership-Fact-Sheet-
1.pdf.
---------------------------------------------------------------------------

NORTHEAST CORRIDOR

    The Railroad Revitalization and Regulatory Reform Act of 
1976 enabled Amtrak to acquire rail rights-of-way between 
Boston, MA and Washington, D.C., referred to as the Northeast 
Corridor (NEC).\7\ This 457-mile rail line, of which Amtrak 
owns 363 miles, extends from Washington, D.C., to Boston, MA, 
runs through eight states and D.C, and carries nearly 2,200 
commuter, passenger, and freight trains daily, making it one of 
the world's most complicated rail corridors.\8\ Amtrak carries 
more passengers within the NEC than all airlines combined in 
the region, providing more than 12.1 million Amtrak passenger 
trips in Fiscal Year (FY) 2018 alone.\9\
---------------------------------------------------------------------------
    \7\ P.L. 94-210.
    \8\ Amtrak, 2019 Amtrak Five Year Service Line Plans, Base (FY2019) 
and Five Year Strategic Plan (FY2020-2024). Available at https://
www.amtrak.com/content/dam/projects/dotcom/english/
public/documents/corporate/businessplanning/Amtrak-Service-Line-Plans-
FY20-24.pdf Page 92.
    \9\ Anderson, Richard. Testimony Before the United States Senate 
Commerce Committee during a Hearing on ``Amtrak: Next Steps for 
Passenger Rail''. June 26, 2019. Page 7.
---------------------------------------------------------------------------
    Amtrak provides two services on the NEC: the premier Acela 
service provides up to 33 departures daily and reaches a top 
speed of 150 mph, and the Northeast Regional has up to 36 
departures each day and reaches a top speed of 125 mph. In 
September 2019, Amtrak launched Acela Nonstop, offering direct 
service on weekdays between Washington, D.C. Union Station and 
New York Penn Station.

NATIONAL NETWORK: STATE-SUPPORTED AND LONG-DISTANCE ROUTES

    Outside the Northeast Corridor, in FY 2018, nearly 20 
million trips were taken along the state-supported and long-
distance routes that comprise the National Network. The 
National Network provides service to the country's more rural 
communities. Much of these routes are operated on tracks that 
are owned, maintained, and dispatched by various host freight 
and commuter railroads.
    Under Section 209 of the PRIIA 2008, Amtrak and its state 
partners were required to jointly develop a methodology to 
determine operating and capital costs of state-supported 
intercity passenger rail service on routes measuring not more 
than 750 miles. The PRIIA Section 209 methodology became 
effective in October 2013. Continued operation of these state-
supported routes is subject to annual operating agreements and 
state legislative appropriations according to Section 209. In 
FY 2018, state contributions to Amtrak for state-supported 
services totaled $233.8 million for operations and $57.2 
million for equipment capital.\10\ Fueled by Amtrak's 
partnership with its state partners, state-supported routes 
carried 15.1 million passengers in FY 2018, an increase from 
15.013 million in FY 17.\11\
---------------------------------------------------------------------------
    \10\ State-Amtrak Intercity Passenger Rail Committee, 2018 Annual 
Report, Page 2.
    \11\ Amtrak, 2019 Amtrak Five Year Service Line Plans, Base 
(FY2019) and Five Year Strategic Plan (FY2020-2024). Available at 
https://www.amtrak.com/content/dam/projects/dotcom/english/
public/documents/corporate/businessplanning/Amtrak-Service-Line-Plans-
FY20-24.pdf. Page 58.
---------------------------------------------------------------------------
    Amtrak also operates 15 long-distance routes ranging in 
length from 764 to 2,438 miles. Of the 46 states that have 
Amtrak services, 23 are only served by long-distance trains and 
nearly half of the stations in Amtrak's system serve long-
distance routes. In total, long-distance trains carried 4.5 
million passengers in FY 2018.\12\
---------------------------------------------------------------------------
    \12\ Amtrak states that weather and other events impacted 
ridership, resulting in an estimated loss of 162,800 long-distance 
passengers.
---------------------------------------------------------------------------

AMTRAK FUNDING

    Like several other transportation modes in the U.S., Amtrak 
receives funding from the General Fund through the annual 
appropriations process.
    The Fixing America's Surface Transportation Act (FAST Act) 
changed the authorization structure of Amtrak to provide 
greater transparency and accountability by providing funding by 
service--the NEC and the National Network--rather than 
providing separate grants for operating and capital/debt 
service activities. Amtrak may transfer funds between accounts 
in two circumstances: (1) upon notification to the Amtrak Board 
of Directors with a subsequent report and justification by the 
Board to the Committee and Secretary regarding the transfer; or 
(2) with Secretarial approval under certain circumstances that 
would materially change the grant agreement.\13\ The chart 
below indicates Amtrak's funding levels authorized by the FAST 
Act and the amounts appropriated by Congress:
---------------------------------------------------------------------------
    \13\ 49 USC  24317(g).

------------------------------------------------------------------------
                   Northeast Corridor             National Network
             -----------------------------------------------------------
                Authorized    Appropriated    Authorized    Appropriated
------------------------------------------------------------------------
    FY 16     $450,000,000         *        $1,000,000,00        *
                                                       0
    FY 17     $474,000,000   $328,000,000   $1,026,000,00  $1,167,000,00
                                                       0              0
    FY 18     $515,000,000   $650,000,000   $1,085,000,00  $1,291,600,00
                                                       0              0
    FY 19     $557,000,000   $650,000,000   $1,143,000,00  $1,291,600,00
                                                       0              0
    FY 20     $600,000,000            N/A   $1,200,000,00           N/A
                                                       0
------------------------------------------------------------------------
* Amtrak received FY 16 appropriations in the format that existed prior
  to FAST Act enactment: $288,500,000 in operating grants, and
  $1,101,500,000 in capital and debt service grants.

    Amtrak is eligible for some federal discretionary grant 
programs created in the FAST Act, such as the FRA's 
Consolidated Rail Infrastructure and Safety Improvements 
program focused on improving the safety, efficiency, and 
reliability of passenger and freight rail systems; Restoration 
and Enhancement Grants that support initiating, restoring, or 
enhancing intercity passenger rail; and the Federal-State 
Partnership for State of Good Repair that supports capital 
projects that reduce the state of good repair backlog. The 
railroad also is eligible to apply for long-term, low-interest 
loans under the Railroad Rehabilitation and Improvement 
Financing (RRIF) program. Amtrak has received three RRIF loans 
totaling $3.1 billion, two of which have been repaid.\14\ 
Additionally, Amtrak is subject to a Buy America procurement 
requirement that helps ensure domestic manufacturing companies 
and their workers benefit when Amtrak pursues capital 
investments.\15\
---------------------------------------------------------------------------
    \14\ Build America Bureau, Railroad Rehabilitation & Improvement 
Financing, Available at https://www.transportation.gov/buildamerica/
programs-services/rrif.
    \15\ 49 USC  24305(f).
---------------------------------------------------------------------------
    Amtrak earned record revenues of $3.4 billion and achieved 
95 percent operating cost recovery in FY2018.

NETWORK MODIFICATIONS

    In the last few years, Amtrak has expressed interest in 
altering its current network, with CEO Richard Anderson stating 
in June 2019 before the Senate Commerce Committee that 
``there's always a role for long distance, but, on the margin, 
we should be looking at breaking up some of those long-distance 
trains and figuring out how . . . to provide high quality 
service in short-haul markets . . . '' \16\
---------------------------------------------------------------------------
    \16\ Anderson, Richard, Testimony Before the United States Senate 
Commerce Committee, ``Next Steps for Passenger Rail,'' June 26, 2019.
---------------------------------------------------------------------------
    In testimony, reports, and letters to Congress, Amtrak has 
stated that urban areas around the country are anticipated to 
experience major population growth in the coming decades, 
including ``megaregions'' such as Atlanta, Houston, Dallas, 
Orlando, Las Vegas, and others, that currently are underserved 
by intercity passenger rail transportation.\17\ Amtrak's 5-year 
Strategic Plan sets out goals to ``maintain and grow 
connectivity and access in markets that supplement Amtrak's 
State Supported network.'' \18\
---------------------------------------------------------------------------
    \17\ Anderson, Richard, Testimony Before the House Committee on 
Transportation and Infrastructure, ``The Cost of Doing Nothing: Why 
Investing in Our Nation's Infrastructure Cannot Wait,'' February 7, 
2019, Available at https://transportation.house.gov/committee-activity/
hearings/the-cost-of-doing-nothing-why-investing-in-our-nations-
infrastructure-cannot-wait, Page 6.
    \18\ Amtrak, 2019 Amtrak Five Year Service Line Plans, Base 
(FY2019) and Five Year Strategic Plan (FY2020-2024). Available at 
https://www.amtrak.com/content/dam/projects/dotcom/english/
public/documents/corporate/businessplanning/Amtrak-Five-Year-Service-
Plans-FY18-FY23.pdf Page 53.
---------------------------------------------------------------------------

SERVICE CHANGES

    As Amtrak has reported, the experience of riding Amtrak is 
an important factor in travelers' decisions to ride the 
railroad.\19\ Thus, maintaining a high-quality, valuable 
service that passengers want and expect helps attract and 
retain customers. Subsequent to passage of the FAST Act, Amtrak 
has implemented changes to some of the services and benefits 
offered to passengers and those seeking to travel on Amtrak.
---------------------------------------------------------------------------
    \19\ Amtrak, 2019 Amtrak Five Year Service Line Plans, Base 
(FY2019) and Five Year Strategic Plan (FY2020-2024). Available at 
https://www.amtrak.com/content/dam/projects/dotcom/english/
public/documents/corporate/businessplanning/Amtrak-Service-Line-Plans-
FY20-24.pdf Page 75.
---------------------------------------------------------------------------

FOOD AND BEVERAGE SERVICE

    Section 11207 of the FAST Act required that, within 90 days 
of enactment, Amtrak develop and begin implementing a plan to 
eliminate, within 5 years, the operating loss associated with 
food and beverage service. That section also prohibited any 
then-employed Amtrak worker from being involuntarily separated 
as a result of the development and implementation of the plan 
or any other action taken by Amtrak to implement that section.
    In June 2018, traditional dining car service, which 
functioned as a made-to-order restaurant on wheels, was 
eliminated on two long-distance routes: Lake Shore Limited and 
Capitol Limited.\20\ As a result, passengers traveling those 
routes no longer have access to meals freshly prepared onboard, 
including sleeper car passengers whose premium ticket fare 
includes meals. Instead, sleeper car passengers receive 
``flexible dining'' service that includes reheated pre-cooked 
meals, and all other passengers (who previously could purchase 
meals at the dining car or cafe car) have access to quick-
service foods sold in the cafe car, such as cheeseburgers, 
pizza, and snacks.\21\ Amtrak cites costs of the traditional 
dining cars service and a desire to attract younger passengers 
with a different dining model, as the reason for these changes.
---------------------------------------------------------------------------
    \20\ Amtrak Press Release, ``New and Contemporary Dining Soon on 
Two Amtrak Routes,'' Available at https://media.amtrak.com/2018/04/new-
contemporary-dining-soon-two-amtrak-routes/, Dated April 19, 2018. See 
also Amtrak Press Release, ``Contemporary Dining Menu Evolves on Two 
Amtrak Routes,'' Available at https://media.amtrak.com/2018/07/
contemporary-dining-menu-evolves-two-amtrak-routes/, Dated July 12, 
2018.
    \21\ Amtrak Flexible Dining, Available at https://www.amtrak.com/
routes/lake-shore-limited-train.html.
---------------------------------------------------------------------------
    In September 2019, Amtrak announced it would replicate 
these changes on most other eastern long-distance routes: 
Cardinal, City of New Orleans, Crescent, Silver Meteor, and 
Silver Star. On these routes--four of which exceed 24 hours of 
travel time--sleeping car passengers have ``flexible dining'' 
options while other passengers are limited to cafe car 
purchases.\22\
---------------------------------------------------------------------------
    \22\ Amtrak Press Release, ``Amtrak Introduces Enhanced Menu and 
Flexible Dining Experience on Five Routes,'' Available at https://
media.amtrak.com/2019/09/amtrak-introduces-enhanced-menu-and-flexible-
dining-experience-on-five-routes/, Dated September 13, 2019.
---------------------------------------------------------------------------

ELIMINATING STATION AGENTS AT 15 STATIONS

    On June 1, 2018, Amtrak eliminated station agents at 
stations that average fewer than 40 passengers a day. This 
change eliminated more than 20 agents at 15 stations throughout 
the country, including: Charleston, WV; Cincinnati, OH; Fort 
Madison, IA; Garden City, KS; Hammond, LA; Havre, MT; La Junta, 
CO; Lamy, NM; Marshall, TX; Meridian, MS; Ottumwa, IA; Shelby, 
MT; Texarkana, AR; Topeka, KS; and Tuscaloosa, AL. Station 
agents provide passengers access to on-site travel support, 
ticket sales, and customer service, and perform building 
maintenance tasks.

CLOSING THE RIVERSIDE CALL CENTER

    In January 2019, Amtrak closed its reservation call center 
in Riverside, CA, where nearly 500 personnel familiar with 
Amtrak's routes, schedules, and amenities had remotely assisted 
passengers in booking and adjusting Amtrak travel. Currently, 
Amtrak maintains a call center in Philadelphia, PA and 
contracts with a call service in Florida for calls that the 
Philadelphia call center can't accommodate.\23\
---------------------------------------------------------------------------
    \23\ Katzanek, Jack. ``About 1 in 5 Riverside Amtrak workers headed 
to Philadelphia.'' The Press-Enterprise; January 8, 2019. Available at 
https://www.pe.com/2019/01/08/about-1-in-5-riverside-amtrak-workers-
headed-to-philadelphia/.
---------------------------------------------------------------------------

REDUCING THE AMTRAK POLICE DEPARTMENT WORKFORCE

    The Amtrak Police Department (APD) is responsible for 
responding to incidents taking place onboard trains and in 
stations, supporting counterterrorism efforts, and stopping the 
illegal transport of narcotics. In May 2019, the Amtrak 
Fraternal Order of Police Labor Committee was informed that 
Amtrak intended to reduce the APD workforce by 20 percent, or 
roughly 100 positions. Amtrak's FY 2019 budget supported 534 
positions. These anticipated cuts began taking effect in June 
2019 and are anticipated to continue over the next several 
years. In an October 2019 letter to Chairmen DeFazio and 
Lipinski, the railroad stated that an assessment of the 
deployment of its police force found that greater police 
presence is needed onboard trains, rather than only 
stations.\24\ Amtrak wrote that this change ``will not impact 
the level of security we provide in stations or trains, but 
instead reallocate our physical presence in a more purposeful 
and visible manner . . . \25\
---------------------------------------------------------------------------
    \24\ Stadtler, D.J., Executive Vice President, Chief Administration 
Officer, Letter to Chairman Peter A. DeFazio and Chairman Daniel 
Lipinski, Dated October 21, 2019.
    \25\ Ibid Page 2.
---------------------------------------------------------------------------

REDUCTIONS TO OTHER SERVICES AND BENEFITS

    In addition, Amtrak reduced benefits offered to riders, 
including ending discounts for AAA members and students while 
raising the qualifying age and reducing the discount for 
seniors. Amtrak has also nearly eliminated all charter services 
or special trains and has significantly scaled back 
opportunities for private cars to travel on Amtrak trains, 
instituting switching location restrictions and increasing 
fees.

PREFERENCE AND ON-TIME PERFORMANCE

    Riders' approval of Amtrak is also impacted by the 
railroad's reliability.\26\ Amtrak owns only three percent of 
the more than 21,000 route-miles in its network. As a result, 
it operates much of its service over tracks that are owned, 
maintained, and dispatched by the freight railroads.\27\ Under 
49 U.S.C. Section 24308(c), Amtrak trains have ``preference'' 
over freight transportation in using a rail line, junction, or 
crossing, except in emergencies or unless the Surface 
Transportation Board (STB) orders otherwise.
---------------------------------------------------------------------------
    \26\ Amtrak, 2019 Amtrak Five Year Service Line Plans, Base 
(FY2019) and Five Year Strategic Plan (FY2020-2024). Available at 
https://www.amtrak.com/content/dam/projects/dotcom/english/
public/documents/corporate/businessplanning/Amtrak-Service-Line-Plans-
FY20-24.pdf. Page 83.
    \27\ Amtrak, Amtrak Host Railroad Report Card 2018. Available at 
https://www.amtrak.com/content/dam/projects/dotcom/english/public/
documents/corporate/HostRailroadReports/Amtrak-2018-Host-Railroad-
Report-Card.pdf. Page 3.
---------------------------------------------------------------------------
    Section 207 of PRIIA 2008 required FRA and Amtrak, in 
consultation with the STB and freight and commuter railroads, 
to establish minimum standards for measuring the performance 
and service quality of intercity passenger train operations, 
including on-time performance (OTP). Such metrics and standards 
were to be incorporated into access and service contracts 
between Amtrak and the freight railroads. Additionally, Section 
213 of PRIIA 2008 stated that if the OTP of any intercity 
passenger train averages less than 80 percent for any two 
consecutive calendar quarters, or the service quality of 
intercity passenger train operations for which minimum 
standards are established pursuant to Section 207 fails to meet 
those standards for two consecutive calendar quarters, the STB 
may initiate an investigation. Alternatively, upon filing of a 
complaint by Amtrak, an intercity passenger rail operator, a 
host freight railroad over which Amtrak operates, or an entity 
for which Amtrak operates intercity passenger rail service, the 
STB shall initiate an investigation.
    In May 2010, Amtrak and FRA jointly issued metrics.\28\ The 
Association of American Railroads sued the Department of 
Transportation over the standards, stating that Amtrak was a 
non-governmental entity and could not issue federal standards. 
Following the case moving through various courts, in June 2019, 
the U.S. Supreme Court declined a request to review a lower-
court hearing, which meant the previous metrics issued were 
invalid and FRA and Amtrak would need to develop new metrics 
and standards. To date, a commonly accepted method to measure 
OTP still has not been determined.
---------------------------------------------------------------------------
    \28\ Metrics and Standards for Intercity Passenger Rail Service, 
Issued May 12, 2010, Available at https://www.fra.dot.gov/eLib/Details/
L02875.
---------------------------------------------------------------------------
    Amtrak's Office of Inspector General (IG) issued a report 
in October 2019, which found that, in FY 2018, Amtrak trains on 
the NEC routes and state-supported routes arrived on time 78 
percent and 81 percent, respectively; while less than half (46 
percent) of long-distance trains arrived on time, with an 
average 49-minute delay.\29\ Nationwide, 27 percent of trains 
were late. The same report identified the financial impacts of 
poor OTP, finding that a five percent improvement in OTP on 
each route could result in short-term net financial benefits of 
$12.1 million in the first year. Such benefits would be 
realized through cost savings and additional revenues based on 
shorter train operating times and improved customer 
satisfaction.\30\
---------------------------------------------------------------------------
    \29\ Here, the IG measured ``on time'' as how a train performs 
compared with its published, scheduled arrival time at each station and 
final destination on its route.
    \30\ Amtrak Office of Inspector General, ``Train Operations: Better 
Estimates Needed of the Financial Impacts of Poor On-Time 
Performance,'' OIG-A-2020-001, October 14, 2019, Available at https://
amtrakoig.gov/audit-documents/audit-reports/train-operations-better-
estimates-needed-financial-impacts-poor-time Pages 1, 2, 6, 7, 8.
---------------------------------------------------------------------------

INVESTMENT NEEDS: A SNAPSHOT

    As noted above, Amtrak plays a critical role in the NEC, 
where it owns and controls 363 miles of track. The heavy usage 
of this corridor combined with the age of bridges and tunnels--
many of which date back to the period between the Civil War and 
the New Deal--has led to major needs in maintenance and capital 
infrastructure improvements to remove bottlenecks and increase 
capacity along the corridor. As of March 2019, data from the 
Northeast Corridor Commission shows that more than an estimated 
$21 billion remains unfunded for major rail infrastructure 
projects along the NEC. Some of these projects include: the 
Baltimore & Potomac Tunnel ($4.59 billion project, with $4.52 
billion unfunded), which was built in 1873 and requires 
replacing the Civil-War era tunnel with a newer curve-moderated 
tunnel; replacement of the swing-span Portal North Bridge 
($1.78 billion project, with $811 million unfunded) over the 
Hackensack River; and replacement of the Susquehanna River 
Bridge ($1.88 billion project, with $1.86 billion unfunded).
    In addition to the NEC major projects, much of Amtrak's 
fleet has aged and is need of replacement. For instance, the P-
40 and P-42 locomotives and the Superliner fleet used on long-
distance routes and some state-supported routes are an average 
age of 20 years and 35 years, respectively, while the Amfleet I 
equipment used on Northeast Regional trains and several state-
supported services is 40-years old. Amtrak defines equipment as 
having a useful life of 30 years for locomotives and 40 years 
for railcars for State-of-Good Repair purposes. Amtrak 
indicates that because the P-42 locomotives have low 
reliability, many long-distance trains operate with two of 
these locomotives to protect against breakdowns, which 
increases operating and maintenance expenses.\31\ As these 
locomotives and cars and others begin reaching the term of 
their useful life, Amtrak is planning major fleet initiatives 
to modernize its rolling stock by largely replacing most 
locomotives and railcars in service today.\32\ While Amtrak is 
experiencing additional rolling stock investment needs, 
Amtrak's FY 2020 grant request indicates an additional $2.46 
billion in federal funds is required for its Amfleet I, 
Superliner, and diesel locomotive replacements.
---------------------------------------------------------------------------
    \31\ Amtrak, 2019 Amtrak Five Year Service Line Plans, Base 
(FY2019) and Five Year Strategic Plan (FY2020-2024). Available at 
https://www.amtrak.com/content/dam/projects/dotcom/english/
public/documents/corporate/businessplanning/Amtrak-Service-Line-Plans-
FY20-24.pdf Page 71.
    \32\ Amtrak, Amtrak Five Year Equipment Asset Line Plan, Base 
(FY2019) and Five Year Strategic Plan (FY2020-2024). Available at 
https://www.amtrak.com/content/dam/projects/dotcom/
english/public/documents/corporate/businessplanning/Amtrak-Equipment-
Asset-Line-Plan-FY20-24.pdf Page 5.
---------------------------------------------------------------------------
    Amtrak maintains its fleet at more than 60 maintenance 
facilities located nationwide. These facilities range from rail 
yards where basic cleaning and light servicing work is done, to 
back shops where heavy overhauls and rebuilds of wrecked 
equipment are performed.\33\ Amtrak's mechanical employees also 
perform various work at those facilities on equipment owned by 
state partners and used by commuter rail agency partners. 
Investments are needed at these facilities, including creating 
additional track and capacity at certain facilities to 
accommodate future expansion, modifications necessary to 
properly maintain locomotives, and to bring certain facilities 
to a state of good repair, among other needs.\34\ Moreover, 
more than 500 stations owned by states, cities, host railroads, 
and Amtrak that comprise its network must be properly 
maintained. Amtrak is investing in projects that enhance 
passenger experience, sustain the national passenger rail 
network, provide much-needed additional capacity, and improve 
reliability and safety.\35\ In 2016, Amtrak received a $2.5 
billion RRIF loan to purchase 28 new trains, make station 
improvements at Washington Union Station and Moynihan Station 
in New York City, and track capacity and ride quality 
improvements in the NEC.\36\ Amtrak's FY 2020 grant request 
indicates an additional $1.36 billion in federal funds is 
needed for select station and facility improvements.
---------------------------------------------------------------------------
    \33\ Ibid, Page 18.
    \34\ Ibid, Page 42.
    \35\ Amtrak, 2019 Amtrak Five Year Stations Asset Line Plan, Base 
(FY2019) and Five Year Strategic Plan (FY2020-2024). Available at 
https://www.amtrak.com/content/dam/projects/
dotcom/english/public/documents/corporate/businessplanning/Amtrak-
Stations-Asset-Line-Plan-FY20-24.pdf Page 6.
    \36\ Progressive Railroading, ``Amtrak Receives $2.5 Billion RRIF 
Loan for Alstom Trains, Northeast Corridor Upgrades,'' Available at 
https://www.progressiverailroading.com/amtrak/
news/Amtrak-receives-25-billion-RRIF-loan-for-Alstom-trains-Northeast-
Corridor-upgrades--49275.
---------------------------------------------------------------------------
    Additionally, the Americans with Disabilities Act (ADA) 
required that all stations in the intercity rail transportation 
system be made accessible to and usable by individuals with 
disabilities no later than 2010.\37\ Amtrak has sole or shared 
financial responsibility to bring 383 stations into compliance 
with ADA requirements and estimates that it will cost over $1 
billion to complete this work.
---------------------------------------------------------------------------
    \37\ 42 U.S. Code  12162.
---------------------------------------------------------------------------

AMTRAK SAFETY

    Amtrak has instituted a comprehensive new Safety Management 
System (SMS) to improve its safety culture. SMS is an 
organization-wide comprehensive and preventative approach to 
managing safety, intended to move Amtrak from reactive 
responses to individual safety events toward a continual 
assessment and predictive understanding of risks facing the 
entire organization before an unwanted event occurs. According 
to Amtrak, SMS will establish safety as an integral element in 
all operational business functions and is built upon four 
components: Safety Policy, Safety Promotion, Safety Assurance, 
and Safety Risk Management.\38\
---------------------------------------------------------------------------
    \38\ Amtrak Safety Fact Sheet, Available at https://
media.amtrak.com/wp-content/uploads/2019/01/Amtrak_Safety_Fact_Sheet_1-
16-18.pdf Page 2.
---------------------------------------------------------------------------
    Amtrak has also developed a plan to systematically evaluate 
and reduce risks. In the Rail Safety Improvement Act of 2008, 
Congress directed DOT to issue regulations within four years 
requiring certain freight and passenger railroads to develop 
and submit to FRA for approval safety risk reduction programs. 
These programs are intended to systematically evaluate safety 
risks and manage those risks to reduce railroad accidents, 
incidents, injuries, and fatalities. FRA undertook a rulemaking 
to develop a System Safety Program (SSP) for passenger 
railroads, publishing an SSP final rule in August 2016; 
however, that rule has been stayed several times after comments 
from stakeholders, and the current stay extends until March 4, 
2020. Despite the lack of final regulations, Amtrak moved ahead 
with developing its SSP plan, submitting it to the FRA in 
November 2018.\39\
---------------------------------------------------------------------------
    \39\ Ibid.
---------------------------------------------------------------------------
    Positive Train Control (PTC) systems are technologies 
designed to automatically stop or slow a train to prevent 
train-to-train collisions, over-speed derailments, incursions 
into established work zones, and the movement of a train 
through a switch left in the wrong position. Congress enacted 
the Rail Safety Improvement Act of 2008 (RSIA, P.L. 110-432) in 
October 2008, requiring each Class I railroad and each entity 
providing intercity or commuter rail passenger transportation 
to implement a PTC system governing certain operations by 
December 31, 2015. That deadline was extended to December 31, 
2018, and the Secretary of Transportation was authorized to 
provide each railroad, on a case-by-case basis, with an 
additional extension of up-to 24 months as long as the railroad 
met the requirements specified in statute.\40\
---------------------------------------------------------------------------
    \40\ These requirements include having: installed all PTC system 
hardware; acquired all spectrum; in the case of a Class I railroad 
carrier or Amtrak, implemented PTC or initiated revenue service 
demonstration on 50 percent of its territories; in the case of a 
commuter railroad, initiated revenue service demonstration on at least 
one territory; and completed employee training required under the 
applicable regulations. See Surface Transportation Extension Act of 
2015 (P.L. 114-73).
---------------------------------------------------------------------------
    According to the FRA's 2019 second quarter reporting, 100 
percent of Amtrak's locomotives are fully equipped and operable 
with PTC; 100 percent of the required track segments have PTC 
installed, 100 percent of the required employee training is 
complete, two of its three PTC systems are conditionally 
certified, and it has achieved 19 percent interoperability 
(three of its 16 interoperable relationships are complete).\41\
---------------------------------------------------------------------------
    \41\ https://www.regulations.gov/document?D=FRA-2010-0029-0124.
---------------------------------------------------------------------------

                                APPENDIX

                                Amtrak System Map \42\
---------------------------------------------------------------------------
    \42\ The numbers on this map correspond to the routes as follows: 
1. Cascades; 2. Coast Starlight; 3. Capitol Corridor, San Joaquin; 4. 
Pacific Surfliner; 5. Empire Builder; 6. California Zephyr; 7. 
Southwest Chief; 8. Sunset Limited; 9. Blue Water, Carl Sandburg, 
Hiawatha, Hoosier State (discontinued as of July 2019), Illini, 
Illinois Zephyr, Lincoln, Pere Marquette, Saluki, Wolverine; 10. 
Missouri River Runner; 11. Heartland Flyer; 12. Texas Eagle; 13. City 
of New Orleans; 14. Lake Shore Limited; 15. Capitol Limited; 16. 
Cardinal; 17. Crescent; 18. Maple Leaf; 19. Adirondack, Empire, Ethan 
Allen; 20. Keystone, Pennsylvanian; 21. Vermonter, Valley Flyer 
(initiated August 2019); 22. Downeaster; 23. Northeast Corridor; 24. 
Carolinian, Piedmont, Virginia; 25. Auto Train, Palmetto; 26. Silver 
Meteor, Silver Star. Where State-Supported and Long-Distance routes 
overlap, the State-Supported route is shown. Amtrak. General and 
Legislative Annual Report & Fiscal Year 2020 Grant Request. Available 
at https://www.amtrak.com/
content/dam/projects/dotcom/english/public/documents/corporate/reports/
Amtrak-General-Legislative-Annual-Report-FY2020-Grant-Request.pdf. Page 
5.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               WITNESSES

    <bullet> LRichard Anderson, President and CEO, Amtrak
    <bullet> LNancy Nathanson, Representative, Oregon State 
Legislature
    <bullet> LGreg Regan, Secretary-Treasurer, Transportation 
Trades Department, AFL-CIO
    <bullet> LJack Dinsdale, National Vice President, 
Transportation Communications Union
    <bullet> LJim Mathews, President and CEO, Rail Passengers 
Association
    <bullet> LBob Guy, Illinois State Director, Sheet Metal, 
Air, Rail and Transportation-Transportation Division
    <bullet> LStacey Mortensen, Executive Director, San Joaquin 
Joint Powers Authority


                     AMTRAK NOW AND INTO THE FUTURE

                              ----------                              


                      WEDNESDAY, NOVEMBER 13, 2019

                  House of Representatives,
Subcommittee on Railroads, Pipelines, and Hazardous 
                                         Materials,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2167, Rayburn House Office Building, Hon. Daniel Lipinski 
(Chairman of the subcommittee) presiding.
    Mr. Lipinski. The subcommittee will come to order. I ask 
unanimous consent that the chair be authorized to declare 
recesses during today's hearing.
    Without objection, so ordered.
    I also ask unanimous consent that Members not on the 
committee be permitted to sit with the subcommittee at today's 
hearing and ask questions.
    Without objection, so ordered.
    Good morning. Welcome to today's oversight hearing of the 
Railroads, Pipelines, and Hazardous Materials Subcommittee, 
entitled ``Amtrak Now and Into the Future.'' I am glad we have 
a good crowd here, as I know there is something else of 
interest going on right now. And Mr. Crawford was just saying 
it was very quiet in here. And everyone was watching the 
impeachment hearing on their phone. And Mr. Crawford said, I 
think it is on the TV in front of the witnesses. But--I don't 
think it really is.
    But this is an important hearing that we are holding today 
as part of the subcommittee's continued work on Amtrak 
reauthorization and the surface transportation reauthorization. 
Both of these authorizations expire at the end of September of 
next year, so this is a critical time to be looking at the 
issues as we begin drafting this legislation. I am a strong 
advocate for Amtrak service and passenger rail in general. I am 
also frequently a passenger as recently as when I was back home 
in the district last week. We need to make passenger rail work. 
And this will require a larger Federal investment, but the 
reauthorization is not just going to be about providing more 
money, it will also be about making sure Amtrak is being run 
well.
    Because Amtrak recently has undertaken a lot of actions 
that have raised concerns, we will be focusing on some of these 
concerns today. One concern is that Amtrak has made and 
continues to make significant cuts to its workforce, including 
cutting call center employees, food and beverage workers, 
station agents and police officers.
    Last week, Amtrak informed the Transportation 
Communications Union that it is cutting an additional 89 jobs. 
Amtrak is even outsourcing call center jobs to a private 
contractor in Florida that pays the minimum wage, $7.25 an hour 
with no benefits. This outsourcing is occurring after Amtrak 
closed the Riverside, California, facility last year, and told 
everyone that the jobs at the Philadelphia call center were 
safe.
    It is insulting for Amtrak to be cutting jobs that they say 
are not needed, then outsourcing the same jobs to low-wage, no-
benefit contractors. Amtrak clearly has a science that the way 
to prosperity is to have its workers pay for it. This is not 
the way to run this railroad. Making customer interactions, 
food and beverage service and police protections worse 
decreases Amtrak's attractiveness to potential riders. You do 
not get more riders or more revenue with a worse product.
    I look forward to hearing from the Transportation Trades 
Department, Transportation Communications Union and SMART-TD 
today on how we start reversing this alarming trend, and get 
back to a place where Amtrak treats its workers with the 
respect and dignity they deserve, and gives passengers the 
quality service they deserve.
    Next, I want to turn to Amtrak's intentions regarding long-
distance service. When Congress created Amtrak in 1970, it 
clearly intended the railroads to serve the whole Nation. The 
word ``national'' is in Amtrak's official name. Amtrak's long-
distance services are a critical economic lifeline to many 
small towns throughout the Nation. Oftentimes, Amtrak service 
is the only connection these towns have and are especially 
relied on by those who cannot drive, including seniors. Amtrak 
tried to end its Southwest Chief service in 2018 and Congress 
rejected it. Any proposals for Amtrak to end other long-
distance train services will be met with similar congressional 
reactions.
    Finally, I remain focused on a big issue to my constituents 
in the Chicago region: Amtrak's stewardship of Chicago's Union 
Station. Tens of thousands of my constituents take trains in 
and out of CUS every day. Ninety percent of all passengers who 
pass through CUS are passengers of Metra commuter rail. Amtrak 
has had some major issues this year at CUS, including falling 
concrete at the station that hit a Metra train, and a 
disastrous service outage in February that lasted through 
multiple rush hours. This issue was solely Amtrak's fault. 
Improvements must still be made at Chicago Union Station. I 
believe the best way to do this would be for Amtrak to give up 
operational control of the station to ensure that operations 
improve to a level that passengers deserve.
    I look forward to hearing from all of the witnesses on 
these issues, as well as other issues like on-time performance. 
I want Amtrak to provide the quality rail travel that 
passengers deserve. I believe we must all work together to 
provide that.
    [Mr. Lipinski's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Daniel Lipinski, a Representative in 
  Congress from the State of Illinois, and Chairman, Subcommittee on 
             Railroads, Pipelines, and Hazardous Materials
    Good morning and welcome. Today's oversight hearing of the 
Railroads, Pipelines and Hazardous Materials Subcommittee is entitled 
``Amtrak Now and Into the Future.''
    This hearing is part of this Subcommittee's continued work on 
Amtrak reauthorization and the surface transportation reauthorization. 
Both authorizations expire at the end of September next year so this is 
a critical time to be looking at these issues as we begin drafting the 
legislation. I am a strong advocate for Amtrak service, and passenger 
rail in general. I am also frequently a passenger, as recently as when 
I was back home in the district last week. We need to make passenger 
rail work, and this will require a larger federal investment. But the 
reauthorization is not just going to be about providing more money, it 
will also be about making sure Amtrak is being run well. Because Amtrak 
recently has undertaken a lot of actions that have raised concerns, we 
will be focusing on some of these concerns today.
    One concern is that Amtrak has made and continues to make 
significant cuts to its workforce, including cutting call center 
employees, food and beverage workers, station agents, and police 
officers. Last week, Amtrak informed the Transportation Communications 
Union that it is cutting an additional 89 jobs. Amtrak is even 
outsourcing call center jobs to a private contractor in Florida that 
pays minimum wage, $7.25 an hour, with no benefits. This outsourcing is 
occurring after Amtrak closed the Riverside, California, facility last 
year and told everyone that the jobs at the Philadelphia call center 
were safe. It is insulting for Amtrak to be cutting jobs they say are 
not needed and then outsourcing the same jobs to low-wage, no-benefit 
contractors. Amtrak clearly has decided that the way to prosperity is 
to have its workers pay for it. This is not the way to run this 
railroad. Making customer interactions, food and beverage service, and 
police protection worse decreases Amtrak's attractiveness to potential 
riders. You do not get more riders or more revenue with a worse 
product.
    I look forward to hearing from the Transportation Trades 
Department, Transportation Communications Union, and SMART-UTU today on 
how we start reversing this alarming trend and get back to a place 
where Amtrak treats its workers with the respect and dignity they 
deserve, and gives passenger the quality service they deserve.
    Next I want to turn to Amtrak's intentions regarding long distance 
service. When Congress created Amtrak in 1970, it clearly intended the 
railroad to serve the whole nation; the word ``National'' is in 
Amtrak's official name. Amtrak's long distance services are a critical 
economic lifeline to many small towns throughout our nation. 
Oftentimes, Amtrak service is the only connection these towns have and 
are especially relied on by those who cannot drive, including seniors. 
Amtrak tried to end the Southwest Chief service in 2018 and Congress 
roundly rejected it. Any proposals from Amtrak to end other long-
distance train services will be met with similar congressional 
reaction.
    Finally, I remain focused on a big issue to my constituents and the 
Chicago region, Amtrak's stewardship of Chicago Union Station (CUS). 
Tens of thousands of my constituents take trains in and out of CUS 
every day. Ninety percent of all passengers who pass through CUS are 
passengers of Metra commuter rail. Amtrak has had some major issues 
this year at CUS, including falling concrete at the station that hit a 
Metra train and a disastrous service outage in February that lasted 
through multiple rush hours that was solely Amtrak's fault. 
Improvements must still be made at Chicago Union Station. I believe the 
best way to do this would be for Amtrak to give up operational control 
of the station to ensure that its operations improve to the level that 
passengers deserve.
    I look forward to hearing from all our witnesses on these issues as 
well as other issues like on-time performance. I want Amtrak to provide 
the quality rail travel that passengers deserve. I believe that we must 
all work together to provide that.

    Mr. Lipinski. I will now yield back and recognize Ranking 
Member Crawford for an opening statement.
    Mr. Crawford. Thank you, Mr. Chairman. I appreciate you 
holding the hearing today. I want to thank our witnesses for 
being here as well.
    As this committee begins to work to reauthorize surface 
transportation programs, it is critically important to explore 
options to improve passenger rail service, while at the same 
time, reducing cost. My district is served by Amtrak's Texas 
Eagle long-distance route, with one station located at Walnut 
Ridge. I know that on-time performance has been challenging for 
this route among others. I look forward to hearing how on-time 
performance can be improved. While passenger rail moves fewer 
people than other modes, Congress must foster an environment 
that embraces innovation, provides flexibility, and makes rail 
service more competitive and financially viable.
    I am also interested to hear about the future railroad 
route network envisioned by Amtrak and State railroad agencies 
supporting or interested in supporting State services. Today, 
we will hear about such a rail agency with direct experience 
working with Amtrak as an operator and with private contractors 
as operators. I look forward to discussing ideas on contracting 
as a way to provide the highest level of service at the lowest 
possible cost.
    Finally, railroad innovation leads to new technologies that 
make operations safer and more efficient. In turn, the rail 
network can handle increased demand and help relieve congestion 
on our roads.
    Thank you, again, to all of our witnesses for being here 
today.
    [Mr. Crawford's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Eric A. ``Rick'' Crawford, a Representative 
      in Congress from the State of Arkansas, and Ranking Member, 
     Subcommittee on Railroads, Pipelines, and Hazardous Materials
    As this Committee begins work to reauthorize surface transportation 
programs, it is critically important to explore options to improve 
passenger rail service while reducing costs.
    My district is served by Amtrak's Texas Eagle long-distance route, 
with one station located at Walnut Ridge. I know that on-time 
performance has been challenging for this route, among others, and I 
look forward to hearing how on-time performance can be improved.
    While passenger rail moves fewer people than other modes, Congress 
must foster an environment that embraces innovation, provides 
flexibility, and makes rail service more competitive and financially 
viable.
    I also am interested to hear about the future railroad route 
network envisioned by Amtrak and state railroad agencies supporting or 
interested in supporting state services. Today we will hear about such 
a rail agency with direct experience working with Amtrak as an operator 
and with private contractors as operators.
    I look forward to discussing ideas on contracting as a way to 
provide the highest level of service at the lowest possible costs.
    Finally, railroad innovation leads to new technologies that make 
operations safer and more efficient. In turn, the rail network can 
handle increased demand and help relieve congestion on our roads.
    Thank you to all of our witnesses for being here today.

    Mr. Crawford. I yield back the balance of my time.
    Mr. Lipinski. I will now recognize the chair of the full 
committee, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. And thanks to the 
panel. I particularly want to welcome State Representative 
Nancy Nathanson from the Eugene area, one of my constituents. 
She has been a very dogged advocate for improvements to 
passenger rail in the State. And I think there are elements of 
her testimony today that will echo challenges that we are 
looking at nationwide in terms of providing better service with 
Amtrak. We are not unique. Our Cascade, Coast Starlight and the 
Amtrak Cascades are scheduled for 2 hours and 30 minutes to 
Portland. It is about 108 miles to downtown Portland, the Union 
Station. We don't ever come close to that time, due to the 
challenges with the problems with freight railroads. If we 
could reliably get there in 2\1/2\ hours, I would never get on 
the Interstate 5 again. You never know. You can drive in an 
hour and 50 minutes, or it might be 3 or 4 hours, depending 
upon traffic, and accidents, and other things.
    So reliability is key in terms of having a schedule that 
you can rely upon. And secondly, frequency is also critical. 
You know, there are some here who think we shouldn't have a 
national rail system for our country.
    We are borrowing $17 billion a year, even though we passed 
pay-fors when the Republicans did the FAST Act. But the fact 
is, we are borrowing $17 billion a year to put into the Highway 
Trust Fund. Some 20 percent of that goes to transit. The rest 
of it goes to highways.
    So that is a pretty big subsidy for highways and bridges. 
But there are those who think, well, we can't provide any 
subsidy to Amtrak. There is no passenger rail system in the 
world that makes money. Now, Virgin said, well, we make money 
in Britain. Sure you make money, the Government maintains the 
right-of-way in the track, and you run power over it. That is 
pretty damn easy. But that is not the reality in this country. 
Amtrak's most frequented route--and it is sort of its cash 
cow--we have, I think, a $38 or $40 billion backlog of failing 
investments. I took the committee on a tour up to New York. 
Amtrak put us on a special train with a viewing car that they 
used to do inspections.
    We saw some of the best engineering work, incredible 
engineering work that was done between 1872 and 1933. 
Unfortunately things wear out. The tunnel under Baltimore, 
brick, the water mains above it, which the city hasn't 
maintained, are leaking, and we have a brick tunnel where it 
rains perpetually inside. Now how long is that going to last? 
If that fails, the east coast is paralyzed.
    Then we get to the Portal Bridge up in New Jersey, where 
the Trump administration is withholding approval because they 
are saying even though the State is going to borrow TIFIA 
funds, and the State has to pay them back, that doesn't count, 
although it always has, as a local match. You have got to pay 
them back. They want him to pay a higher interest rate and go 
borrow the money from Wall Street or Trump Inc. or something 
like that. I don't quite get it. And the Portal Bridge, when 
they open it, they have to send out a large crew of people, and 
one really big guy with a sledge hammer who finishes it off to 
get it back in place.
    The design is done, we are just waiting for the 
administration to stop dragging its feet. Then we went under 
the Hudson. We came back at midnight, they closed down one the 
tunnels and we went in to see the improvements in the tunnel, 
1933, they put in knee walls in the tunnel. They run 12,000 
volt cables through there to electrify the trains going under 
there so people wouldn't choke on whatever it was originally, 
probably coal or diesel. And it got flooded during Sandy, and 
now the concrete is falling and every once in a while, kaboom, 
the 12,000 volt cable blows up, and it takes a very long time 
to repair it.
    If either of those tunnels fail, it is $17 billion a year 
to the American economy. It is not just a New York problem, not 
just a New Jersey problem, it is a problem for the whole 
Nation; $17 billion a year in lost economic activity. It is 
going to cost $16 billion to build the tunnels. But the 
environmental statement is sitting on Secretary Chao's desk 
because Trump is involved in a little boy peeing match with 
Chuck Schumer. Now he has moved to Florida, so he doesn't give 
a damn at all if that fails.
    So those are issues, but then today, here with Amtrak, and 
I am going to give Mr. Anderson a letter from one of my 
constituents. We have got to question the degrading of the 
service, and what that means for the future of Amtrak. I know 
you feel you have a mandate to break even. You know, I intend 
to change that when we do the reauthorization. Again, there is 
no rail system in the world that makes money. And when you do 
things--I don't know where you make money, I don't know if you 
cost out your seats. You were in the airline industry, and I 
know in the airline industry, you make most of your money 
upfront, you don't make it with the bargain seats. And, I have 
friends, a couple who often go to southern California, and they 
prefer to take the train as to fly, and they rent a sleeper. 
But they have done away with the parlor car, so now the first-
class people don't have a parlor car. And they go to the lounge 
car, and there are people camping in the lounge car. I mean, 
actually camping, sleeping bags, they put all their stuff, 
backpacks and stuff, on the seats, and no one can get into the 
lounge car, and then the issues with food.
    So, you know, you are going to lose the high-end 
passengers, maybe you want to dump them. I don't know. But we 
have got to look really carefully and closely at what we are 
doing with and for Amtrak, because this is a much more energy-
efficient form of transportation. We are going to deal with a 
lot of issues here trying to decarbonize transportation in this 
country, 46 percent of carbon pollution in the United States 
comes from transportation. Rail is so much more efficient than 
aviation or individual automobiles for passengers. I think it 
is a critical service, and we have got to look at making it 
better and sustainable.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
     Congress from the State of Oregon, and Chairman, Committee on 
                   Transportation and Infrastructure
    Thank you, Subcommittee Chairman Lipinski and Ranking Member 
Crawford, for holding this hearing. First, I'd like to welcome Oregon 
Legislative Representative Nancy Nathanson, who represents the Eugene 
area. She has been a long-time advocate for improvements to passenger 
rail in the state and I think her testimony today will echo the 
challenges and opportunities that many states are feeling with Amtrak 
service. Thank you for being here today.
    Amtrak should be one of our Nation's great success stories, but it 
remains one of our Nation's most difficult challenges because of a 
belief by some in this chamber that our country shouldn't have a 
national passenger rail system supported by the Federal Government. We 
spend hundreds of billions of dollars to subsidize every form of public 
transportation--highways, aviation, transit--yet Amtrak gets the short 
end of the stick, with under $2 billion a year from the Federal 
Government.
    People are tired of spending an hour and a half to drive 20 miles 
to get home from work or spending an hour (plus) to get past airport 
security and to their gate only to find their flight is further delayed 
because of weather. Our highways and airports are at capacity, so it 
makes no sense to continue to ignore the value that our passenger rail 
system could offer this country if we actually put some real money 
towards improving it.
    To be clear, I don't subscribe to this notion that Amtrak needs to 
operate cost-neutral. China served nearly 3.4 billion people in 2018 
with their rail system, which they heavily invest in to the tune of 
$130 billion annually. Germany's Deutsche Bahn transports around 7.3 
million passengers a day, and the German federal government plans to 
fund a massive modernization project totaling $55.6 billion.
    Unfortunately, we have never provided the significant capital 
investments necessary to allow us to enjoy the flourishing passenger 
rail system that so many other countries value. Instead we are left 
with a mess of Civil War-era bridges and tunnels that Amtrak inherited 
when they assumed passenger rail service from railroads on the brink of 
bankruptcy in the 1970s, and a network that looks about the same as it 
did nearly five decades ago.
    Over the last two years, Amtrak has made a lot of changes to adhere 
to this concept of being cost-neutral. All to the detriment of 
customers and employees. They have eliminated the traditional dining 
service that Amtrak was known for on overnight routes east of the 
Mississippi. They've closed a call center in California that employed 
nearly 500 employees and assisted customers with reservations and 
travel adjustment. Only to contract much of this work out in Florida. 
Amtrak eliminated stations agents at 15 different stations across the 
county. They reduced the discount for seniors and announced plans to 
drastically reduce the number of Amtrak police officers who help keep 
passengers and communities safe. Amtrak has also nearly eliminated all 
charter services or special trains and has significantly scaled back 
opportunities for private cars to travel on Amtrak trains.
    And the hits keep coming. On Friday, Politico reported that Amtrak 
has been requiring passengers to agree to an arbitration agreement when 
they purchase their ticket. This change was quietly put into place in 
January 2019, and forces customers to consent to waive their rights to 
sue in U.S. courts for any reason, including for catastrophic injury or 
wrongful death. Also last week, Amtrak announced that they would be 
eliminating at least another 89 clerk jobs, who are represented by TCU, 
who is here today. Amtrak employees are rightfully fearful for their 
future, because so many of these changes have put their careers on the 
chopping block without much explanation or notice from Amtrak.
    Mr. Anderson, all we are seeing are cuts. Today, we need to hear 
what your long-term plans are for strengthening and growing Amtrak 
service. For upholding domestic procurement requirements that support 
good-paying jobs in this country and for adhering to the labor 
standards that, for decades, have created an avenue to the middle-class 
for Amtrak workers. Are you talking to passengers to get feedback on 
what they want and expect? When you initially rolled out food and 
beverage changes, customers weren't happy.
    In August, I held a meeting in my district to talk about the state-
supported service that ends in my district--the Cascades route. We have 
dismal ridership because passengers can't reliably expect the train to 
meet its destination at the scheduled time. We need to address on-time 
performance issues with the freight railroads, because while Amtrak has 
preference on these lines by statute, in practice that is not always 
happening, and instead passenger trains are being dispatched into 
sidings and forced to wait.
    The thing is, people want national passenger rail service. To get 
there, we have to stop nickel and diming Amtrak to death and get over 
this notion that Amtrak can help meet the far-reaching transportation 
needs of our country without real federal investment that both expands 
services and improves the system that we have. I look forward to 
hearing your visions of Amtrak's future and about the ways we can 
strengthen and grow this national asset without harming those who rely 
on this system for travel and employment.

    Mr. DeFazio. With that, Mr. Chairman, I yield back the 
balance of my time.
    Mr. Lipinski. Thank you. I would now like to welcome our 
panel of witnesses: Mr. Richard Anderson, President and CEO of 
Amtrak; Ms. Nancy Nathanson, a Representative in Oregon State 
Legislature; Mr. Greg Regan, the secretary-treasurer of the 
Transportation Trades Department, AFL-CIO; Mr. Jack Dinsdale, 
national vice president, Transportation Communications Union; 
Mr. Jim Mathews, president and CEO of Rail Passengers 
Association; Mr. Bob Guy, who is the Illinois State legislative 
director of the International Association of Sheet Metal, Air, 
Rail and Transportation Workers-Transportation Division.
    I will give a little intro to Bob Guy, I know him from back 
home in Illinois. In 2012 and 2016, Bob was reelected to a new 
4-year term as State director, Illinois legislative board of 
the Transportation Division of the International Association of 
Sheet Metal, Air, Rail and Transportation Workers.
    In June of 2009, Bob was appointed vice president of 
Illinois AFL-CIO, a position that he retains to this day. Bob 
represents SMART-TD on the U.S. Surface Transportation Board's 
Rail Energy Transportation Advisory Committee, and has also 
served the public as a Governor appointee to Northeastern 
Illinois Public Transit Task Force, and is currently Illinois 
private sector appointee to Midwest Interstate Passenger Rail 
Commission. In October, Bob was elected chairperson of the 
commission.
    And our final witness is Ms. Stacey Mortensen, executive 
director of San Joaquin Joint Powers Authority. I thank all of 
you for being here today. We look forward to your testimony.
    Without objection, our witnesses' full statements will be 
included in the record. Since your written testimony has been 
made part of the record, the subcommittee requests you limit 
your oral testimony to 5 minutes. So we will begin by 
recognizing Mr. Anderson for 5 minutes.

 TESTIMONY OF RICHARD ANDERSON, PRESIDENT AND CHIEF EXECUTIVE 
OFFICER, NATIONAL RAILROAD PASSENGER CORPORATION (AMTRAK); HON. 
  NANCY NATHANSON, STATE REPRESENTATIVE, THIRTEENTH DISTRICT, 
  OREGON STATE LEGISLATURE; GREG REGAN, SECRETARY-TREASURER, 
   TRANSPORTATION TRADES DEPARTMENT, AFL-CIO; JACK DINSDALE, 
 NATIONAL VICE PRESIDENT, TRANSPORTATION COMMUNICATIONS UNION 
(TCU/IAM); JIM MATHEWS, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
     RAIL PASSENGERS ASSOCIATION; BOB GUY, ILLINOIS STATE 
LEGISLATIVE DIRECTOR, INTERNATIONAL ASSOCIATION OF SHEET METAL, 
 AIR, RAIL AND TRANSPORTATION WORKERS-TRANSPORTATION DIVISION; 
  AND STACEY MORTENSEN, EXECUTIVE DIRECTOR, SAN JOAQUIN JOINT 
                        POWERS AUTHORITY

    Mr. Anderson. Thank you, Mr. Chairman, and members of the 
committee. I appreciate the opportunity to be here today to 
speak on behalf of Amtrak, and the good people that work at 
Amtrak. Two thousand nineteen, despite some of your anecdotal 
comments, was a record-breaking year for Amtrak in ridership, 
revenue, revenue passenger miles, and customer service approval 
scores. But most importantly, the last time I was here two 
times ago, our main focus was safety, and I am pleased to 
report that Amtrak has had a very successful year installing 
PTC with our host railroads, and we are in full compliance with 
the PTC statute. And we have implemented the first SMS program, 
the safety management program, in the rail industry ahead of 
the FRA guidelines.
    If you look across our safety statistics, we had 
significant improvement, in all of the key safety metrics 
across Amtrak. And I think that is probably the first and 
foremost policy issue we should always keep in front of mind.
    Let's move to reauthorization; a lot of people will make a 
lot of criticisms of Amtrak, and I will try to answer those as 
we go, but we are really here to really think about what the 
future is. And when we think about America adding 100 million 
people over the course of the next 30 to 40 years, those people 
are going to live in urban areas in urban corridors, we already 
see that. In many areas in the country, Amtrak has turned into 
the key intercity mode of transportation, because we have to 
address climate change. And we can't address climate change 
just by adding more lanes, because there isn't more room for 
more lanes on an Interstate Highway System with about 18,000 
miles.
    The most efficient way to get people short-hauled between 
cities in this country is going to be on train. We already see 
it in the Northeast Corridor. We carry or support 800,000 trips 
a day on a busy day, between Washington, DC, Boston, and 
Springfield. We are the number one way to travel between 
Milwaukee and Chicago. We are the way to travel between San 
Diego and Los Angeles. So as these urban areas grow, they 
become saturated with population, the delay miles on freeways 
grow and grow. The freeways can't really be expanded. We expand 
our carbon footprint exponentially with one car, one driver at 
a time.
    And the ultimate answer is going to be--and the millennial 
generation is telling us that--living in dense, urban corridors 
with mass transit. And that is the trend that we are seeing, 
not just in intercity rail, but you see Minneapolis-St. Paul 
building a big light rail addition. In Denver, Colorado, it has 
revolutionized building in the inner core of the city. And even 
the city I lived in for some time, which for a long time, the 
northern suburbs fought having mass transit, now realize they 
have to have mass transit, because I-85 and I-75 are so 
congested.
    So as we think about reauthorization, we really need to 
reposition Amtrak as a modern mode of transportation similar to 
what we see in Europe and what we see in Japan, where we 
provide high-quality, reliable service, 200 to 300 miles, 
connecting cities in dense urban corridors.
    We can't afford what the highway bill is, and I loved what 
Chairman DeFazio said. We can spend $2 to $3 billion a year, 
the general fund, on aviation. We can borrow the money to put 
in the highway fund. No one ever talks about all the money we 
spend on locks and dams up and down the Mississippi River, or 
in our ports and harbors. Passenger rail is just as important. 
And it is the answer to global warming in terms of 
transportation.
    So let me be really quick. The points on reauthorization: 
First is safety, PTC, SMS, should be first priority as a matter 
of policy; second, we appreciate, but want to be certain that 
we continue sufficient and dedicated predictable funding for 
Amtrak, particularly for capital. Give us the tools to address 
on-time performance, give us a framework to address the demands 
for transportation and the future intercity and short-haul 
markets, and let's clarify our goals and priorities for 
intercity passenger rail.
    Thank you for the opportunity to be here today.
    [Mr. Anderson's prepared statement follows:]

                                 
 Prepared Statement of Richard Anderson, President and Chief Executive 
       Officer, National Railroad Passenger Corporation (Amtrak)
                              Introduction
    Good morning Chairman Lipinski, Ranking Member Crawford, and all 
the members of this Subcommittee. Thank you for holding this important 
hearing on the upcoming reauthorization of Amtrak and intercity 
passenger rail as part of the larger renewal of the Federal surface 
transportation programs.
    My name is Richard Anderson. I serve as President and Chief 
Executive Officer of Amtrak, and I am proud to be here on behalf of 
Amtrak's hardworking employees from across the nation. Today, I want to 
provide an update on where Amtrak currently finds itself and then 
explore the choices this nation faces as we look ahead. I hope my 
remarks will illustrate how Congress can help Amtrak modernize, evolve, 
and expand the nation's intercity passenger rail network for the 
future.
    When I appeared before this committee's hearing on infrastructure 
and other assets in February, I discussed in detail the urgent need for 
funding to address the Northeast Corridor's $42 billion state-of-good-
repair backlog and advance vital projects such as the rehabilitation or 
replacement of the Portal Bridge, Susquehanna River Bridge, the Hudson 
Tunnel Project, East River Tunnel, and Baltimore & Potomac Tunnels. I 
also described our plans and need to invest in critical equipment 
replacement for most of our fleet that is rapidly approaching or has 
already reached the end of its useful life and to invest in our 
stations, particularly the major stations we own on the NEC and 
Chicago.
    While improving these legacy assets is important, we must also 
think hard about the future and how to build a modern, improved 
national network for your constituents. For many months now, Amtrak has 
been working to develop a national network plan for our short and long 
distance services off the Northeast Corridor based upon assessments of 
existing and future markets in regions throughout the country. Our goal 
is to identify those markets with the greatest potential for new or 
enhanced intercity rail service in order to ensure we can deliver more 
mobility and create good value for the nation. As part of this process, 
Amtrak has begun to meet with state departments of transportation and 
local stakeholders to understand better their specific needs and 
preferences for rail service, such as station stops, frequencies, and 
schedules. We expect to complete and issue a plan for growth next year 
to help you make decisions about the role of intercity passenger rail 
in the next surface transportation bill.
                          The State of Amtrak
    This hearing is well timed, as Amtrak has just compiled the results 
of FY 2019, which ended on September 30. Thus, I can offer you full end 
of year results from what is by nearly every measure our best year yet.

    <bullet>  Safety: Amtrak is proud to be an industry leader in 
positive train control. We have installed PTC operational on 99.9% of 
our own track-miles, and we are pleased to report that our host 
railroads have operational PTC in place in 89.9% of the required host 
railroad track-miles over which we operate. We continue to make 
significant progress with our Safety Management System, which guides 
every aspect of our safety program. Amtrak is the first American 
railroad to adopt this proven method from the commercial airline 
industry, and we already see impressive results from the effort, such 
as a 26% reduction in customer incidents, 72% fewer serious employee, 
injuries, a 10% reduction in Federal Railroad Administration reportable 
injuries, and a 3% reduction in trespasser and grade crossing 
incidents.
    <bullet>  In FY 2019, Amtrak carried 32,519,241 customers--more 
than 8000,000 higher than the prior year and a record number. This 
reflects both a 2.5% over the prior year and the fifteenth annual 
increase in the last twenty years. NEC and State Supported lines all 
experienced record growth in ridership, with Acela leading the charge 
at 4.3%, Northeast Regional at 2.9% and State Supported services at 
2.4%. Long Distance ridership was up nearly 1%.
    <bullet>  This ridership drove a total annual unaudited revenue of 
$3.3 billion, up 3.6% over FY 2018. Our disciplined execution against 
our strategy enabled us to generate an annual unaudited operating loss 
of $29.8 million, the best operating performance in our history. We 
managed to improve our earnings by $140.9 million or 82.6% over FY 
2018. Looking at other domestic and foreign passenger rail operators, 
these results are truly industry leading, and this efficiency enables 
us to dedicate the highest possible proportion of our federal support 
to vital capital investments in safety, capacity, and upgrades to 
enhance our customers' experience while traveling.
    <bullet>  We remain focused on customer service and this organizes 
our efforts every day as we strive to provide the most appealing 
transportation choices possible. Overall, nine out of ten customers 
surveyed expressed overall satisfaction with their experience. Amtrak 
achieved a year-over-year increase in customer satisfaction scores in 
many categories, including clean train interiors, restroom cleanliness, 
and information about delays. Our customers are noticing these 
improvements and are increasingly likely to recommend us to family, 
friends, and colleagues. Initial terminal performance was strong with 
93% of trains across the system departing on time. The strongest 
performance was at our eastern hub here in Washington, D.C., where more 
than 97% of our trains departed on time.
    <bullet>  In FY 2019, we collaborated with our state partners to 
expand and refine the Amtrak network, including starting a new state-
supported service in Western Massachusetts called the Valley Flyer, 
adjusting the San Joaquins' schedules to be more convenient for weekend 
leisure travelers, increasing Northeast Regional service to Norfolk, 
Virginia and Downeaster service in Maine, and adding a new Green Bay-
Milwaukee Amtrak Thruway Bus Service connecting with our Hiawatha 
trains.
    <bullet>  This year, Amtrak received a credit upgrade to `A' from 
S&P and an affirmation of an `A1' credit rating by Moody's, reflecting 
significantly reduced operating losses and a stronger balance sheet, 
with no net debt. FY 2019 is also the first full year in which all 
congressionally-mandated state and commuter partner cost-sharing 
agreements have been in effect.

    To summarize, the state of Amtrak is strong. From our safety 
record, to our financial health and customer service, Amtrak is 
operating a sound business that is delivering safe, compelling products 
and services to many of your constituents. Although there are always 
challenges, I want to be clear that Amtrak performing better now than 
we were even just a few years ago. Part of this improvement is directly 
related to the strong support Congress has provided to Amtrak in recent 
years, and I thank all of you for the confidence you have in Amtrak. We 
appreciate it, our numerous partners and stakeholders appreciate it, 
and our 32 million annual customers appreciate it. We see significant 
opportunities before us, and we hope your support continues so we can 
deliver safe, efficient, and effective service to even more of your 
constituents.
                     Intercity Passenger Rail Today
    Amtrak began operation on May 1, 1971, which means we celebrate our 
fiftieth anniversary in 2021. Since 1971, we have moved over 1.1 
billion people almost 262 billion passenger-miles. We now serve over 
500 stations in the United States and Canada--more places than are 
served by scheduled airline service by all the U.S. domestic carriers 
combined. Working with our NEC commuter partners, we have transformed 
the NEC into the only high-speed railroad in North America and a vital 
engine of the regional and the national economy. Working with state 
partners in 17 states, we have developed short-distance, state-
supported corridor services that carried 15.4 million passengers last 
year, nearly half of Amtrak's ridership. A company that many expected 
to fail at the time of our founding has achieved levels of ridership 
and financial performance that once seemed like impossible goals.
    Amtrak comes closest to fulfilling its potential along the NEC 
between Boston and Washington, D.C. where we provide frequent, high-
quality service that is trip-time competitive with other modes to the 
NEC's 51 million residents.

    <bullet>  We operate more than 140 intercity trains a day at speeds 
of up to 150 miles per hour (soon to be 160 mph).
    <bullet>  We carry more than three times as many passengers between 
Washington, D.C. and New York as all the airlines combined, and more 
passengers between New York and Boston than the airlines do.
    <bullet>  NEC revenues, which covered less than half of operating 
costs after Amtrak acquired the NEC in 1976, equaled 170% of operating 
costs in FY 2019 according to preliminary unaudited financial results, 
enabling us to reinvest an operating surplus of $568.4 million in NEC 
capital projects.
    <bullet>  The 28 next generation, high-speed Acela trainsets we are 
acquiring, with financing that will be repaid from the additional 
revenues they will generate, will each carry 30% more passengers than 
the 20 trainsets they will replace. This will significantly increase 
capacity and allow us to increase Acela service frequency.

    However, the story is different on most of our National Network: 
the service off the Northeast Corridor ``spine'' in the 38 states that 
are served by Amtrak's long-distance and state-supported routes. On 
most of the National Network, we have not even begun to realize the 
potential--and address the increasingly urgent need--for frequent, 
high-quality service that can attract passengers for whom rail could be 
a preferable alternative to driving or flying.
    We do have some success stories. In several states, Amtrak has 
worked with state partners to develop competitive short-distance 
corridor services that have attracted significant--and rapidly 
growing--ridership. In California, where the number of daily corridor 
trains has increased from just four in 1971 to more than 70 today, we 
carried 5.6 million passengers in FY 2019. Ridership on our state-
supported Hiawatha service between Chicago and Milwaukee and our state-
supported corridors in Illinois has more than doubled since 2003. In 
just the ten years since 2009, ridership has more than doubled on our 
Virginia corridors and more than tripled on our Piedmont corridor in 
North Carolina. What these and our other very successful state-
supported corridors have in common is that they offer multiple daily 
frequencies with trip times that are competitive with driving and 
flying.
    On most of our National Network, however, our route map and service 
frequency, depicted in the map below, are little different from our 
original network in 1971. They do not reflect the changes in population 
distribution since then, which means that we offer little or no service 
in many of the most heavily populated and fastest growing cities and 
regions.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    As in 1971, we serve many of the largest cities on the National 
Network with a single long-distance route that operates only once a 
day, or in some cases just three days a week. That is the case in six 
of the eight major metropolitan areas that have grown the fastest since 
1971: Tampa, Atlanta, Denver, Phoenix, Houston and Riverside, 
California. The other two, Miami and Dallas/Fort Worth, have only two 
round trips a day. A long-distance train operating three times a week 
provides the only Amtrak service to Houston, the fifth largest 
metropolitan area in the United States, and to the Phoenix metropolitan 
area, the eleventh largest, where it stops 35 miles away from downtown. 
Long-distance trains provide the only Amtrak service in the Mountain 
West and most of the South and Southwest, the fastest growing regions 
of the country. Texas and Florida, the second and third largest states 
whose combined population of over 50 million will soon surpass that of 
the NEC, are both served by three routes that operate once a day or 
less. We provide less service in Florida now than we did in 1971, when 
its population was a third of what it is today.
    We spend a large portion of our federal funding on Long Distance 
trains: they accounted for 38% of our FY 2019 national train service 
operating costs while carrying 14% of our passengers, and the federal 
government is their only source of capital funding. While they play an 
important role in some small communities, they do not meet the needs of 
travelers in the growing cities and short-distance corridors where they 
provide the only Amtrak service. By their very nature, daily or tri-
weekly Long Distance trains traveling upwards of 2,000 miles and 
serving many stations in the middle of the night are ill-suited to 
provide reliable and convenient service for the under 250-mile trips 
that contribute 83% of Amtrak's total ridership. Even so, such short 
trips make up a growing share of passenger demand on Long Distance 
routes reflecting the latent demand for alternatives to driving or 
flying in many of these markets. (The number of long-distance 
passengers traveling over 600 miles fell 21% from FY 2010 to FY 2018.)
               The Need for More Intercity Passenger Rail
    As you know, Amtrak's statutory mission given to us by Congress is 
to provide ``high quality service that is trip-time competitive with 
other intercity travel options.'' (49 USC 24101(b)). The need for such 
has never been greater, especially in short-distance corridors between 
major cities that are too far to drive and too short to fly. All the 
trends suggest that demand for such service will only continue to grow. 
This provides a great opportunity and a way for the United States to 
accommodate increased intercity travel demand in a sustainable manner 
without exacerbating congestion in other modes.
    As Amtrak has mentioned at prior hearings, there are several key 
factors that we are considering as we plan for how Amtrak can better 
serve your constituents, including:

    <bullet>  The U.S. population is growing and increasingly urban: 
The U.S. population is projected to increase from the current 327 
million to 438 million by 2050. Nearly all that growth is occurring in 
the urban areas where 90% of Millennials, our largest age cohort, live. 
Intercity passenger rail is the ideal way to link the population 
centers in the eleven megaregions, the interconnected metropolitan 
areas that by 2025 will be home to 80% of Americans. Rail stations are 
or can be centrally located in city centers with connectivity to local 
transit. A single train can directly serve multiple cities, as well as 
suburban and airport stops, along megaregion corridors.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    <bullet>  Highway congestion is spreading and getting worse. Rapid 
population growth and increased travel per capita will exacerbate 
existing congestion on highways, which accommodate the vast majority of 
intercity trips that are made by automobile. The Federal Highway 
Administration (FHWA) projects that vehicle-miles traveled on our 
highways will increase 27% by 2036, and that the percentage of the 
National Highway System with recurring peak period congestion will 
increase from 8% in 2012 to 35% in 2045. What that means is that the 
gridlock travelers experience today on highways in many urban areas, 
where 43% of interstate highway miles are congested, will become the 
norm on much of the highway system between major cities as well.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    <bullet>  Air travel in short-distance markets is declining. Air 
travel demand is growing overall. The number of domestic airline 
passengers increased 24% from 2010 to 2018, and the Federal Aviation 
Administration (FAA) projects an additional 44% increase by 2039. 
However, the number of passengers and flights on short-distance routes 
where rail is most competitive is declining because airlines make more 
money from longer flights and increased security screening and air 
travel delays have made flying less attractive for short trips. A 
Bombardier study found that air passenger trips in under 500-mile 
domestic city pairs fell 30% from 2000 to 2016.
    <bullet>  Sustainability is a growing concern for travelers. The 
desire for more sustainable travel options has reached fever pitch in 
Europe, where KLM Airlines has been running ads urging travelers to 
consider taking the train. In the United States, a recent National 
Geographic survey and Amtrak's customer surveys show a high level of 
interest in sustainable travel, particularly among Millennials. That 
plays to Amtrak's strength: our trains use 47% less energy per 
passenger mile than automobiles and 33% less than travel by air 
according to the Department of Energy's Oak Ridge National Laboratory.
                         Opportunities Untapped
    Because long-distance trains provide the only service on most of 
Amtrak's route network, we have not even begun to realize intercity 
passenger rail's potential in many of the most promising corridors 
outside of the NEC. Since 1991, Congress and USDOT have designated 
9,200 miles of high-speed rail corridors in addition to the NEC on 
which trains were reasonably expected to reach speeds of 90 mph or 
more. After 28 years, only 213 of those 9,200 miles have satisfied the 
90-mph threshold. More than half are served only by Long Distance 
trains or have no Amtrak service at all.
    Outside of the NEC, Amtrak carries more passengers than the 
airlines in only one major city pair--Seattle-Portland--served by the 
Cascades route between Seattle and Vancouver. On that 187-mile 
corridor, a strong state and host railroad partnership have produced an 
increase in service frequency and reduced trip time to an air-
competitive three and a half hours, allowing Amtrak to attract 58% of 
the combined air-rail market.
    We should be carrying more passengers than airlines in many other 
city pairs, for example: Chicago to Indianapolis. This city pair has a 
lot of similarities to Seattle-to-Portland: cities less than 200 miles 
apart with large metropolitan area populations (Indianapolis is larger 
than Portland, and Chicago has three times Seattle's population) 
between which driving or flying are unattractive options. The Chicago 
area has the third worst traffic congestion of any U.S. city according 
to Texas A&M's Texas Transportation Institute. Midway Airport had the 
highest percentage of delayed or canceled flights of any U.S. airport 
in 2018; O'Hare was third; and the FAA is predicting a 79% increase in 
passengers at both airports by 2045.
    Instead, the state-supported Amtrak train between Chicago and 
Indianapolis, the Hoosier State, was recently discontinued because the 
current realities of the route did not live up to its potential and the 
state decided to stop funding it. The Hoosier State operated only four 
days a week: on other days an often-late long-distance train served the 
same schedule. The trip took five hours, which was not competitive with 
three and a half hours by car or bus and much too slow to lure business 
travelers out of airplanes. Not surprisingly, the Hoosier State 
attracted very few passengers and state subsidies were high. These 
communities deserve better.
    Why do we not have competitive rail service in corridors like 
Chicago to Indianapolis? The main reason is funding. Intercity 
passenger rail is the only major surface transportation mode that does 
not receive dedicated, predicable funding through a trust fund and 
contract authority at levels set by Congressional authorizations. If a 
state wants to add lanes to an interstate highway, the federal 
government will pay 80 to 90 percent of the cost out of the Highway 
Trust Fund. Yet throughout nearly all of Amtrak's history there has 
been no significant federal funding to develop and improve intercity 
passenger rail corridors. While there have been a few small grants from 
matching grant programs such as CRISI and BUILD, the total amount such 
programs have provide for intercity passenger rail projects from 
appropriations since 2010 is less than the federal government gives 
highways each week. That makes no sense. As the Congressional Research 
Service recently concluded:

        The federal government's current approach to funding passenger 
        rail differs from its approach to funding highways and transit 
        . . . Amtrak funding is subject to the annual appropriations 
        process, while many highway and transit programs are funded 
        automatically out of Highway Trust Fund balances . . . [I]t is 
        difficult to provide significant amounts of funding on a 
        predictable basis to a grant program that depends on the 
        Treasury general fund . . .\1\
---------------------------------------------------------------------------
    \1\ Congressional Research Service, Improving Intercity Passenger 
Rail Service in the United States, June 25, 2019 (CRS), p. 18.

    Is passenger rail's inability to fund a trust fund through user 
fees a justification for having assured funding for highways but not 
for intercity passenger rail. If that was ever the case, it is no 
longer the case. Since 2008, Congress has been covering the increasing 
gap between gas tax revenues and highway trust fund outlays with 
general revenues or borrowed money. To date, $143 billion has been 
authorized for this purpose, more than three times the total amount 
appropriated for Amtrak over the past 49 years. By 2021, the 
Congressional Budget Office estimates the annual shortfall will be $16 
billion annually.
    Other federal funding programs have restrictions against use of 
funds for intercity passenger rail development that run counter to 
those programs' goals. For example, the Congestion Mitigation and Air 
Quality (CMAQ) program is intended to do what passenger rail does best: 
improve air quality and reduce congestion by taking cars off the road. 
However, the current program is limited to eligible costs under Chapter 
53 of Title 49, and therefore intercity passenger rail is generally not 
eligible. The governing statute of the Federal Transit Administration 
(FTA) defines ``public transportation'' as explicitly not including 
intercity passenger rail provided by Amtrak. This inhibits efforts by 
Amtrak and its commuter rail partners to advance rail projects on the 
NEC and other shared infrastructure that will benefit both commuter and 
intercity passenger rail.
    We know from what we have accomplished in the NEC, and from working 
with our state partners elsewhere, what frequent, reliable, trip time-
competitive Amtrak service can do to attract new customers in short 
distance city pairs and alleviate congestion on other modes. We are 
seeing increasing evidence that there is a huge unmet demand for Amtrak 
service in other short-distance corridors that we do not serve, or 
serve only with long-distance trains, today.

    <bullet>  In a recent survey of residents living near the proposed 
Pueblo-Denver-Fort Collins Front Range corridor, a route Amtrak has 
never served, 85% expressed support for passenger rail and 61% favored 
an increase in the sales tax to pay for it.
    <bullet>  Amtrak has identified over 60 city pairs located no more 
than 300 miles from one another where the cities today have either 
minimal or no Amtrak service. Surveys of those cities' residents showed 
that over 40% of respondents would either definitely or probably travel 
by train, if that service included multiple daily departures and was 
trip time competitive with driving. Not surprisingly, six of the seven 
city pairs with the largest percentage of affirmative responses--all 
55% or higher--were in Texas and Florida.
                            Reauthorization
    As Congress begins the process of drafting a surface transportation 
reauthorization bill, it is critical that you consider Amtrak's role in 
the larger transportation network and the tools and funding levels 
necessary for Amtrak fulfill its mission. Let me highlight just a few 
of Amtrak's priorities for reauthorization:

    <bullet>  Safety: Congress should continue to support programs and 
policies that improve safety throughout the nation's intercity 
passenger rail network. In particular, PTC or PTC-equivalency should be 
required on all regularly scheduled, passenger rail operations 
nationwide. Similarly, continued investment in grade crossing safety is 
a vital need.
    <bullet>  Mission: Congress should clarify the role of intercity 
passenger rail within the nation's transportation system and Amtrak's 
mission and goals. It should identify what goals it wishes to achieve 
through the intercity passenger rail network, and how those goals are 
to be prioritized. Market demand, changing demographics, and ridership 
(both current levels and future projections) should be the primary 
drivers for service level decisions. Clarity on this point will prevent 
future misunderstandings when we take actions to modernize our services 
to adapt to changing customer preferences and achieve cost savings.
    <bullet>  Funding Levels and Parity: Congress should ensure 
dedicated, predictable funding levels for Amtrak and intercity 
passenger rail grant programs, especially to bring our assets, such as 
infrastructure, fleet and stations, into and maintained in a state of 
good repair. The funding levels must be adequate to fulfill the role 
and goals that Congress expects of Amtrak (i.e., if Congress wants us 
to serve more of their constituents, more frequently, to additional 
destinations, we will require additional funding). Also, restrictions 
on using existing surface transportation programs like CMAQ to fund 
intercity passenger rail service should be eliminated. Further, if a 
portion of the Highway Trust Fund outlays continues to be funded from 
general revenues and borrowings, then states should be given the right 
to flex that portion of their FHWA and FTA funds for intercity 
passenger rail projects. To be clear, we are not asking for a mandate 
that they do so, but simply providing states additional flexibility to 
serve their individual transportation needs better given the HTF 
solvency now depends on general funds.
    <bullet>  National Network Growth: In Amtrak's two most recent 
authorizations, the Passenger Rail Investment and Improvement Act of 
2008 (PRIIA) and the FAST Act, Congress formalized and established 
consistent, equitable terms for the partnerships between Amtrak and the 
states that want state-supported short corridor rail service. While 
this helped improve a legacy system of short corridor routes, the 
nation must now look forward and adopt a more robust, national approach 
to developing high-quality intercity passenger rail short corridor 
services in underserved communities. Congress should provide the 
framework and resources needed to develop new or expanded high-quality, 
trip time- competitive rail service throughout the nation.
    <bullet>  Host Railroads: Another reason service on Amtrak's 
National Network is not realizing its full potential is that many of 
our host railroads are not complying with their statutory obligations 
given to them by Congress. Host railroads were responsible for 67% of 
the delay minutes on Amtrak trains operating over their lines in 
FY2019, and freight train interference accounted for one-third of host 
railroad-responsible delays. In total, delays due to freight train 
interference added more than one million minutes to the travel time of 
Amtrak trains in FY2019. Congress needs to provide effective mechanisms 
for Amtrak to enforce its statutory right of preference over freight 
traffic, and to gain access to host railroad lines on reasonable terms 
for the operation of additional and new services.
                               Conclusion
    Amtrak's growing ridership, strong financial results, and our 
achievements on the NEC and some of our other short corridors where we 
have strong partnerships, demonstrate the potential of intercity 
passenger rail. We know what works well and we want to create more 
convenience and value for your constituents and this nation. Doing so 
will require enhanced tools and increased funding levels from Congress.
    If these tools and/or increased funding levels for growth are not 
provided in the next reauthorization, then Congress will need to 
provide Amtrak with some direction on how to prioritize investment 
given a lack of adequate resources. I remain optimistic that Congress 
will find a way to create a modern and expanded intercity passenger 
rail system and Amtrak is ready to do its part. We aim to release our 
own detailed reauthorization proposal and National Network Plan and 
look forward to working with you and the full Committee on this 
important effort.
    I appreciate your time this morning and will be happy to answer any 
questions you may have.

    Mr. Lipinski. I now recognize Representative Nathanson for 
5 minutes.
    Ms. Nathanson. Chairman Lipinski, Ranking Member Crawford, 
Chairman DeFazio, and other distinguished members of the 
Subcommittee on Railroads, Pipelines, and Hazardous Materials, 
thank you very much for the opportunity to be with you today 
and provide testimony. My name is Nancy Nathanson, I am a 
member of the Oregon State Legislature in my 13th year. I 
represent a district in Eugene, which is the southern terminus 
for the Pacific Northwest Rail Corridor. That is the economic 
engine for the Pacific Northwest. It is a 466-mile route from 
Eugene through Portland, up to Seattle and up to Vancouver, BC. 
Prior to the legislature, I served for a dozen years on 
Eugene's city council.
    Eugene is the second largest city in Oregon, home to the 
University of Oregon, and a rapidly growing tech business 
scene. We are connected to Portland and Seattle by the Cascades 
service; that is a State-supported service. With over 806,000 
riders in the last fiscal year, Amtrak Cascades is one of the 
most heavily traveled corridors in the country.
    Amtrak is a vital transportation service. Instead of 
getting driver's licenses, young generations are turning to 
ride-hailing services, bikes, and trains. Seniors are driving 
less. Workers and students are choosing to take the train, 
because they want to be productive on their commutes rather 
than gripping the wheel on a clogged highway.
    During the 2015 Oregon legislative session, funding for our 
passenger rail service was on the chopping block. I convened 
meetings with colleagues. I testified in legislative committee 
hearings. And by the end of the session, funding was restored 
to maintain passenger train service in this corridor so that 
Eugene could be connected by train to the rest of the Pacific 
Northwest.
    Oregon is not a rich State. Still, we choose to invest in 
infrastructure and operations for passenger rail. We picked up 
the cost of the State routes. We picked up the increasing cost 
of Amtrak. We purchased and maintained train sets. We invest in 
upgrades, like replacing an old 1906 rail bridge that was 
slowing us down. By replacing it, we were able to increase 
speed from 30 to 70 miles an hour on that stretch of track. And 
in 2017, we designated about $2.67 million for new siding.
    In the last few years, the State has been spending about 
$12 billion a year on passenger rail. Passenger rail is 
underfunded, and we could use a Federal partner. In my 
district, and across the State, we have an immediate need for 
better service and more trains to increase mobility and to 
support our regional economy and workforce.
    There are issues Congress can address:
    Funding to support service. Oregon has a 20-year plan to 
expand passenger rail service with up to six round trips 
between Eugene and Portland, plus the eastern part of the State 
is looking to restore service on the Pioneer route. We know the 
demand is there and the demand would be even greater with more 
reliable service and more frequent options. This is the most 
congested transportation corridor, and it is getting more so.
    Two, funding for infrastructure. Our constituents face 
frequent delays, and our economy is held back by a sluggish 
system. It suffers from at-grade crossings, antiquated 
switching equipment, and lack of sidings long enough to 
accommodate extended trains.
    Commerce and emergency services are suffering from these 
blocked and congested crossings. And I hear the same from 
legislators representing rural districts, it is not just an 
urban problem. Congress could invest in improvements and see 
major local benefits.
    And lastly, performance. In addition to more speed and more 
service, we need reliable schedules. Passenger trains are often 
delayed. It has happened to me and to my constituents. Cascades 
has a 73-percent on-time performance, roughly three-quarters of 
the delays are due to freight rail interference.
    Although Federal law requires railroads to give preference 
to Amtrak passenger trains, there are no national standards for 
measuring on-time performance. And without some clear metrics, 
I don't see how we are going to see improvements. We need 
metrics, and we need enforcement. Our constituents are asking 
us to fix the problem.
    Just last week, I talked again with a successful, high-tech 
business owner in Eugene who travels frequently to Portland 
where the other half of his staff is located. He chooses to 
ride the train, because he wants to use his time, not waste his 
time. A retired real estate broker continually presses me at 
Chamber of Commerce meetings asking me to support and work for 
more frequent train options and better service. Our young 
population, our seniors, our gig economy, and our tech 
workforce, they all see the value of passenger trains, and they 
are asking for more.
    Investing dollars and time in passenger rail meets multiple 
objectives in economy, environment and energy. It is time to 
put more muscle into a platform in operations and 
infrastructure that is safe and efficient so that Amtrak can 
succeed.
    Thank you.
    [Ms. Nathanson's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Nancy Nathanson, State Representative, 
             Thirteenth District, Oregon State Legislature
    Chairman Lipinski, Ranking Member Crawford, and other distinguished 
members of the Subcommittee on Railroads, Pipelines, and Hazardous 
Materials:
    Thank you for allowing me the opportunity to submit written 
testimony for this important hearing ``Amtrak Now and Into The 
Future.'' My name is Nancy Nathanson; I am in my 13th year as an 
elected member of the Oregon State Legislature. I represent a district 
in Eugene, home to the University of Oregon and a rapidly growing tech 
business scene. Eugene is also the southern terminus for the 466-mile 
Pacific Northwest Rail Corridor, which is one of eleven federally 
designated higher-speed rail corridors in the United States. This 
corridor runs through the economic engine for the Pacific Northwest, 
from Eugene through Portland, Seattle, and up to Vancouver B.C. Prior 
to my service in the legislature I served for a dozen years on the 
Eugene City Council, and that's when I started working on passenger 
rail issues, attending an inaugural meeting for the Cascadia Innovation 
Corridor in the 1990s and convening a forum in Eugene in the 2000s.
    I am proud to be here today representing an area that is in the 
Congressional district of Chairman Peter DeFazio. Oregonians across our 
state, but particularly those of us in the 4th Congressional District, 
have benefited from Congressman DeFazio's commitment to critical 
infrastructure investment, and safety and modernization projects in 
road, rail, and ports, and for pedestrians and bikes. We appreciate his 
support for and leadership of innovative solutions addressing 
transportation challenges.
    Like the Chairman, I have been a strong supporter of passenger rail 
in Oregon. For example, after passage and implementation of the 
Passenger Rail Investment and Improvement Act of 2008, the states of 
Oregon and Washington were required to assume the full cost of 
operations of the Amtrak Cascades Service. The resulting spike in costs 
led to serious funding challenges for Oregon. During the 2015 
legislative session, funding for Amtrak service between Eugene and 
Portland was threatened to be cut off. This would have been a 
tremendous blow to Eugene, and my constituents strongly spoke out in 
favor of preserving this important service. I am proud to say that 
Amtrak Cascades is still successfully operating today, and I believe 
the importance of this service to our state and region will only 
continue to grow over time.
    One reason for my passenger rail optimism is that I know people in 
my community want transportation options. Whether they are young or 
old, students or commuters, they want to be able to get around easily 
and have a choice about whether they drive or not. Indeed, there is a 
wide variety of research indicating young drivers today are getting 
licenses at lower rates. For example, a 2017 article in the Journal of 
Safety Research concluded that between 2006 and 2015 the proportion of 
high school seniors with driver's licenses declined from 81% to 72%.\1\ 
A study from the University of Michigan Transportation Research 
Institute illustrates that the percentage of 18 years olds with driver 
licenses declined from 80.4 percent in 1983 to 60.1 percent in 2014.\2\
---------------------------------------------------------------------------
    \1\ Shults, Ruth A., and Allan F. Williams. ``Trends in Teen Driver 
Licensure, Driving Patterns and Crash Involvement in the United States, 
2006-2015.'' Journal of Safety Research 62 (2017): 181-84. https://
www.ncbi.nlm.nih.gov/pmc/articles/PMC5712438/
    \2\ Sivak, Michael, and Brandon Schoettle. ``Recent Decreases in 
the Proportion of Persons with a Driver's License Across All Age 
Groups.'' University of Michigan Transportation Research Institute 
(2016).
---------------------------------------------------------------------------
    The American Driving Survey 2015-16 produced by American Automobile 
Association (AAA) indicates that senior citizens may be driving at 
lower rates. AAA reports reductions in number of driving trips made per 
day and a reduction of average daily number of minutes spent driving 
for drivers aged 65 to 74.\3\ Further, students and working people want 
to be productive on their commute, not gripping the wheel driving 
congested highways.
---------------------------------------------------------------------------
    \3\ https://aaafoundation.org/wp-content/uploads/2018/01/19-
0226_AAAFTS-2018-ADAS-Research-Brief-Update_v1.pdf
---------------------------------------------------------------------------
    I have heard from my constituents and from Oregonians that 
passenger rail service is vitally important for Oregon and the broader 
region, and that is why I have been working to ensure it continues to 
be available as a key link in our region's multimodal transportation 
system.
             Background on Passenger Rail Service in Oregon
    Amtrak operates two national network trains, also known as long 
distance trains, in Oregon. The Coast Starlight and the Empire Builder 
run daily service with stops in Oregon. While that once-a-day service 
is helpful for many travelers on longer journeys heading into or out of 
the state, the service simply is not as useful for people who want to 
take day trips or move more quickly around Oregon and the region by 
rail.
    In 1994, the Oregon Department of Transportation (ODOT) contracted 
with Amtrak to extend an existing short-distance train between Portland 
and Seattle down to Eugene with intermediate stops at Salem and Albany. 
This short distance service continued to grow and in 2000 ODOT added an 
additional train between Eugene and Portland.
    Today, this short-distance service, known as Amtrak Cascades, is a 
state-supported Amtrak route with two roundtrips between Eugene and 
Portland, four roundtrips between Portland and Seattle, and two 
roundtrips between Seattle and Vancouver. With over 800,000 riders in 
FY18, the Amtrak Cascades service is one of the most heavily traveled 
corridors in the country.
    The Amtrak Cascades service is also an example of how states can 
work together with Amtrak to address the service needs of a region. 
ODOT and the Washington State Department of Transportation (WSDOT) 
entered into an Interstate Agreement (IGA) that commits the two 
agencies to the concept of joint operation of the Amtrak Cascades 
service as a single corridor. The states split funding for the service. 
Oregon provides funding for the operation of the Portland-Eugene route 
and for the operation of several buses that feed into the route. ODOT 
also purchased two new 13-car trainsets that went into service in 
November 2013 on the Amtrak Cascades service. The Oregon trainsets 
joined the existing fleet of five trainsets providing the Amtrak 
Cascades service. By owning trains, Oregon has a stronger role as a 
partner in the Amtrak Cascades service.
    Both Amtrak Cascades trains and the long-distance trains are 
operated on the tracks of privately owned host railroads in both Oregon 
and in Washington. In Oregon, trains run on Union Pacific-owned track 
and in Washington, they run on BNSF Railway tracks. Union Pacific 
handles all train dispatching in Oregon.
                         Challenges for States
Funding Challenges
    Oregon provides significant funding to ensure continued operations 
passenger rail service. For its portion of the Amtrak Cascades service, 
Oregon funds both capital and operating expenses. On the capital side, 
Oregon invested $38.4 million in two new trainsets in 2013 in order to 
support the expansion of Cascades service. Oregon state programs have 
also invested significant funds in improving the host railroads' 
underlying infrastructure. In 2015, ODOT's ConnectOregon program 
provided $4 million to the modernization of Union Pacific's Harrisburg 
Bridge, which allowed train speeds to increase from 30 to 70 miles per 
hour on the bridge. Work on the North Portland and Peninsula Junction 
Connection Improvements project is currently underway to upgrade 
switches and straighten track at two key junctions in North Portland to 
allow for faster train speeds and less congestion on the rail network. 
This $17.5 million effort was funded in part by an $8 million grant 
from the state-funded ConnectOregon program. Further, the Oregon State 
Legislature provided $2.6 million in state funds for the construction 
of a new rail siding at Brooks in the busy Willamette Valley portion of 
the corridor.
    The Passenger Rail Investment and Improvement Act of 2008 shifted 
operations cost for short-distance Amtrak routes to the states. Since 
2013, Oregon has stepped up to cover these additional costs and keep 
the Amtrak Cascades trains running. In addition to these increased 
operations costs, Amtrak costs are increasing as well. In 2009, 
Amtrak's bill to Oregon for running the Cascades trains was $4.9 
million. By 2013, that had risen to $6.7 million--an increase of 36 
percent in four years, even before the higher costs under PRIIA began 
to incur. For 2019, these costs have reached $10.1 million. While it 
has been a struggle for those of us in the Oregon State Legislature, we 
have continually cobbled together the necessary resources to keep this 
service operating because, again, it is incredibly important to our 
constituents and to the region.
    Oregon has dedicated significant state resources to improving this 
service, and the state continues to look for infrastructure projects 
that will improve passenger rail on time performance and the passenger 
experience. While states like Oregon have stepped up to help provide 
this funding, the state also needs a strong federal partner and 
sufficient funding to truly improve rail service.
On Time Performance (OTP)
    For the year 2018, Amtrak Cascades trains were on time in Oregon 
73.3 percent of the time. That is the average rate for all trains, so 
it follows then that some trains would have better OTP rates (like the 
86.6 percent rate for the northbound morning train) and some would be 
worse (like the 39.3 percent rate for the southbound evening train). An 
OTP rating of less than 40 percent is less than worse, it is simply 
abysmal.
    Oregon and Washington are investing millions of dollars in keeping 
this service operating every year. These states are working incredibly 
hard to expand service and grow ridership, but with OTP rates that do 
not even approach the 80 percent goals, it is nearly impossible to 
attract new riders. Business travelers cannot keep to their strict 
schedules if they arrive on time only 40 percent of the time. 
University students will choose other modes if they cannot get to and 
from school on time. Travelers will simply choose faster, more reliable 
modes if we cannot get this right. Our constituents are asking us to 
fix this problem.
    A growing challenge for OTP in Oregon is freight rail interference, 
which accounts for nearly \3/4\ of the delay time. In the first quarter 
of 2019 alone, there were nearly 7,000 hours of freight rail related 
delay on the Union Pacific system in Oregon. While federal law may give 
passenger trains preference over freight trains, this has not been 
Oregon's experience in practice.
Other Challenges
    The Government Accountability Office (GAO) has conclusively 
documented that freight train length among all seven Class I railroads 
has increased in recent years. According to GAO `` . . . two Class I 
railroads indicated that their average train length has increased by 
about 25 percent since 2008, with average train lengths of 1.2 and 1.4 
miles in 2017.'' One railroad even reported running a three-mile-long 
train twice a week.\4\ Longer trains are frustrating to motorists who 
get stuck at grade crossings for increasing amounts of time and 
interfere with routine business and commerce. They also pose serious 
challenges for public health and safety as emergency vehicle access can 
be blocked for longer periods.
---------------------------------------------------------------------------
    \4\ https://www.gao.gov/products/GAO-19-443
---------------------------------------------------------------------------
    For the purposes of passenger rail, longer freight trains translate 
into longer delays for passenger trains. In Oregon's Willamette Valley, 
most sidings are not long enough to accommodate these ever longer 
trains. Passenger trains are forced onto sidings giving way to the 
longer, slower trains. Longer trains take more time to walk and inspect 
to identify problems in the event of a breakdown. It also takes longer 
trains more time to get up to speed.
    Signals for train crew communications equipment can often be 
impeded by distance, terrain, weather, and obstructions. In testimony 
to an Oregon legislative committee on which I serve, we heard that the 
conductor and engineer sometimes cannot even communicate with each 
other by radio, and they travel through areas with no cell phone 
service. That's not just inconvenient, that's dangerous. One conductor 
described having to walk the length of the train, alone, to detect the 
location of a problem, in sometimes dark or severe weather conditions. 
This problem is about worker safety as well as extended delay.
    Aging infrastructure and outdated equipment also contribute to 
delays. In addition to the major capital projects described above, 
Oregon's experience shows that the age and obsolescence of even smaller 
pieces of railroad infrastructure can have impacts on passenger rail 
service. During a recent winter freezing spell, a passenger train 
experienced a significant delay because of a frozen railroad switch. 
All passengers on board the train were forced to sit and wait as a crew 
member went out in the snow and sleet to move the switch manually. It 
is clear that upgrades are needed throughout the system.
                          Potential Solutions
Provide States with Operating Funds
    Reliable passenger train service will become an even more important 
mode of travel as governments at all levels work to address the impacts 
of increasing highway congestion, population growth, and climate 
change. These are not solely state and local issues. In recent years, 
states have stepped into the breach and have continued funding short 
distance intercity passenger rail operations, but in order to truly 
grow the service, states need a strong federal partner. By restoring 
funding for passenger rail operations, Congress can help cities, 
regions, and states across the country deal with some of their most 
urgent problems.
More Reliable Capital Funding
    Reliable federal funding for capital projects will also help 
strengthen and grow passenger rail service. The Fixing America's 
Surface Transportation Act rail grants have been incredibly helpful to 
states, and by now these grants have funded billions of dollars of 
improvements in the nation's passenger and freight rail systems. 
Indeed, Oregon itself has benefitted from a Consolidated Rail 
Infrastructure and Safety Improvements (CRISI) grant to uncork a key 
bottleneck in the state's rail system. However, these general fund 
supported grants are not reliably funded from year to year. Some years 
they receive hundreds of millions of dollars and some years they are 
completely zeroed out. Having reliable and predictable capital funding 
available every year will allow states and their partners to better 
plan for capital improvements that will benefit passenger and freight 
rail alike.
    Further, passenger rail has been significantly underfunded. Each 
year, Amtrak receives approximately $1.5 billion to address passenger 
rail needs nationwide. This funding must cover everything from large-
scale, capital projects on the Northeast Corridor to the operation of 
National Network trains around the country. A lack of reliable and 
robust funding makes it nearly impossible to meet all of the needs and 
challenges faced by Amtrak.
    More capital funding for grant programs and Amtrak will allow 
states to have better and more efficient rail service, construct more 
separated grade crossings, eliminate more points of rail system 
congestion, and ensure a better customer experience.
Address Train Length
    Many challenges to public health and safety arise from longer 
freight trains. Impacts are also being felt on passenger rail OTP and 
ridership. States cannot resolve this problem alone. We have neither 
the funding to fix every siding and blocked crossing nor do we have the 
authority to address the length of trains. Congress and the 
Administration can reduce adverse impacts on communities and improve 
safety and passenger service by addressing train length.
Improve On Time Performance
    Taken together, increased funding for capital projects and common 
sense limits on train length can certainly improve OTP. However, more 
must be done to address on time performance. I fear that without 
further action, we will continue on the trend of increased freight rail 
interference and lower OTP. Giving the Federal Rail Administration the 
tools it needs to achieve true passenger rail preference would be 
incredibly helpful for promoting better OTP.
    As a member of the Governor's Passenger Rail Leadership Council I 
had the opportunity to hear and read comments about passenger rail from 
Oregonians around the state. And just a week ago I talked again with a 
successful high tech business owner in Eugene who takes the train 
frequently to Portland where the other half of his staff are located, 
because he wants to use his time, not waste his time. A retired real 
estate broker continually presses me at chamber of commerce meetings to 
support more and better train options.
    Our young population, our seniors, our gig economy and tech . . . 
they all see the value of passenger trains, and they want more.
    Investing dollars and time in passenger rail is smart policy, 
meeting multiple objectives in economy, energy, and environment. It's 
time to put more muscle into supporting a safe, efficient platform for 
Amtrak to succeed.
    Chairman Lipinski and Ranking Member Crawford, thank you again for 
the opportunity to appear before you today.

    Mr. Lipinski. Thank you, Representative.
    I now recognize Mr. Regan for 5 minutes.
    Mr. Regan. Thank you, Chairman Lipinski, Ranking Member 
Crawford and Chairman DeFazio. On behalf of TTD and our 33 
affiliated unions, I am very pleased to be here today. Our 
unions represent frontline workers across America's passenger 
rail network, including those who operate trains, maintain and 
repair equipment, provide quality customer service, both on and 
off board, and who construct this facility. There is no one who 
knows Amtrak like these workers. And you will not find a 
greater advocate for passenger rail in this country than 
transportation labor.
    Historically, we have been the loudest voice pushing for 
more funding for Amtrak, for increasing and improving service, 
and for modernizing the infrastructure equipment that moved 
passengers on 32 million trips last year, across more than 
20,000 miles of track.
    We know firsthand the economic value that Amtrak brings to 
the communities it serves. And we know the vital role that 
Amtrak plays in connecting our entire Nation across this vast 
multimodal network. We also know that Amtrak must grow 
significantly in the years ahead to keep pace with the demands 
placed on the network. Amtrak workforce stands ready to do our 
part, but in order to do so effectively, we need a dependable 
partner in Amtrak and we need your help to provide the funding 
and policy necessary to drive that growth.
    Specifically, we are calling for meaningful funding 
increases, policies that support middle-class rail jobs, much-
needed safety improvements, preservation of Amtrak's national 
network, and the outright rejection of plans to slash or 
degrade service.
    First, we need a significant boost in Federal investment 
for Amtrak, as I know many people have already said today. For 
too long, shoestring budgets have crippled this carrier's 
ability to make forward-thinking investments and long-term 
capital improvements. This is evidenced by Amtrak's $33 billion 
repair backlog, $28 billion of which is needed for repairs in 
the Northeast Corridor, where workers and passengers rely on 
bridges and tunnels that are more than a century old. We simply 
cannot meet the demands of the future if we let assets languish 
and fall behind due to chronic underfunding.
    And to those who think investments in this carrier only 
benefit the Northeast, I ask you to look at Amtrak's extensive 
network, which connects more than 500 towns and cities in 46 
States. Just as on the Northeast Corridor, each community 
depends on adequate authorizing levels to address their own 
needs and maintenance backlogs.
    Greater investment will also allow Amtrak to expand service 
not just to the communities it already serves, but also to new, 
high-density service corridors such as those suggested by Mr. 
Anderson earlier, an idea we fully support as long it does not 
come at the expense of Amtrak's long-distance service, or its 
national network. Doing away with the cross-country system 
would be catastrophic for the communities that rely on Amtrak 
service, and would eliminate thousands of good jobs. These 
routes also serve as a feeder system that brings passengers to 
higher density routes, such as the Northeast Corridor, and our 
State-supported routes. Rail service must not be treated as a 
zero-sum game, and Congress should use the reauthorization 
process to cement Amtrak's role as a true national passenger 
railroad.
    We also know that Amtrak's success is the direct result of 
the hard work of its dedicated, skilled, and experienced 
workforce. Our unions stand ready to move forward with Amtrak, 
but their members cannot be left behind. Efforts to cut jobs or 
outsource existing Amtrak functions to low-wage, antiunion 
contractors will not be tolerated by our unions. The resulting 
drop in quality will not be tolerated by the American public, 
and neither should it be tolerated by this body. 
Reauthorization is also an opportunity for Congress to end this 
micromanagement of food and beverage service by removing a 
provision of the FAST Act that directed Amtrak to eliminate 
these so-called operating losses.
    Further, any expansion of faster rail service must not be 
used as an opportunity to gut existing rail-specific worker 
protections. These asks are based on deeply held beliefs that a 
strong union workforce promotes a better Amtrak that provides a 
high standard of service which incentivizes ridership and 
strengthens the company.
    Unfortunately, we are concerned that Amtrak's current 
leadership does not share this vision. Instead, the carrier 
seems more interested in outsourcing good jobs to the lowest 
bidder than meeting mandates established by Congress, and in 
turn, serving the American public.
    Finally, Amtrak reauthorization is an opportunity to 
improve safety on the railroad for both its passengers and its 
employees. We have previously proposed legislation to address 
the scourge of assaults against passenger rail workers, 
including the 2017 shooting of an Amtrak conductor in Illinois. 
We ask that both Amtrak and the commuter railroads be required 
to develop plans that will help prevent violence, deescalate 
in-progress events, and help employees manage the aftermath of 
assaults when they do occur. Passenger rail employees deserve a 
safe workplace and a development of these plans would be a step 
in the right direction.
    TTD and our affiliated unions look forward to working with 
you, strengthening Amtrak and passenger rail throughout the 
country.
    Thank you for providing the opportunity to testify before 
you.
    [Mr. Regan's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Greg Regan, Secretary-Treasurer, Transportation 
                       Trades Department, AFL-CIO
    On behalf of the Transportation Trades Department, AFL-CIO (TTD) 
and our 33 affiliated unions, I want to first thank Chairman Lipinski 
and Ranking Member Crawford for inviting me to testify before you 
today.
    As this committee begins to consider Amtrak reauthorization, and 
the intercity passenger rail networks of the future, we are proud to 
present a unique perspective from the Amtrak workforce. In addition to 
the TTD affiliated unions also testifying today, our unions represent 
workers across nearly every position in the passenger rail network--
these are the workers who operate trains, maintain and repair 
equipment, oversee safe operations along routes, provide high quality 
customer service both on and off-board, and construct facilities. They 
are the workers who ensure that the 32 million trips taken on Amtrak 
every year, across more than 20,000 miles of track, and in nearly every 
state in this country, are met with the highest level of service and 
safety possible.
    There is no one who knows Amtrak like these workers, and you will 
not find a greater advocate for robust passenger rail service in this 
country than transportation labor. Historically, we have been the 
loudest voice pushing for more funding for Amtrak, better and more 
service options, and modernizing its infrastructure and equipment. We 
understand the economic value that Amtrak brings to the communities it 
serves and to the nation as a whole, and we know the vital role that 
Amtrak plays in our vast, multi-modal transportation network.
    This country deserves a passenger rail system that rivals any in 
the world. Polls have repeatedly shown that Americans want more rail 
service and are willing to pay for it, and we firmly believe that the 
quality of service that our workers provide is the reason why we see 
such strong levels of support. Amtrak's workforce stands ready to do 
our part, but we should be clear: we cannot do it alone. Congress must 
show the leadership this moment deserves by investing resources 
necessary to deliver world-class intercity passenger rail, adopting 
policies that will support and preserve good jobs building and 
operating this network and rejecting short-sighted plans to slash or 
degrade service which will do little more than drive customers away.
             Federal Investment is Vital to Amtrak's Future
    Amtrak's reauthorization is an important opportunity for Congress 
to ensure that intercity passenger rail supports good jobs, provides 
customers with an outstanding product, and connects communities through 
a national and inter-connected network. Unfortunately, Amtrak's current 
leadership too often appears more interested in outsourcing work to the 
lowest bidder while walking away from its commitment to long-distance 
service in a misguided attempt to appeal to austerity-driven political 
forces. Fortunately, Congress has the ability to craft policies that 
reject these efforts.
    We do agree with Amtrak's leadership that the status quo is not the 
path forward. For too long, Amtrak has been forced to make due with a 
subsistence budget that cripples its ability to make forward thinking 
investments and long-term capital improvements. While the FAST Act was 
a step in the right direction, this Congress must build on that 
progress by providing funding levels that unlock Amtrak's potential--as 
this hearing asks--both now and in the future.
    Today, Amtrak's network is overwhelmed by ``now'' needs--the 
railroad's state of good repair backlog is estimated at $33.3 billion, 
with $28.1 billion of that on the Northeast Corridor. These numbers are 
not intangible, every unspent dollar corresponds to decaying 
infrastructure and facilities in your districts and in the districts 
your constituents travel through.
    The Baltimore and Potomac Tunnel is glaring example. This nearly 
150-year-old tunnel serves Amtrak, commuter and freight rail 
operations; however drastic speed restrictions due to its deteriorating 
condition and insufficient capacity have turned the tunnel into a 1.4-
mile bottleneck in the heart of the Northeast Corridor. The Federal 
Railroad Administration has identified the tunnel as structurally 
deficient and in need of replacement or rebuilding. Until that day, it 
will continue to badly snarl the heavy traffic that its builders never 
imagined when it was erected--in 1873.
    Similarly, TTD has on many occasions--including before this 
Committee--called for action on the Gateway Program and Hudson Tunnel 
Project. While the tunnel is a comparatively youthful 109 years old, 
the unrealized impacts of the project represent billions of dollars in 
economic benefits both to the Northeast Corridor and to the country at 
large, including a staggering $3.87 in benefit per every $1 spent. 
Failure to move forward on this critical project is unacceptable, yet a 
steady stream of finger pointing and political bickering has allowed 
the project to languish.
    While these NEC projects are badly needed, it would be a mistake to 
assume that money invested in Amtrak solely benefits those who ride 
trains in the Corridor. Amtrak's extensive network of long-distance and 
state supported routes each have their own needs and maintenance 
backlogs. A serious approach to adequate authorizing levels ensures 
that riders and communities across the United States are the 
beneficiaries of Congress' decisions.
    Failing to adequately invest in Amtrak's future also dilutes the 
benefit of its current investments. Amtrak's ongoing procurement of 
Avelia Liberty trainsets, capable of travelling 200 MPH and made 
domestically by IAM employees in Hornell, NY, should be a boon to 
service on the NEC. When these high-speed trains encounter ancient 
infrastructure like the B&P, however, they are subject to speed 
restrictions of 30 MPH or less. Put simply, we are squandering the 
benefits promised to Amtrak's riders. It is up to Congress to fund 
Amtrak at levels that will allow for real service improvements, 
increased accessibility, and a better passenger experience.
           Strong Labor Protections Ensure Middle Class Jobs
    What can never be lost in the discussion of Amtrak's future is that 
its success is predicated on the hard work of its dedicated, skilled 
and experienced workforce. Our unions stand ready to move forward with 
Amtrak, but their members cannot be left behind. Labor protections that 
have long ensured that rail jobs support middle class families must be 
at the heart of any reauthorization considered by Congress. Rail-
specific statutes, including the Railway Labor Act, Railroad Retirement 
Act and Railroad Unemployment Insurance Act provide employees with the 
right to collectively bargain, and coverage under retirement, 
occupational disability, and unemployment benefits specific to this 
industry. Employees currently covered under these laws must continue to 
receive coverage.
    As Congress explores new ways to expand rail service to more 
Americans, it may also consider new ways to fund intercity passenger 
rail, or to permit existing funding streams to be blended across modal 
agencies and accounts. Congress must not allow novel funding strategies 
to deny an employee appropriate protections and duly earned benefits. 
Inadvertently stripping these rights from workers would be a mistake.
    We also call for action to expand safety nets for employees who 
lose their job through no fault of their own. These changes should seek 
to mitigate adverse impacts to employees based on Amtrak's procurements 
and deployment of new equipment, as well as the effects of federal 
funding and grant making decisions. Protections like these are hardly 
unprecedented. Decades-old labor safeguards that already exist at 
Amtrak can be expanded to better suit the modern workforce, and 
statutory protections that are commonplace in other modes of 
transportation may be appropriately adapted to also cover these 
employees.
    These actions are particularly needed when Amtrak is taking every 
available opportunity to slash its dedicated workforce in favor of non-
union, low-wage contractors. As TCU will discuss, Amtrak recently 
shuttered its Riverside, CA call center, offering some of its 500 
employees the untenable decision of moving across the country to 
another facility or losing their livelihood. Amtrak claimed that this 
was in response to decreased call volumes. However, no sooner did it 
close Riverside than it contracted hundreds of non-union workers at a 
call center in Florida to perform the same job. Reports of similar 
efforts to contract out well-paying jobs to low-wage, no-benefit 
contractors are becoming commonplace throughout the company. Amtrak has 
even gone as far as to argue for a misapplication of statutory 
requirements on contracting to permit it to violate collective 
bargaining agreements at will, and replace furloughed employees with 
non-union contractors.
    TTD also strongly opposes proposals to turn over Amtrak operations 
to entities who promise cost savings on the backs of workers and 
quality service. In the FAST Act, Congress authorized the Amtrak 
Competitiveness Pilot Program, which allowed for limited privatized 
service on certain routes. Interested for-profit companies blatantly 
admitted that their concepts relied on reduced service, cutting 
employee benefits, and receiving unheard of exemptions from federal 
law. On prospective bidder, Iowa Pacific, wrote that ``Labor's hardline 
position would effectively derail this program'' and that traditional 
worker protections were nothing more than ``provisions crafted for a 
totally different situation''. Labor's ``hardline position'' was simply 
that a private carrier cannot shirk long-time statutory mandates that 
currently apply to Amtrak workers in order to save money. This position 
was also enshrined in the language that implemented the program. When 
the FRA declined to permit private operators to ignore federal law at 
their own discretion, none of these entities submitted a bid.
    We also urge Congress to require that the Amtrak Board of Directors 
have a permanent seat for member representing labor. Amtrak often makes 
decisions without adequate input from its workforce, resulting in 
determinations and initiatives that do not reflect the needs of the 
railroad or of its customers. There is no clearer demonstration of this 
than current slate of nominees to serve on the Board--two of whom are 
former members of Congress who have taken votes to defund the system 
entirely. Congress can rectify this disconnect with a modification of 
the Board makeup.
    These positions are based on a deeply held belief that a strong 
union workforce promotes a better Amtrak that provides a high standard 
of service, incentivizes ridership and strengthens the company in the 
decades to come. Unfortunately, we are deeply concerned that this is 
not the Amtrak's vision for the future.
            Congress Must Guarantee a Truly National Network
    The company has made no secret of its desire to eliminate the long-
distance routes that make up the National Network and provide important 
transportation service for millions of Americans in rural states. We 
reject the characterization of the National Network as a vestigial 
component of Amtrak that can or should be jettisoned to satisfy a 
balance sheet. Amtrak's long-distance routes are critical to the 
communities they serve, and create thousands of good jobs. Arguments in 
favor of cutting these routes neglect the fact that many long-distance 
riders use this service to connect to other Amtrak service, like the 
Northeast Corridor or other regional trains. Cutting these passengers 
off by shrinking Amtrak's reach only reduces its customer base and 
overall ridership. Amtrak must continue to operate as a true nationwide 
intercity passenger rail carrier, and commit to preserving and 
improving its long-distance service.
    Further, long-distance routes need not be sacrificed to implement 
other positive changes on the network. When Mr. Anderson testified 
before the full Committee in February, he stated that ``The demand is 
clearly there for additional short-corridor service throughout the 
U.S., which includes both additional frequencies for existing routes 
and establishing new routes between city pairs''. We are highly 
supportive of Amtrak pursuing new business opportunities, including the 
creation of new routes and increased services over the routes 
experiencing the highest ridership. Strategies that increase ridership 
and make Amtrak a more appealing transportation option create jobs for 
our member unions and support the sector. However, we reject the 
premise that this must be a zero-sum calculation wherein new 
improvements can only occur through the elimination of existing 
service.
    Efforts by Amtrak and Congress to degrade the customer service 
experience on Amtrak, and use that as justification for eliminating 
routes and services is similarly a losing proposal. The FAST Act 
included language that directed Amtrak to eliminate the operating 
losses on its onboard food and beverage service. This shortsighted and 
burdensome approach degrades the passenger experience, making Amtrak 
less appealing to current and future customers. Financial benefits 
gained are outstripped by the financial costs of dissatisfied customers 
and lower ridership. To date, the provision has not led to meaningful 
savings, but it has led to management decisions that downgrade the 
quality of offerings on-board, or in some cases, remove traditional 
food service entirely. This has frustrated long-time customers and 
damaged Amtrak's public image. Congress must remove this provision in 
the next reauthorization.
    Similarly, we call on Congress to take action to ensure that 
station agents appropriately staff rural stations. Amtrak's decision to 
remove these workers from 15 stations, and therefore the ability of 
riders to purchase a ticket directly from an Amtrak employee, is deeply 
unpopular with customers. We note that both chambers have adopted 
report language in their respective FY `20 appropriations bills 
directing Amtrak to reverse its position and to improve its 
relationship with local partners. Enshrining this position into law 
would ensure Amtrak does not meddle with this critical customer-facing 
function.
                      Policies for a Safer Future
    TTD calls for the inclusion of provisions that will enhance the 
safety of Amtrak and passenger rail more broadly. Specifically, 
Congress should consider the creation and deployment of a Confidential 
Close Call Reporting System (C3RS) on Amtrak. C3RS is a voluntary 
reporting program that allows employees to report close calls without 
fear of discipline and railroads to do the same without incurring 
penalties from the FRA. FRA began piloting the C3RS program in 2007, 
and within eight years participating railroads and railroad workers had 
submitted over 5,000 reports of close call incidents. Since then, the 
program has expanded substantially to additional railroads, TTD rail 
unions report that the program is invaluable in improving safety 
culture in a collaborative fashion, and that its expansion to Amtrak 
can have positive benefits for safety at the company.
    Finally, Congress should take action to protect workers from 
violent assault. Assaults against employees are all too common, 
including the 2017 shooting of an Amtrak conductor onboard a train. 
Both Amtrak and commuter railroads should be required to develop plans 
that seek to prevent violence preemptively, deescalate an in-progress 
event, and help employees manage the aftermath of an assault. Passenger 
rail employees deserve a safe workplace, and the development of these 
plans would be a step in the right direction.
    We urge this Committee to pursue a reauthorization of Amtrak that 
creates a service that works better for its customers, its employees, 
and communities that depend on safe and efficient passenger rail. At 
the same time, Congress must reject efforts to eliminate transportation 
options for riders across the country, degrade customer service, or 
pursue misguided outsourcing or privatizing schemes that undermine rail 
service and good jobs in this sector.
    TTD and our affiliated rail unions look forward to working with you 
to strengthen Amtrak and passenger rail throughout the country. Thank 
you for providing us the opportunity to testify before you.

    Mr. Lipinski. Thank you, Mr. Regan. I now recognize Mr. 
Dinsdale for 5 minutes.
    Mr. Dinsdale. Good morning. Chairman Lipinski, Ranking 
Member Crawford, members of the subcommittee, thank you for the 
opportunity to testify. My name is Jack Dinsdale. I am national 
vice president for the Transportation Communications Union. TCU 
represents approximately 46,000 members, including over 6,000 
Amtrak employees in various crafts. I have 45 years of 
experience working for Amtrak, and as a representative for its 
employees. Amtrak has, indeed, been my life's work, and I am 
extremely proud to be part of America's passenger railroad.
    I am here primarily to speak about the change in culture at 
Amtrak, from what it once was--a proud and enviable workplace--
to one where employees currently live in fear for their 
livelihoods and their careers. I am also here as an advocate 
for Amtrak service, for what it is, and what it could be.
    Under its current leadership, Amtrak is engaged in a 
systematic campaign of union busting, outsourcing good skilled 
jobs of dedicated career employees to low-wage contractors with 
little to no experience, doing everything they can to reduce 
unionized head counts and giving false pretenses to Congress 
and the general public about their actions.
    Amtrak workers were extremely grateful that Chairman 
Lipinski and DeFazio wrote a bipartisan letter cosigned by 89 
of their colleagues which questioned Amtrak about many of their 
labor practices. Amtrak stated in their response, and I quote, 
``We will not improve Amtrak on the backs of labor,'' unquote.
    Under current leadership, Amtrak has abolished at least 700 
TCU members' jobs, and we have been told there are more on the 
way. Sadly, when it comes to Amtrak, all too often we get mired 
in spreadsheets and data that our employees view as just 
numbers to be played with from a cubicle in Washington, DC. For 
onboard service, we are seeing Amtrak weaponize the FAST Act 
language that mandates they eliminate losses on food and 
beverage. Unfortunately, instead of viewing the food and 
beverage language as an incentive to increase revenue or 
enhance service level, Amtrak used it as a license to reduce 
head counts and degrade service by turning quality fresh meals 
into indescribable, reheated, airline calories. How else do you 
explain the current leadership's abandonment of the Coast 
Starlight's joint oversight committee: A labor-management 
collaborative that formulated and executed new services and 
products that added millions in revenue and helped better the 
bottom line.
    Indeed, it appears Amtrak is reliving the past by adopting 
the same, self-sabotaging tactics that freights used when they 
wanted to jettison passenger service. It is important to 
remember the human impact of these cuts, especially since they 
are coming off the backs of Amtrak's frontline workers.
    The onboard service personnel are skilled professionals, 
like the crew of the Coast Starlight train No. 11 from last 
February whose heroic actions were lauded by the passengers 
they served for 36 straight hours. In addition, these employees 
are trained as first responders, in first aid, and identifying 
threats such as terrorism or human trafficking.
    Another instance of Amtrak's antiunion campaign would be 
the elimination of rural station agents in 2018. Fortunately, 
there was a large public pushback in the House and Senate 
fiscal year 2020 appropriations bills, both bills direct Amtrak 
to restaff these stations. Our members are eager for that bill 
to pass so they can get back to work.
    Perhaps the most egregious and callous of Amtrak's 
outsourcing was Riverside call center, where Amtrak ignored 
bipartisan calls from over 40 Members of the House and Senate, 
and abolished over 500 jobs, and all because of the supposed 
drop in call volumes, in a push to get real estate off their 
books.
    Today, Amtrak still owns the Riverside facility and their 
outsourcing facilities employ at least 350 people and counting. 
Riverside was never about call volumes, it was about union 
busting, period.
    As part of my testimony, I have attached an interview of 
former Amtrak CEO, the late Joe Boardman, where he detailed the 
many flaws he saw with Amtrak's current direction, including 
how Amtrak is treating its employees. This interview provides 
food for thought.
    As we enter reauthorization, we have outlined how Congress 
could provide a new leadership structured for the railroad 
while reforming Amtrak's board of directors. We believe the 
board should be comprised of various stakeholders, whose 
interests are aligned with the success of Amtrak and who have 
experience delivering passenger rail solutions for this 
country. However, we would caution this Congress about waiting 
for reauthorization, because as we see it, there may not be 
much of a railroad left to save. In the near term, Congress 
must hold Amtrak accountable through the appropriations 
process, and ensure that Amtrak abides by the national vision 
set forth in current law, not the mission its current 
leadership seems to be forging ahead with.
    Finally, our intention in testifying today was not just to 
talk about job losses, or outsourcing, or the conversion of 
good middle-class careers into low-wage jobs. Our intention is 
to see Amtrak thrive and grow. Our members want Amtrak to be 
successful, because it is the railroad they have serviced and 
loved, and it is their life's work and who wouldn't want their 
life's work to succeed?
    Thank you for the opportunity to testify.
    [Mr. Dinsdale's prepared statement follows:]

                                 <F-dash>
     Prepared Statement of Jack Dinsdale, National Vice President, 
             Transportation Communications Union (TCU/IAM)
    Chairman Lipinski, Ranking Member Crawford, Members of the 
Subcommittee, thank you for the opportunity to testify.
    My name is Jack Dinsdale, and I am a National Vice President for 
the Transportation Communications Union (TCU/IAM). TCU is the largest 
union at Amtrak, representing over 6,000 ticket agents, red caps, 
customer service representatives, onboard service personnel, 
supervisors, carmen, coach cleaners, and others.
    I have over 24 years of experience working for Amtrak, and an 
additional 21 years as a union representative for Amtrak employees. I 
have personal experience working in Amtrak's call center, as a ticket 
agent, in the commissary, as a baggage handler, in material control, as 
a maintenance yard clerk, in crew base operations, in time keeping and 
in other positions. And because of this broad experience I am well 
acquainted with the various work roles that exist at Amtrak.
    Amtrak, including its employees, and the service we provide as a 
team, has been my life's work. I am extremely proud to be a part of our 
nation's storied passenger railroad.
    The title of this hearing is ``Amtrak Now and Into the Future,'' 
and it couldn't have come at a more appropriate time for Amtrak and its 
workforce. I am here primarily to speak about the changing culture at 
Amtrak, from what was once an enviable and proud workforce, to one that 
is full of employees who currently live in fear for their livelihoods 
and careers. But I will also speak as an advocate for Amtrak service, 
for what it was, and what the future could hold for our nation's 
passenger railroad.
    I believe my 45 years of experience with Amtrak will provide useful 
insight into the history of the company, where it can improve, what 
various managements have failed to do, what various Congresses have 
tried and failed to do, and--hopefully--my testimony will provide some 
insight for you all as you embark on a new authorization effort.
    Under its current leadership, Amtrak is engaged in a systematic 
campaign of union busting and union avoidance maneuvers: outsourcing 
good, skilled jobs of dedicated career employees to low-wage 
contractors with little to no experience; doing everything they can to 
reduce the internal, unionized headcounts, and giving false pretenses 
to Congress and the general public about their actions.
    These actions, combined with efforts to sabotage its own services, 
point to only one conclusion: Amtrak will be asking Congress to make a 
false choice--to choose between long-distance service or a 
significantly reduced regional structure that only serves portions of 
America.
    I am here to ask you not to fall for that trap. And I presume some 
of the other witnesses will ask the same.
    Do not buy into Amtrak's narrative that tells of a declining long-
distance ridership; or that certain services are not wanted or needed; 
or that customers like boxed lunches and re-heated airline food.
    Do not be swayed by Amtrak's excuses that they are simply 
``following the law,'' and are continuing to operate as directed by 
Congress. These are, at-best, half-truths designed to deflect blame; 
and, at worst, they appear to be intentional attempts to mislead 
Congress while it executes its own internal vision of a regional route 
structure.\1\
---------------------------------------------------------------------------
    \1\ Figure 1, ``Rail Corridors Network--2030'' map.
---------------------------------------------------------------------------
    Amtrak workers were extremely grateful that Chairmen Lipinski and 
DeFazio led a bipartisan letter, cosigned by 89 of their colleagues, 
that questioned Amtrak about many of their labor practices. In Amtrak's 
response, Mr. Anderson stated that ``we will not improve Amtrak on the 
backs of labor.'' To date, Amtrak has abolished at least 700 TCU 
members' jobs, and we've been told more are on the way.
                          Onboard Service Cuts
    Let me start by talking about cuts to onboard service. TCU is part 
of the Amtrak Service Workers Council (ASWC), a group of three unions 
that also includes the Transport Workers Union (TWU) and Unite-HERE. 
Together we represent all of Amtrak's approximately 1600 onboard 
service personnel throughout the country. These include service 
attendants, dining car attendants, chefs, cooks, and others. And these 
aren't just ``jobs'' either, but careers that have provided a pathway 
for so many families to the middle class. They are the kinds of jobs 
that are the foundation our communities are built upon.
    Our members are some of the most dedicated, hardworking employees 
at Amtrak. And they serve as the face of Amtrak every day.
    These employees know how to put a smile on the faces of customers, 
they attend to families, they prepare meals from scratch, they turn 
down beds. In other words, they are skilled customer service 
professionals whose mission it is to make your ride on Amtrak as 
enjoyable as possible, and to keep you coming back. What often goes 
unmentioned and unnoticed is that these onboard employees know the 
equipment they work on and regularly perform maintenance enroute.
    Whether it be getting inoperable bathrooms to work, or fixing the 
air conditioning in 100 degree heat, they have acquired these 
additional skills through their commitment to Amtrak and pride in 
delivering best possible experience to the traveling public.
    Per federal regulations (49 CFR Part 239), these employees must be 
trained as first responders, ready to act at a moments' notice. They 
are trained in first aid and emergency evacuations. They are trained to 
identify human trafficking, and to be the eyes and ears for bomb and 
terrorist threats, or other criminal activity. For those handling 
foods, staff must be trained and certified on Food & Drug 
Administration (FDA) requirements.
    But none of that does justice for the work our members perform when 
a disaster occurs.
    In late February, 2019, the Coast Starlight 11 was travelling 
through a blizzard outside Oakridge, Oregon when the train struck a 
downed tree. The locomotive was immobilized from the collision, and 
approximately 200 passengers and personnel were left stranded for over 
36 hours.
    Amtrak's onboard personnel did not panic, but jumped into action, 
going above-and-beyond to ensure passengers were adequately cared for. 
When diapers ran short, a crewmember fashioned replacements out of 
napkins and safety pins. One passenger remarked that the ``train crew 
was amazing. They were so professional and so kind. We really wanted 
for nothing except for maybe someplace comfortable to lie down.'' \2\ 
Another passenger said of the crew's actions: ``It rekindled my faith 
in humans . . . I've been so disappointed so many times in the last few 
years with how people treat each other. It gave me hope that maybe we 
haven't lost our humanity after all.'' \3\
---------------------------------------------------------------------------
    \2\ Selsky, Andrew. ``Passengers Band Together on Train Stuck in 
Oregon Mountains.'' AP NEWS, Associated Press, 27 Feb. 2019, 
apnews.com/61a38cbfcd504bed8e2d159f4999d360.
    \3\ McDaniel, Piper. ``When Amtrak Train Stalled in Oregon Snow, 
Crewman Emerged as `Source of Comfort'.'' Oregonlive, The Oregonian, 1 
Mar. 2019, www.oregonlive.com/news/2019/03/when-amtrak-train-stalled-
in-oregon-snow-crewman-emerged-as-source-of-comfort.html.
---------------------------------------------------------------------------
    When it comes to Amtrak, all too often we get mired in spreadsheets 
and data; that our employees are just numbers to be played with from a 
cubicle in Washington.
    But these kinds of stories remind us that serving and caring for 
our customers is the primary goal of any transportation system. That 
our customers are not cattle to be herded and shuttled from station to 
station, but regular people that want to be treated with quality and 
dignity--the kind that attracts ridership, the kind that inspired the 
romantic description of train travel in the first place.
    This is the Amtrak I grew up working on, riding, and loving. Sadly, 
under its current direction, that Amtrak is fading more and more every 
day.
    When I hired on at Amtrak in 1974, the goal was actually to 
rehabilitate the dining service from the self-sabotaging efforts the 
freights had inflicted upon their own passenger trains. In fact, one of 
the first advertisement campaigns Amtrak ran after being created was 
``We're Making the Trains Worth Riding Again.''
    In fact, as recently as 2017, our union was actively included in 
being part of the solution. In an attempt to better the financial 
performance of the Coast Starlight, our members--including chefs, 
service attendants and train attendants--were part of a labor-
management collaborative whose mission statement was as follows: 
``Create and sustain a culture that fosters all departments working 
together in unity, for our people, for our customers, for our service. 
One Amtrak.'' \4\
---------------------------------------------------------------------------
    \4\ See attachment--``Starlight Highlights'' document
---------------------------------------------------------------------------
    The collaborative successfully rethought onboard services, expanded 
products, increased revenue, which even resulted in reduced labor 
costs. The changes made included ``Just for You'' meals where the team 
designed a new fresh, affordable menu for coach passengers--a revenue 
increase of $422,158; a business class initiative that converted 
``kiddie cars'' into an entire new service class that resulted in $3.4 
million in revenue; and a ``Cocktails on the Rails'' program to offer 
signature cocktails to enhance the Pacific Parlour Car experience and 
resulted in an increase of $71k in revenue (over only a short time--
before Amtrak pulled the Parlour car altogether).
    Unfortunately, Amtrak eliminated that collaborative effort that was 
successfully working to reduce the operating loss on food and beverage. 
The ``Just for You'' meals were eliminated a year ago, and Amtrak 
management has jettisoned any collaborative approach to improve service 
and revenue--opting for a my-way-or-the-highway attitude.
    Today, Amtrak is doing exactly what the freights did by degrading 
the services instead of improving them. By weaponizing the FAST Act 
language, Amtrak is destroying fresh dining and food service options, 
and interpreting the mandate to eliminate losses on food and beverage 
service as a ban on loss-leader service products. They are interpreting 
the language as license to turn quality fresh meals into indescribable 
re-heated airline calories, with little regard to the overall bottom 
line.
    Amtrak's changes to ``contemporary dining'' options has resulted in 
the elimination of the jobs of our members, including chefs and service 
attendants. And on the routes that first observed these changes in 
2018--the Capitol Limited and the Lake Shore Limited--it appears the 
service has resulted in decreased ridership. For the rest of the 
routes, it's admittedly too early to definitively quantify the impact 
of the service changes. However, this is becoming increasingly 
difficult considering the omission of Amtrak's route-specific data 
reporting that conveniently coincided with these changes.
    Indeed, we would urge the Committee to obtain this data, since it's 
obviously available internally at Amtrak. In addition, we would urge 
Congress to mandate the publication of route-specific ridership data in 
reauthorization.
    Amtrak blames Congress and the FAST Act for mandating these service 
shifts, and they blame millennials for demanding seclusion from others 
and not caring for fresh food choices. They blame anyone, but 
themselves. And, as the father of a few millennials, I think they'd 
take issue with Amtrak's reductive assertion. Indeed, where's the fresh 
avocado toast?
    One such millennial pushed back against Amtrak's service changes in 
an op-ed published in the New York Times:

        The desire to ``lure a younger generation of riders,'' cited as 
        part of the reason for the change, is an example of what feels 
        like a message from society to millennials in particular: We're 
        going to offer less and expect you to get more out of it. The 
        suggestion that, as a 26-year-old, I should find meaning in 
        something that's sparse, impersonal and temporary feels all too 
        familiar.\5\
---------------------------------------------------------------------------
    \5\ Stauffer, Rainesford. ``The Sterile, Efficient Life of a 
Millennial.'' The New York Times, 28 Sept. 2019, www.nytimes.com/2019/
09/28/opinion/sunday/millennial-dining-car-amtrak.html.

    Our point is not to say that we shouldn't have change at Amtrak, or 
adapt to modern times and tastes. Rather, we would argue that the 
changes being deployed are not to better the experience of the 
traveling public, and they're certainly not good for those working the 
trains. Indeed, the only beneficiary of these changes are the managers 
reaping bonuses for cutting costs, and the leadership that wants to 
stop running long-distance trains all together.
    Finally, we must remember the people who are impacted by these 
cuts. Again, these are not part-time jobs filled by unskilled workers. 
These are career positions of people who've dedicated their lives to 
this railroad, certified in emergency preparedness, and/or trained at 
culinary schools. They are good jobs, with quality benefits, and 
railroad retirement. They are the kinds of jobs that enable people to 
buy homes and send their kids to college. The kinds of jobs we hold in 
high regard in this country.
                          Rural Station Agents
    Another source of public and employee frustration has been the 
arbitrary removal of station agents at 15 rural stations throughout the 
country. In 2018, Amtrak eliminated station agents as part of another 
misguided attempt to cut costs on the back of working people, and 
further degrade service for their rural ridership.
    When Amtrak removed staff from these stations it replaced them with 
contract ``caretakers'' whose job was only--supposedly--to open and 
close stations, and take out the trash.
    No ticket sales, no store operations.
    In many of these stations, Amtrak runs long-distance trains that 
can be anywhere from one to ten hours late. That's a lot of time for 
passengers to wait at a station--even longer at one that isn't staffed. 
In addition to selling tickets, our station agent members cleaned the 
station and bathrooms, often sold ancillary items, shoveled platforms 
during snow storms, helped load baggage, chaperoned underage riders, 
and helped disabled passengers get on and off trains. In Cincinnati, 
one of the stations that was de-staffed in 2018, the station is 
particularly challenging for passengers as it includes multiple levels.
    These agents are not simply loitering behind a glass window, as 
some of Amtrak's headquarters managers have suggested. Rather, they are 
an integral part of a customer service product, and they are valued 
members of the community.
    The public backlash Amtrak faced from the small towns was immense. 
And, to be completely honest, we were blown away by the fight these 
small towns and cities put up. Town and City Hall meetings were held, 
articles were published, letters were written, calls were made--all in 
defense of their community's station agents. For me, it was a truly 
heartwarming moment and validated what I've always known: that our 
station agents aren't just ticket-selling automatons, but are valued 
neighbors, woven into the community. Unfortunately, Amtrak doesn't see 
them the way I do, nor do they appear interested in the opinions of 
rural America.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Amtrak Station Agent Matt Crouch in Charleston, WV, whose job was 
       eliminated in Amtrak's 2018 cuts, along with many others.

    Nevertheless, the response on Capitol Hill has been clear: both the 
FY2020 House and Senate appropriations bills include report language 
directing Amtrak to re-staff these stations with ticket agents. And, on 
behalf of our members who lost their jobs from these cuts, I will say 
that they are eager to come back home and get back to work.
    Unfortunately, I was told last week that Amtrak will be cutting an 
additional 90 clerks from stations and facilities across the country--
70% of which work in customer service positions. It's important to note 
that, yet again, this was a ``this is happening'' conversation, not a 
negotiation. And it all stems from a directive from Amtrak leadership 
to cut $8 million from stations across the country. My point being: 
these are not carefully thought out abolishments due to decreased 
service or need, but rather arbitrary cost-cutting without thought to 
how service will be impacted.
                      Outsourcing Call Center Jobs
    The last example of outsourcing is perhaps the most egregious and 
callous: the closure of the Riverside, California call center on 
January 18th, 2019.
    For background: in early 2018, Amtrak announced that it was 
contracting with business process outsourcer Teleperformance in Port 
St. Lucie, FL, to ``work alongside'' our in-house customer service 
representatives. At the time, we expressed concern that Amtrak was 
outsourcing our jobs, but were reassured several times--albeit 
verbally--that ``No, we are not closing either of the in-house call 
centers,'' and that the outsourcer was simply for ``peaks and valleys'' 
in call volumes and staffing levels.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Amtrak call center employees rallying and marching at Riverside City 
                        Hall to save their jobs.
               [Photo credit: Riverside Press-Enterprise]

    Amtrak proceeded to have our members fly out to the outsourcer to 
train these new customer service representatives, under the pretense 
that nobody would be losing their jobs back home.
    That was a lie. Plain and simple.
    On November 16th, 2018, Amtrak announced it would be closing the 
Riverside call center, and consolidating operations at its last 
remaining facility in Philadelphia. The 500+ employees at Riverside 
were blindsided by this announcement, made worse by the downright 
callous timeframe of 60 days--60 days with Thanksgiving and Christmas 
right in the middle. 60 days to figure out how to sell your home, break 
your lease, take your kids out of school, and move across the country. 
All because Amtrak was afraid that Congress would stop it.
    And stop it they tried. During this 60 days, Congressmen Mark 
Takano and Ken Calvert led a bipartisan effort to stop the closure of 
the call center; or, at the very least, give employees more time to 
make such a life-changing decision.
    Unfortunately, the government shutdown carried past the date of the 
call center closure. And despite bipartisan calls from 39 of 
California's House members and both Senators to halt the facility's 
closure, Amtrak continued unabated.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Amtrak call center employees rallied in response to being lied to by 
                           Amtrak management
             [Photo credit: of Riverside Press Enterprise]

    On the union side, our team--myself included--made every attempt to 
save these jobs: offering amendments to the agreements, and anything 
possible to save the company money and keep the work in Riverside. 
Nothing would sway Amtrak from closing the call center.
    The end result was that some of our members took jobs elsewhere in 
the system, some took buyouts and early retirements, and a handful 
moved to Philadelphia. Many simply lost their job, like U.S. Army 
veteran Theresa Kolaras, whose position at the call center was perfect 
for her because she needed a position sitting down due to a service-
related disability.\6\
---------------------------------------------------------------------------
    \6\ Figure 2--Theresa Kolaras' letter that Congressman Takano read 
on the House floor.
---------------------------------------------------------------------------
    But the story doesn't end there.
    Amtrak claimed that the main reason for the consolidation of the 
work in Philadelphia was because of reduced call volumes and more 
passengers utilizing the website and mobile apps for booking 
reservations.
    We would argue that point in itself, along with Amtrak's reluctance 
to provide such data to anyone, including Congress.
    Regardless, we have now learned that Amtrak is employing at least 
320 people at the Port St. Lucie outsourcer, and that they've 
contracted for a second facility in Westerville, OH, where they 
currently employ 35 people and are training two additional classes.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    500 jobs were abolished in Riverside because of a supposed lack of 
call volume. There are now a combined 350 people working at the 
outsourcing facilities--the same facility that Amtrak said was only for 
``peaks and valleys.''
    Amtrak management lied. They lied to us, and they lied to their 
employees--and, effectively, they lied to you.
    This was never about lower call volumes. It was always about union 
busting. It was about taking good, union jobs with healthcare and 
railroad retirement benefits, and turning them into low-wage, no-
benefit jobs.
                           Cuts for Cuts-sake
    In my 45 years at Amtrak, I have never seen morale lower than it is 
today. And the impact isn't just affecting working people, it's 
affecting service. Since the changes have been put in place, many 
stations have seen steep drops in their Customer Satisfaction Index 
scores, and ridership on many of our storied long-distance trains is 
down as customers are frustrated at the continued degradation of the 
railroad they know and love (again, the Committee should demand route- 
specific data from Amtrak).
    In total, 700 TCU jobs have been abolished under Amtrak's current 
leadership.
    Unfortunately, this is what happens when the incentives for 
Amtrak's management are so heavily focused on cutting costs alone. In 
fact, Amtrak's Short-term Incentive Program for managers weighs 70% on 
financial goals, while a measly 20% is based on customer service, and a 
sad 10% on ridership.
    Translation: Amtrak's management bonus structure is about cutting 
the railroad to the bone until there is no one left to defend it. Not 
about providing quality services, or improving ridership. It's about 
cuts. Period.
    But don't just take my word for it. Here are the words of the 
former Amtrak CEO, the late Joe Boardman, when he was asked about 
Amtrak's management incentives, and what is different now:

          Cost has become a driver in a way that it has begun to damage 
        the system. We had an overall revenue goal. But individual 
        management goals that influence monetary bonuses were based on 
        cost targets, not revenue. The incentive program needs to be 
        revamped so cutting expenses is not the sole focus. I mean, 
        eventually what are you going to cut if it is the sole focus? 
        Everything? And not run the trains?
          The intent of Congress was to do as good a job as we could, 
        but now it's just plain cost cutting: Throwing employees out of 
        the stations and reservation centers, cutting meal service.
          This is what is amazing to me: The board felt they became 
        more knowledgeable only because they had better financial 
        information. I insisted on transparency. [You're] going to have 
        the confidence of Congress if [you] are telling them exactly 
        what the numbers are. And that's exactly what they're not 
        doing--on purpose--now, because they think they are smarter 
        than everyone else. [Amtrak Chairman Anthony Coscia wants 
        numbers lumped together] because they seem to agree with the 
        blockheaded moves management is making right now. I don't think 
        Richard Anderson ever did an honest assessment of what [the 
        board was] up to and where they were going.\7\
---------------------------------------------------------------------------
    \7\ Johnston, Bob. ``Trains' Last Interview with Former Amtrak 
President Joe Boardman.'' TrainsMag.com, Trains Magazine, 7 Mar. 2019, 
trn.trains.com/news/news-wire/2019/03/08-trains-last-interview-with-
former-amtrak-president-joe-boardman.
---------------------------------------------------------------------------
                          A Vision for Amtrak
    But this hearing is not just about where Amtrak was or is, but what 
it could be. And to that we would offer a few comments.
    The entire history of Amtrak has been a lack of proper financing 
married to a national vision. The politics at play result in the 
goalposts constantly shifting for Amtrak, often creating inconsistent 
services, and having customers, workers and communities caught in the 
middle.
    Again, I'd compare Amtrak's current vision to that of former Amtrak 
CEO, the late Joe Boardman. When asked about ``running Amtrak as a 
business,'' Boardman replied:

          Running this company like a business means the United States 
        of America is a customer. They are paying the cost of 
        maintaining the mobility. Making that mobility available. 
        They're making an availability payment. They're not subsidizing 
        this railroad, they're paying the cost of providing it.
          The thing I see here is not only an imbalance in what the 
        funding is, but a lack of understanding of what they're paying 
        for. They're paying for this mobility and this connectivity and 
        making this available to the residents of every one of the 
        states of this union, except for two in the lower 48. Forty-six 
        states, over 500 stations, get Amtrak service. And when you 
        ride those long-distance trains, you will see sometimes a 
        seven-passenger minivan that's in business to provide that last 
        mile of service from some of those sparsely populated areas 
        where we have stations.
          We bring business. I don't get it that people don't 
        understand that.\8\
---------------------------------------------------------------------------
    \8\ ibid

    One method by which to cure Amtrak's maladies may be for Congress 
to rethink its approach to Amtrak leadership. By reforming the Amtrak 
Board of Directors, Congress could rejuvenate Amtrak by properly 
addressing the needs of the country, and give voices to the 
stakeholders that actually care about passenger rail service and 
improving Amtrak rather than gutting it for its parts.
    A new Board of Directors that properly represents various groups, 
communities, service lines, and workers would allow better, more 
thoughtful decision-making. These decisions would not be hampered by 
conflicting interests on the Board, but rather enhanced through 
negotiation and careful consultation. Such a Board--just like this 
Committee--should be familiar with such work, as it is often the most 
bipartisan, productive committee in Congress, and routinely works to 
get things done rather than quibble and posture.
    Imagine an Amtrak Board that worked the same way, and that was full 
of people whose mission it is to see the railroad succeed, rather than 
a Board chock full of political appointments who view their position as 
little more than resume builders. A Board that agrees with people like 
Chairman DeFazio or Senator Moran, who both liken the importance of 
Amtrak's service to that of the U.S. Post Office--a service that may 
not make money, but provides vital transportation access to millions 
while spurring economic growth.
    That kind of leadership could take Amtrak to the next level, and 
beyond.
    However, I caution this Congress about waiting for Reauthorization 
to draw a new future for Amtrak. As we see it, by the time Congress 
completes its reauthorization effort, there may not be much of a 
railroad left.
    In the near term, Congress must hold Amtrak accountable through the 
appropriations process, and ensure that Amtrak commits to, and abides 
by, the national vision set forth in current law--not the mission its 
current leadership seems to be forging ahead with, regardless of 
Congressional directive. Amtrak, after all, is not our regional or 
corridor but our National Railroad Passenger Corporation. And we must 
fight to preserve it as such.
    Finally, our intention in testifying today was not just to talk 
about job losses or outsourcing or the conversion of good middle class 
careers into low-wage jobs. Our intention is to see Amtrak thrive and 
grow. Our members want Amtrak to be successful because it's the 
railroad they've known and loved, and it's their life's work. And who 
wouldn't want their life's work to succeed.
    Thank you for the opportunity to testify.
              figure 1. amtrak's proposed route structure
              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


figure 2. letter from theresa kolaras, an amtrak employee in riverside 
                          & u.s. army veteran
    Growing up it was my dream to serve my country. That's why I joined 
the JROTC program in High School. And after 9/11, I enlisted with the 
U.S. Army with hopes of making a difference, and happy to have a 
career. My job wasn't glamorous: I was a Unit Support Specialist--MOS: 
92 Yankee. But I was proud to be serving during a difficult time for 
our country.
    Unfortunately, just as my platoon was readying to deploy, I 
suffered successive fractures in my foot that wouldn't heal. I was 
honorably discharged due to the injury, and just like that my dreams 
were cut short. At the time, nothing saddened me more than having to 
watch my friends deploy without me.
    Saddled with my foot that wouldn't heal, I now had to figure out 
what to do with my life. Jobs were hard to find due to having to choose 
ones that kept me off my feet so much. I found many odd jobs here and 
there, and, within a few years, I started a family and continued my 
education.
    In 2014, I was ecstatic to find out I was hired with Amtrak, as I 
come from a railroad family and was proud to continue the tradition. 
Being able to work at our call center in Riverside was a blessing for 
my family and I.
    Amtrak's reputation for its passengers and it employees gave me 
hope for a brighter future. Living in California is nearly impossible, 
with its high cost of living. Especially being a single mother with two 
boys.
    I was able to take care of my kids on the great benefits and wages 
at Amtrak. My boys love the train and enjoy our many trips we were able 
to take.
    On Nov 14th, I got a sudden awakening as I got notice that Amtrak 
would be closing our call center in Riverside. A week before 
Thanksgiving and a month before Christmas.
    Now, I was more than shocked, as in June we employees got a letter 
stating our jobs were not at risk, even though Amtrak was choosing to 
open up another call center in Florida.
    Amtrak reassured us employees our jobs were secure. As the months 
went by, Amtrak started closing stations, putting employees out of 
work--and many of us in Riverside started to worry more about our jobs.
    Now that feeling of worry is a reality, and we're left wondering 
why Amtrak has been so dishonest?
    Amtrak sent out a letter to us stating they are not laying us off, 
but we are able to go to its Philadelphia call center. How does Amtrak 
think people in two months can get up and move to the East coast?
    Amtrak knows not everyone can just get up and go as people have 
homes and families. Is this why they decided not to give its employees 
notice?
    Amtrak has opened up its non-union call center in Florida and the 
worst part being is them openly denying that they've done just that.
    I count myself as among the great majority that can't just pack up 
on such short notice and leave. I have small children and share 
custody, and I legally can't move my kids out of state.
    I honestly have no idea where my children and I will go. We have a 
month to figure out where to live, as I can't pay rent without a job, 
along with this injury that I still deal with every day.
    Telling my boys we can't have a real Christmas was hard, but 
telling them Mom will not be working for the train . . . that was the 
hardest.
    I am one of the many employees who are at a hardship, and one month 
away from closing we still don't have any real answers, or hope that we 
would at least have a severance package.
    Amtrak has been quiet, and I am still in disbelief that this was 
once a company that was known for its employee and customer loyalty.
    Many of us loved our jobs because we were proud of the railroad, 
proud to wear the name, and proud to help our customers plan their 
trips.
    Now, at work these last few days, I see people with despair in 
their faces, and loss of hope in their eyes. Amtrak should ask 
themselves, is this the treatment they want to give its most dedicated 
employee base? I still have hope that Amtrak will wake up and realize 
that the direction they are going is hurting its customers and its 
employees, which are their biggest fans.
    Is sacrificing the quality service Amtrak has provided (not just in 
Riverside but nationwide) worth losing to save money? On top of the 
numerous stations that have been closed under your regime, you are now 
putting not just 500 employees but 500 employees and THEIR FAMILIES in 
dire straits. This decision is both ethically and morally wrong. It's 
only fair to those hard working employees here in Riverside that we 
hear an answer.
                                                 Sincerely,
                                                   Theresa Kolaras.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Lipinski. Thank you, Mr. Dinsdale.
    I now recognize Mr. Mathews for 5 minutes.
    Mr. Mathews. Thank you. Good morning, Mr. Lipinski, Mr. 
Chairman; Ranking Member Crawford, Chairman DeFazio, and all 
the members of the subcommittee. Thank you for inviting me to 
share our views on the present and future of Amtrak. And thank 
you for your leadership of a national conversation about 
Amtrak's future that is critical to tens of millions of people 
in hundreds of American towns. I am Jim Mathews, president and 
CEO of the Rail Passengers Association. We are the oldest and 
the largest organization speaking for the more than 40 million 
Americans who rely on trains of all kinds. Our 28,000 members 
work every day for more trains, better trains, and stronger 
infrastructure. This makes communities safer, more accessible, 
more productive, and improves the lives of everyone who lives 
and works in towns all across America.
    It is an exciting time to consider rail's future, but it is 
also a challenging time fraught with risk if we make the wrong 
decisions, decisions that will be felt for decades to come. 
People are embracing rail to solve America's growing mobility 
problem, passenger trains are enjoying their strongest support 
in decades. Amtrak had a record 32 million passengers this 
year. Ridership is up across much of the system.
    This Congress has demonstrated real vision in recent years 
by making sensible rail investments to serve people, not just 
cars. And it is not just Congress that is investing. There is 
great work being done by States in the private sector to bring 
next generation service to America's three most populous 
States: Virgin's Brightline between Miami and Orlando; Texas 
Central's all private Houston-Dallas high-speed line; and, of 
course, the California high-speed rail project connecting San 
Francisco to Los Angeles. Better yet, Amtrak, for the first 
time in many years, is itself advancing a growth vision, 
looking ahead to more than just operating the same network it 
has for decades. We are excited when we talk with Amtrak 
leadership about, for example, expanding the Heartland Flyer, 
or opening Colorado's Front Range service.
    We applaud this vision and will do everything we can to see 
more Americans in more places get more train service, with 
dedicated funding for new cities and frequencies in short-
corridor markets that are ripe for better service.
    But Amtrak sometimes talks about a future that leaves out 
many Americans, hinting that there aren't enough demand 
indicators to justify connecting places like Kansas or New 
Mexico to the rest of the country, or to staff call centers or 
smaller stations, or to feed passengers on longer journeys.
    Now, that might make sense for a private company, but we 
all know that Amtrak has a different mission. Congress created 
Amtrak expressly to provide service to places that need it, and 
where the private sector cannot profitably provide it. The 
single mom in Walnut Ridge, Arkansas, deserves to use the Texas 
Eagle just as much as a Wall Street banker using the Acela; it 
is one of our country's core values. Besides, it is not whether 
a particular route makes money. It is about who makes money 
from a given route. Through research and modeling, we have 
quantified that return on equity for the taxpayer's investment 
all across the country.
    Just one example, we found that Amtrak's Empire Builder is 
worth $327 million every year to the economies of the States it 
serves, six times what we spend on it. We have reported similar 
findings on other routes. Part of the problem may be 
policymakers demand indicators. Current legislation requires 
Amtrak to minimize Federal subsidies, to make States pay for 
routes under 750 miles, and to break even on food and beverage 
service.
    Let's be clear: Congress eliminated the profit requirement 
in 1978 when it modified the Rail Passengers Service Act. 
Congress said, quote, ``This amendment recognizes that Amtrak 
is not a for-profit corporation.''
    So let's stop talking about profits and use the 
reauthorization to address real challenges in Amtrak's future. 
On-time performance is the biggest threat, and a lot of the 
blame rests with the host railroads. Hosts have also hamstrung 
Amtrak on new service, declaring, for example, that it could 
cost $2 billion to connect New Orleans to Jacksonville. That is 
how much it cost NASA to send a rover to Mars. We need 
congressional leadership to set up a shared-use corridor 
advisory committee involving all stakeholders, including 
riders, to work out a truce so that Amtrak can get down to the 
business of connecting America.
    We also think it is time to help Amtrak enforce passengers' 
rights to be on time. It is time to enshrine Amtrak's national 
network mission into law. It is time to create a predictable, 
dedicated funding stream for rail travel. It is time to create 
and fund new service where it is needed, and to buy new coaches 
and dining cars. That includes fully funding Amtrak's outline 
to refresh and replace superliners. That can't come soon enough 
for our members, who carry self-help kits like mine when they 
travel.
    It is time to accelerate Amtrak's fleet plan. It is time 
for Congress to act to be sure local investments are not 
stranded by network planning over which communities have little 
say. And it is time for more transparency and data-driven 
decisionmaking, both at Amtrak and at the FRA. It is time 
Amtrak adopted the avoidable cost accounting method required by 
statute. And we think FRA could be more effective if we can 
gather and report on railroad metrics in the same way that the 
FAA does for airlines.
    Today's Americans expect a modern, frequent, reliable and 
safe rail system as part of a robust ecosystem of travel 
choices, from ridesharing and bikes, to cars, trains and 
jetliners. It is what America deserves. We and rail passengers 
stand ready to work with authorizers and all stakeholders to 
make it happen.
    Thank you.
    [Mr. Mathews' prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Jim Mathews, President and Chief Executive 
                  Officer, Rail Passengers Association
                              Introduction
    Good morning, and thank you Chairman Lipinski, Ranking Member 
Crawford, and all of the members of this subcommittee for inviting me 
to share our views on the present and future of Amtrak. I appreciate 
this subcommittee taking leadership of the national conversation about 
the Amtrak's future, which is critical to tens of millions of people 
and hundreds of towns across America.
    My name is Jim Mathews, and I am the President and CEO of the Rail 
Passengers Association, the oldest and largest national organization 
serving as a voice for the more than 40 million rail passengers in the 
U.S. Our mission is to improve and expand conventional intercity and 
regional passenger train services, support higher speed rail 
initiatives, increase connectivity among all forms of transportation 
and ensure safety for our country's trains and passengers. All of this 
makes communities safer, more accessible and more productive, improving 
the lives of everyone who lives, works and plays in towns all across 
America. It is my pleasure to testify before you today on behalf of our 
28,000 members from all across the U.S.
    Today, I will speak about the state of the American passenger in 
2019. That passenger faces unprecedented challenges at a network level, 
but also sees the promising early stages of a passenger rail 
renaissance--the first since the ascendancy of the federal highway 
program more than a half-century ago. I will also lay out what our 
coalition believes are fundamental elements for the creation of an 
equitable passenger rail network, where growth does not require one 
American getting better service at the expense of another American's 
train. With strong Congressional leadership and a long-term policy and 
financial commitment, we believe Amtrak is capable of fulfilling its 
legislative mandate to be America's Railroad.
                    The State of the U.S. Passenger
    It is clear that in the U.S. today we have arrived at a unique 
moment in passenger rail. Passenger trains generally--and Amtrak 
specifically--are enjoying some of their strongest support in decades, 
reflecting the reality that much of the American public is demanding 
more and better trains. Amtrak carried over 32 million customer trips 
this year, seeing ridership increases across the Northeast Corridor and 
state-supported business lines. With steady increases in federal 
appropriations in FY2018 and FY2019, Congress is demonstrating a 
willingness to make sensible investments in a multimodal transportation 
system in the U.S. that serves people, not cars.
    There is more work being done at the state level and the private 
sector as well, with great strides in bringing next-generation 
passenger service in our nation's three most populous states: the 
Miami-Orlando Brightline service being operated and developed by Virgin 
Trains USA in Florida; the Houston-Dallas high-speed rail line under 
development by Texas Central; and the San Francisco-Los Angeles 
corridor currently being constructed by the California High-Speed Rail 
Authority.
    For the first time in a long time, Amtrak leaders are talking about 
truly growing service, adding to the offering, and buying new equipment 
for the long-distance services. We've talked with Amtrak leadership 
about exciting growth plans on select short-distance corridors, 
including expanding the Heartland Flyer, the Front Range Corridor, and 
bringing passenger rail back to the Gulf Coast. CEO Richard Anderson 
has proven his commitment to improving the safety culture at the 
railroad, as well as looking for ways to satisfy the tastes and demands 
of a new generation of fare-paying riders with improved rolling stock 
and new on-board amenities.
    However, fundamental problems remain, problems that threaten the 
viability of passenger rail service across much of our nation. Growing 
delays on host railroad-owned corridors, aging infrastructure and 
equipment, and a distressing shift in the understanding of Amtrak's 
core mission within the railroad's own executives will--if left 
unaddressed--lead to a future where the benefits of rail travel are 
reserved for a few well-off megaregions, with the rest of the country 
becoming more and more disconnected from a rapidly transforming 21st 
century economy.
    I will briefly describe the scope of these problems before 
outlining some possible solutions that we hope will be included in the 
final surface transportation reauthorization--including an explicit 
recommitment to Amtrak's founding purpose.
Host Railroad Delays Threaten National Network Viability
    The most common problem for Amtrak passengers outside of the 
Northeast Corridor (NEC) is delays stemming from freight train 
interference. Roughly 54 percent of all long-distance trains are 
delayed, which translates to two-thirds of the passengers on these 
interstate corridors arriving at their destination late. While the 
average delay for these long-distance passengers is 49 minutes, it is 
often much longer, with one in every five long-distance trips resulting 
in delays of two hours or more. This has had an unmistakable impact on 
ridership across these long, interstate corridors, which have seen 
ridership decline from peak of 4.8 million in 2013 to 4.5 million in 
the previous fiscal year.
    State corridor trains are hurt too, such as the route between 
Chicago and Carbondale IL, where host railroad performance delivers 
passenger trains on time for only 35% of trips. Across the entire 
network, delays caused by freight trains totaled nearly 1.2 million 
minutes of delay to Amtrak trains in FY 2018--that's more than two 
years of lost time.
    But numbers aren't the only way to tell this story. Many 
irreplaceable personal moments have been disrupted by freight-
interference delays, with crucial medical transports affected, weddings 
and funerals missed, and rare home visits by deployed service-members 
cut short or even cancelled altogether. Each of these hundreds of 
stories--and we supplied more than 1,300 such stories to STB in October 
of 2014--add up to more than mere temporary inconvenience, and in many 
cases, impose real dollar costs on vulnerable travelers.

    <bullet>  There's the story of Kristy Roberson of Beckley, WV, who 
rode the Cardinal to see her grandson's baseball game. Kristy's 
grandson asked her to walk on to the field with him as part of 
introductions, but hours stuck behind a CSX train meant she missed the 
start of that game, and never got to share that moment with her 
grandson.
    <bullet>  There's the story of Philip Fraulino from Silver Spring, 
MD, whose daily commute home has grown longer because of delays to his 
MARC train that uses CSX tracks.
    <bullet>  There was Jane Dwingell of Burlington, VT, who was 
delayed 12 hours on the Lake Shore Limited, causing her to miss her 
connection to the Southwest Chief. This in turn caused her to miss a 
full day of a professional conference she was attending in San Diego.
    <bullet>  There's the story of Michael Zhakharov of Rockville, MD, 
who uses the train to access cycling trails in Appalachian region and 
is regularly is delayed behind CSX trains when riding the Capitol 
Limited. Michael has grown used to these delays, but he was traveling 
with an active-duty Naval officer heading to Newport News, who and 
missed his connection and thus his reporting time by being delayed 
overnight in Washington, DC.
    <bullet>  There's the story of Richard Lidbom of Greensboro, NC, 
who experienced a cascading series of delays beginning on the Crescent 
that cost him and his wife 32 hours of their vacation and a $500 non-
refundable reservation.
    <bullet>  There's the story told by Allen Brougham, not about his 
own travails, but on behalf of the Amish families he sees on nearly 
every long-distance train he rides. When he talks to these Amish 
families, they tell him the train is the only connection they have to 
their family and to medical services, and he is concerned what the 
delays mean to them.

    Yet here we are, five years later, and we're still dealing with the 
same problems. And perhaps the largest untold story from these chronic 
delays are the novice passengers who give up on train service after 
being trapped for hours on a siding. We've heard from dozens of our 
members who had first-time passengers tell them ``never again.'' If the 
U.S. is to have a healthy, functioning passenger rail network, we must 
enforce a basic standard of service.
    Unfortunately, many host railroads have demonstrated repeatedly 
that when there is insufficient enforcement of their statutory 
obligation to grant preferential dispatching to Amtrak trains, they 
will default to treating passengers as simply another form of freight. 
Without some kind of action, this will happen again--and is already 
happening.
    Our organization was dismayed--but not shocked--to read an August 
2017 Journal & Courier story that provided hard evidence of Amtrak 
passengers being illegally delayed in favor of freight. In an email 
obtained by the Journal & Courier, a CSX supervisor wrote: ``Give high 
priority to (freight trains) Q031/Q032. If we are meeting with Amtrak 
make the delay on Amtrak first. If Amtrak is running down one of these 
trains go ahead and get to the point Amtrak is seeing the (end of the 
freight train) before we get them around.'' Based upon the direct 
experience of our members, we believe this to be a common dispatching 
practice.
Passengers at the Mercy of Aging Fleet
    Worse yet, passengers are having to deal with these record delays 
while trapped on trains that are woefully out of date. Amtrak's fleet 
averages nearly 33 years of age and its diesel locomotives average 
nearly 21 years of age. The picture on the National Network is even 
more stark: as of last year, the railroad's 461 Amfleet Is ranged from 
41 to 44 years old, with the 145 Amfleet IIs averaging 38 years of age.
    What does that mean in practice? Many of our members describe the 
experience as akin to traveling on a rolling museum. It is common 
practice for our members to assemble their own ``travel kits'' for 
National Network travel; something has gone seriously wrong when 
citizens of the richest nation on earth are forced to bring shims and 
duct tape to jury-rig repairs to their interstate transportation 
systems.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    We are pleased with the initial steps Amtrak and its state partners 
have taken to procure new equipment (and, as an intermediary step, 
refresh existing equipment), including:

    <bullet>  125 new CAF sleeping cars, Baggage-Dormitory car, baggage 
cars, and Dining cars;
    <bullet>  137 Siemens railcars and 63 Siemens Charger diesel 
locomotives ordered by Midwest and California state partners;
    <bullet>  28 Alstom Avelia high speed trainsets for the NEC;
    <bullet>  75 new Siemens Charger diesel locomotives, with options 
for up to 100 additional units;
    <bullet>  2019 Request for Proposals (RFP) for up to 75 new Amfleet 
I replacement trainsets for the Northeast and Mid-Atlantic;
    <bullet>  Completed refresh of equipment has for Amfleet I coaches 
and business class, and planned refresh of Amfleet II long-distance 
coaches and Horizon cars.

    However, these steps just aren't enough when compared with the 
actual fleet needs. It would take 929 new cars to replace all cars over 
37 years of age in Amtrak's fleet--and an even greater number to retain 
existing capacity given the fleetwide transition from bi-level railcars 
to single-level railcars dictated by domestic manufacturing 
capabilities.
    Amtrak has taken the first steps in the critical re-fleeting 
process, but the railroad's ability to move ahead requires a strong 
federal partner. By Amtrak's estimate, the outstanding fleet 
acquisitions alone will approach an estimated $3.5 billion through FY 
2024--which doesn't even address the needs of the Amfleet II and 
Superliner fleets. If Americans want to keep a national network, we 
must be willing to pay the true cost of maintaining it.
Clock Ticking on Aging Amtrak Infrastructure
    Thirdly, there are the significant capital investment needs of 
Amtrak-owned infrastructure, which exists mostly along the Northeast 
Corridor (NEC). While the NEC accounts for roughly a third of Amtrak's 
ridership, it accounts for the vast majority of the railroad's state of 
good repair backlog (SOGR)--around $40 billion out of $45.2 billion in 
total. That figure includes several time- sensitive projects critical 
to the daily operations of the entire corridor, such as the Hudson 
River rail tunnels and Portal Bridge Replacement.
    This Committee will be well aware of these problems, particularly 
given the extent to which commuters throughout the region depend upon 
the NEC--fewer than 7% of the 260 million annual trips taken on the NEC 
happen aboard Amtrak trains, which translates to 780,000 commuter 
passengers per day.
    Given all this, it's understandable that Amtrak has directed a 
significant percentage of its near-term planning resources to the 
infrastructure it owns along the NEC. Many of our members depend each 
and every day on the commuter services that operate along this 
corridor. Additionally, the NEC carries not only passengers from the 
Northeast and Mid-Atlantic, but from across the country as well, 
serving as a terminus for the operations of seven long-distance trains.
    But it would be a mistake to let the NEC's infrastructure crisis 
narrow the scope of our ambition in the upcoming rail reauthorization. 
Indeed, as we've seen in other transportation programs, maintaining the 
national character of America's passenger rail system is essential to 
its success.
              Recommitting to Amtrak's Founding Principles
    To that end, and while I have great respect for the quality of Mr. 
Anderson's leadership, I am forced to disagree with him on one of the 
guiding principles of his tenure at Amtrak: the notion that Amtrak's 
highest calling is to maximize profit, and that the railroad should 
operate purely as a business.
    Mr. Anderson, to his credit, acknowledges and recognizes that the 
law supports a National Network, declaring that ``we follow the law at 
Amtrak,'' and that ``Congress has told us clearly that that's an 
important part of our mission.'' Which is why I would like to draw his 
attention, and the attention of this Committee, to Section 301 of the 
Rail Passengers Service Act. This section, still in effect today, was 
amended to modify the term ``a for profit corporation'' by inserting 
the term ``operated and managed as'' (Amtrak Improvement Act of 1978). 
This wording was deliberate, as indicated by the report language 
accompanying the bill (H.R. Rep. No. 1182, 95th Congress, Second 
Session, 15):

        ``Section 9 amends section 301 of the RPSA...to conform the law 
        to reality, providing that Amtrak shall be `operated and 
        managed as' a for-profit corporation. This amendment recognizes 
        that Amtrak is not a for-profit corporation.'' [Emphasis 
        added.]

    If Amtrak were a true private corporation, then the idea of 
eliminating all but a few of the ``experiential'' long-distance trains 
and focusing entirely on urban corridors in response to demand 
indicators would make perfect sense. It's why in the 1970s America 
almost lost all long-distance service: with consumer ``demand 
indicators'' suppressed by government subsidies of competing modes, the 
largely unsubsidized private railroads responded by dropping passenger 
service.
    However, the American people, acting through their elected 
representatives, decided there was more value to this kind of service 
than what was profitable to the individual railroads. The people 
created Amtrak, with the help of our Association. Amtrak exists, and 
collects public funds, expressly to provide service to places that need 
it and where the private sector cannot profitably provide it--where the 
``demand indicators'' aren't enough to satisfy private shareholders.
    Amtrak is one of the ways the U.S. government acts to support the 
common good, the ``general welfare.'' Every Amtrak long-distance route 
creates a return on equity for the communities that have invested in it 
over the past few decades. And thanks to rigorous economic modeling 
this Association has developed over the past year, we have been able to 
quantify that return in a way that hasn't been done previously:

    <bullet>  We found the Empire Builder is worth $327 million every 
year to the economies of the states it serves, and by extension the 
entire U.S. economy. American taxpayers pay roughly $57 million every 
year to run it. That is a bargain. For small communities along the 
route, it's a lifeline. Just to take one instance, Cut Bank, Montana, 
and its roughly 3,000 citizens derive nearly $400,000 worth of economic 
benefit from the existence of the train.
    <bullet>  In response to an Amtrak proposal to discontinue train 
service along a segment of the Southwest Chief corridor, we took a 
closer look at the service and found that the Chief brings $180 million 
in annual economic benefits to New Mexico, Colorado and Kansas.
    <bullet>  A study done by Transportation for America and the 
Southern Rail commission found that restoring passenger rail between 
Mobile and New Orleans would produce $216 million in annual economic 
benefits for Mississippi, Louisiana and Alabama, despite costing the 
three states only about $7 million each year.

    It's not about whether a route makes money--it's about who makes 
money from a particular route. Trains make money by acting as economic 
engines in the communities they serve. Normal, Illinois, Meridian, 
Mississippi, Denver, Colorado, and many other communities large and 
small have seen returns on their rail investment many times over--in 
jobs, in new retail, in mobility, in tourism and in real-estate 
development. That's where the ``profit'' goes: to the communities 
served, and often to the tune of billions of dollars, even though it's 
not necessarily to Amtrak as the operator.
Providing Service to America's Main Streets
    This is why Amtrak's National Network, with its 15 long-distance 
routes connecting a series of state-supported services, is such an 
essential transportation service to the 40 percent of the nation's 
small and rural communities that it serves, establishing a vital link 
between Small Town and Big City America. 62 million people live in this 
so-called ``flyover country,'' a quarter of whom are veterans, another 
quarter are senior citizens over the age 65. With few alternatives, 
driving plays an outsized role, and it does so at a cost: despite 
making up only 19% of the population, accidents on rural road networks 
account for 49% of the total number of traffic fatalities nationwide.
    Intercity rail plays an important role in these communities; almost 
one-fifth of Amtrak's passengers travel to or from a rural station with 
no access to air service. As the term ``flyover country'' suggests, 
private-sector airlines have long ago moved away from these 
communities, if they ever served them to begin with. While this may 
have been the right business decision, it has come at a cost to the 
residents of these communities. For some rural, elderly and disabled 
passengers, Amtrak is the only plausible or affordable choice.
    Just consider Fargo to Minneapolis, a $37 Amtrak coach fare 
compared with a $403 flight. Or Cut Bank, Montana, to Spokane? Yes, 
it's a three-hour flight versus an eight-hour train ride, but that 
doesn't include the 88-mile drive from Cut Bank to Glacier's airport. 
And the fares are not even close: $64 for Amtrak, $252 to drive and 
then fly. And that's assuming Grandma can even drive in the snowy dark 
winter.
    The argument that there is not enough demand in these towns falls 
away quickly when you look more closely. Just consider the comparison 
between simply measuring the total ridership and looking at the number 
of riders per departure--i.e., if the train only runs three days a 
week, normalize the ridership figure to account for the four days that 
it doesn't run. The map included is one I use a lot to tell that story 
when I present to elected and appointed officials. The picture is 
indeed worth a thousand words and clearly shows a National Network that 
is well-used and vital to communities across the country.
                                figure 1
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    And just as few passengers take the Acela from Washington, DC, all 
the way to Boston, so too do long-distance trains serve a number of 
intermediary corridors. The Empire Builder doesn't exist solely to take 
people from Seattle to Chicago; only ten percent of the half million 
people it carries each year do. Overwhelmingly, passengers ride between 
intermediate stations. Some people argue that since only one-in-ten 
people take a train from end-to-end, you can provide the same level of 
public utility at a lower price by eliminating the middle segment. This 
is equivalent to thinking that since only one-in-ten people ride an 
elevator from the ground floor to the top floor, you can move people 
around a building more cost-effectively by eliminating the elevator 
shaft for the middle floors. These are more than just long-distance 
trains--they are interstate transit networks.
                                figure 2
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Northeast Corridor is, without question, an outstanding market 
for Amtrak and other forms of public transportation. It is important to 
note that, with just 2% of the U.S. land area and 17% of the nation's 
population, half of the wealthiest counties in America are located in 
the NEC region. It's also important to acknowledge that when we talk 
about eliminating corridors on the National Network--and the associated 
economic opportunities that come with access to interstate train 
service--we're talking about eliminating service for less affluent and 
less well-educated communities. When we say a single mother in Walnut 
Ridge, Arkansas deserves access to the same fundamental services as a 
banker on Wall Street, we're not making an economic assertion--we're 
making a statement about our country's core values.
    Consider the City of New Orleans, which stretches from Chicago, IL, 
to New Orleans, LA. Just 2 of the 19 stations served by the ``City of 
New Orleans'' route enjoy a Median Household Income just slightly above 
the national average, while the entire route serves working class 
cities and towns with relatively modest incomes. If you eliminated this 
train, service to 11 of the 19 stations would be eliminated. All 11 
stations serve communities where the Median Household Income falls well 
below the national average of $53,889. I've included a full breakdown 
of median income of communities along three Amtrak routes from our 
September 2017 report ``Dismantling a National Transportation Network'' 
(which we produced in response to the Trump Administration's proposal 
to eliminate all National Network rail service) in an appendix to this 
statement.
    We taxpayers support Amtrak's National Network in part because we 
want these towns to thrive and their citizens to have access to jobs 
and mobility. We all need the economy to grow and be strong. We all 
have an interest in preventing towns in America's heartland from 
decaying and drying up--because paying for the consequences of that is 
often much more expensive than just paying to keep them linked to the 
rest of the country. If we have the foresight to invest in middle 
America, the whole nation would reap the benefits.
             Blueprint for a Better Passenger Rail Network
1.  Enshrining National Network Service
    Rail Passengers does support meaningful change for the U.S. rail 
network. By all means, grow, adapt, evolve and position for a stronger 
more self-sustaining future. It is time for Amtrak to embrace the new 
century. But it's important that no community served today should see 
their service degraded, and Rural America should not be shortchanged by 
investments in metropolitan regions. Amtrak has a mission beyond the 
balance sheet, a fact enshrined in law. As we have said repeatedly, 
Amtrak is a taxpayer-supported enterprise, whose core mission is to 
provide mobility and access to communities that need it and where 
private industry cannot profitably provide it.
    That doesn't mean the nature of that service can't change, but no 
community should see its train service taken away so that another city 
can get a second daily frequency. We believe a prudently run network 
and a truly National Network are not only compatible, but 
complementary.
    We thank the Congress for the leadership it has shown on this issue 
and were heartened by a July 2018 vote on the floor of the U.S. Senate, 
where an important amendment to the FY 2018 T-HUD funding bill passed 
by a vote of 95-4. That amendment stated:

        ``it is the sense of Congress that 1) long-distance passenger 
        rail routes provide much-need transportation access for 
        4,700,000 riders in 325 communities in 40 States and are 
        particularly important in rural areas; and 2) long-distance 
        passenger rail routes and services should be sustained to 
        ensure connectivity throughout the National Network.''

    It is time to protect these communities, by statute, from the 
consequences of devastating decisions by unelected officials acting 
under color of business logic.
2.  Predictable, Dedicated Funding
    Passenger rail needs predictable dedicated funding, and a lot more 
of it. For a long time, the savvy policy stance for transportation 
wonks was ``more money isn't coming for passenger trains, so don't 
bother asking.'' While it's never enjoyable to be the bearer of bad 
news, I feel obligated to tell the truth: if our country does not find 
a way to dramatically increase public investment in rail, then the 
opportunity to build a functional passenger rail network in the U.S. 
that carries a meaningful amount of Americans will never become 
reality--and the benefits to our environment, our health, and our 
neighborhoods that come with these systems will also fail to 
materialize.
    Neither can we afford any longer to direct Amtrak to play a greater 
role in the U.S. transportation network, while providing an annual 
budget that merely allows it to limp along.
    Since 2008, Congress has sustained highway spending by transferring 
$143 billion in general revenues to the HTF, including $70 billion in 
2016 as a result of the FAST Act. This amounts to a debt-financed 
lifeline for a status quo that has been broken for a long time. The 
time to move decisively in support of passenger trains is now.
    Rail Passengers is calling for a significant increase in dedicated 
passenger rail investment to address decades of stagnant funding. 
Learning from the experience of the High-Speed and Intercity Passenger 
Rail Program, Rail Passengers has outlined a steady increase across 
funding categories, which will enable the Federal Railroad 
Administration to slowly build up its grantmaking capacity. We've 
outlined a 10% year-over-year increase in funding (using FY2019 enacted 
levels as a baseline) for the Northeast Corridor, and a 5% year-over-
year increase for the National Network.
    We've outlined a more aggressive increase in funding for the 
Consolidated Rail Infrastructure & Safety Grants, Federal State 
Partnership for State of Good Repair, and Restoration & Enhancement 
Grants. We based our funding requests upon a survey of submissions to 
the HSIPR and TIGER grant programs, which we believe demonstrates the 
scope of pent-up demand at the state level. Additionally:

    <bullet>  Based upon the disappointing pace of review and the 
projects selected by the Federal Railroad Administration, we hope to 
work with Congressional authorizers to provide additional guidance and 
streamlining to the competitive grant programs created by the FAST Act 
to ensure that passenger rail projects of regional and national 
significance are given priority.
    <bullet>  Rail Passengers is ready to work with Congress to 
identify pay-fors, including intercity Railroad Passenger Tax assessed 
at point of sale; per Barrel Tax on crude oil; E-Commerce 
Transportation Tax for online sales; General Sales Tax, similar to 
those established by the Commonwealth of Virginia to fund rail 
infrastructure and operations; or a broadly-based Station Area Value 
Capture Tax program for NEC and National Network-served train stations.
    <bullet>  We are calling for a dedicated set-aside within CRISI for 
rail transit and commuter agencies to meet the ongoing costs of 
operations and maintenance of Positive Train Control, which these 
agencies project at $130 million per year.
    <bullet>  To the extent that non-road user revenue is directed to 
the transportation, states should be able to flex these funds to non-
highway projects. Granting local officials discretion in modal 
allocation of general revenue funds will allow states to direct 
resources to the highest impact projects.
    <bullet>  Intercity rail connects with and supports transit rail 
systems across the U.S. States and municipalities should be able to 
flex transit funds to intercity rail projects that support local 
transit systems.

                                      Passenger Rail Funding (in millions)
----------------------------------------------------------------------------------------------------------------
                                               FY2021        FY2022        FY2023        FY2024        FY2025
----------------------------------------------------------------------------------------------------------------
Program.........................................................................................................
----------------------------------------------------------------------------------------------------------------
Amtrak--National Network..................     $1,280.6      $1,344.6      $1,411.8      $1,482.4      $1,556.6
Amtrak--NEC...............................       $715.0        $786.5        $865.2        $951.7      $1,046.8
Consolidated Rail Infrastructure & Safety      $1,968.0      $2,187.0      $2,430.0      $2,700.0      $3,000.0
 Grants...................................
Federal State Partnership for State of         $1,312.2      $1,458.0      $1,620.0      $1,800.0      $2,000.0
 Good Repair..............................
Restoration & Enhancement Grants..........       $262.4        $291.6        $324.0        $360.0        $400.0
                                           ---------------------------------------------------------------------
  Total...................................     $5,538.2      $6,067.7      $6,651.0      $7,294.1      $8,003.4
----------------------------------------------------------------------------------------------------------------

3.  More Trains, Better Trains
    Millions of Americans believe in the vision of an Amtrak worthy of 
a 21st Century America. Towards that end, we believe Congress should 
fund an aggressive new vision for growth, with more frequencies in 
dense corridors, new rolling stock, and modern safety measures. 
Amtrak's new emphasis on 400- to 500-mile corridors is a good idea, 
positioning Amtrak to fill a unique role that other travel modes can't 
fill. By 2045, 89% of Americans are expected to live in urban areas. At 
the same time, during the next 20 years Baby Boomers are expected to 
grow the senior population by 30 million people--a demographic that 
often faces travel challenges from vision, hearing and mobility 
constraints. Corridors can't supplant Amtrak's congressional mandate to 
serve all Americans, but Rail Passengers also believes that the mandate 
shouldn't stifle Amtrak from thinking about a robust future, which may 
look different from today.
    Fully and enthusiastically embrace a customer-centric view of 
passenger service, ensuring that trains' basic services--like toilets 
and air-conditioning--are reliable and sound while improving the 
experience for each and every traveler. It is long past time to replace 
the rolling museum that is today's Amtrak with modern equipment with 
lower operating and maintenance costs, which will result in a better 
deal for the taxpayer as well as the passenger.
    Eliminate the folly of thrice-weekly service and insist upon daily 
as the minimum threshold for service. Trains that come only three times 
per week do not provide a meaningful level of service for modern 
American travelers and guarantee poor financial performance. Amtrak 
must start laying the groundwork for a rapid return to a Daily Sunset 
and a Daily Cardinal service.
4.  Supporting Amtrak's Safety Initiatives
    This Association was forced to confront the tragedy that arises 
from the failure of rail safety systems during the 2017 Amtrak Train 
501 derailment in Washington State, when we lost two of our members--
one of whom served on our board of directors.
    So it is with great feeling that I commend Amtrak for getting out 
ahead of the rest of the rail industry in the installation of Positive 
Train Control systems across its network, ahead of schedule. I've also 
been heartened by the introduction of Amtrak's enhanced Safety 
Management System--a proactive, data-driven safety program used in many 
complex industries including aviation--designed to assist in targeted 
risk assessments and mitigation strategy. Congress should recognize 
Amtrak's leadership role when formulating new safety regulations and 
providing funding for maintenance of PTC systems.
    Moving forward, it is also important for Congress and Amtrak to not 
let the desire to extend PTC coverage extend beyond what is currently 
required by statute or become an obstacle to maintaining existing 
trains and introducing new services. The simple truth is that you're 17 
times more likely to die traveling the same distance in a car than on 
an Amtrak train. Reducing access to passenger rail only makes travelers 
less safe.
    We also are concerned over how staffing reductions might affect the 
ability of Amtrak's on-board personnel to assist passengers--many of 
whom are aged or infirm--in a timely and efficient fashion in the 
unlikely event of a safety incident.
5.  Addressing Equipment Shortfalls
    Reauthorizers must work with States and Amtrak to establish a 
stable funding mechanism that allows for critical investments in 
equipment to meet public demand for reliable, energy-efficient 
equipment with modern amenities.
    The Amtrak Five Year Equipment Asset Line Plan (March 2019) has 
fleshed out a fleet renewal plan that identifies a schedule for 
replacing and expanding its fleet. In its FY2020 General and 
Legislative Annual Report, Amtrak identifies $907.2 million for 
National Network equipment and another $145 million for new diesel 
locomotives. Authorizers should give these requests due consideration 
when authorizing funding levels. In particular, Amtrak outlined a need 
for roughly $450 million to refurbish Superliner Is and another $1.5 
billion to procure a replacement fleet for the Superliners. The 
railroad also needs to find ways to invest in the rolling stock needed 
to grow in the short corridors which we all agree look so promising.
    Rail Passengers believes that accelerating the delivery of Amtrak's 
fleet plan would be good for America's passengers, for job growth, and 
for the rail industry.
    In the U.S. aviation industry, maintaining the ``U.S. industrial 
base'' in critical aviation equipment is an overriding concern for 
policymakers. The same concepts apply to passenger rail. A steady 
stream of orders and solid prospects gives the entire private-sector 
supply chain confidence to invest. These companies hire craftsmen. They 
build plants. They do research and development aimed at continuous 
improvement, to develop modular upgrades that can be injected into the 
fleet. And the unit cost for coaches will be driven lower, by volume, 
by economies of scale, and by the need to remain competitive.
6.  Repairing the Host Railroad Relationship
    One of the fundamental peculiarities of the U.S. passenger rail 
system--its reliance on freight railroad-owned tracks to operate a 
blended system--will also be a fundamental obstacle to the growth of 
passenger services. When asked what it would take to run one round-trip 
passenger train a day the 549 miles between New Orleans, Louisiana and 
Mobile, Alabama, CSX told the three states involved in the Gulf Coast 
Rail restoration project that it would cost $2 billion. That is the 
equivalent of the value of CSX's total annual capital expenditure 
program . . . or what it cost NASA to put a rover on the surface of 
Mars some 139 million miles from Earth. It is also a fairly unsubtle 
message to the states: ``we don't want your business.''
    With that dynamic in mind, the U.S. should pursue a policy of 
passenger and freight separation wherever the potential ridership 
population allows for it. There are plenty of policies that authorizers 
could bring to bear in pursuit of that goal, which we attempt to 
outline in our reauthorization blueprint:

    <bullet>  The creation a federal grant program to allow states and 
municipalities to purchase abandoned and underutilized corridors from 
freight railroads;
    <bullet>  Authorize states, railroads, and all relevant operating 
authorities to engage in the advance acquisition of railroad ROWs;
    <bullet>  Amend the FTA Fixed Guideway Capital Investment Grants 
authorizing language allowing non-federal expenditures to acquire 
property, prior to the award of a grant, to be included in the non-
federal share of total project costs;
    <bullet>  Authorize a tax credit program that incentives private 
sector donation of underutilized and abandoned ROWs.

    Realistically, however, funding constraints will limit the ability 
of transportation agencies to establish dedicated rights of way for 
passenger rail. Policymakers must engage in an open conversation with 
host railroads and regulators about better, less-contentious approaches 
to shared-use corridors that promote investment in more network 
fluidity and a better passenger experience. The current financial 
relationship between Amtrak, the host railroads, and the states has 
failed to deliver the frequency and dependability needed to attract 
large numbers of travelers. Commercial and political success require 
that interested parties be incentivized to develop practical solutions.
    To that end, Rail Passengers is calling on Congress to establish a 
charter for a Shared-Use Corridor Advisory Committee (S-CAC). This 
committee will develop new regulatory standards through a collaborative 
process, with all segments of the rail community--including 
stakeholders--working together to fashion mutually satisfactory 
solutions on shared-use operations. This committee would seek agreement 
on the facts and data underlying any real or perceived shared-used 
operations problems; identify cost effective solutions based on the 
agreed-upon facts; and identify regulatory options where necessary to 
implement those solutions.
    A blueprint already exists in the Regional Rail Studies performed 
under the auspices of the FRA. The Southwest Regional Rail Study was 
released September 2014. The Southeast and Midwest Regional Rail 
studies, though completed, have yet to be released by the FRA. I was 
fortunate enough to able to participate in these stakeholder workshops 
and can vouch for the quality of the work they produced. Congressional 
authorizers would be well advised to assist in disseminating the final 
versions of these studies to the public, and incorporate the lessons 
learned to better facilitate corridor development.
    Rail Passengers is also asking Congress to grant Amtrak a Private 
Right of Action to enforce dispatching preference, as described in 
Amtrak's FY2019 General and Legislative Grant Request. In the absence 
of effective oversight, host railroads have failed to live up to 
contractual agreements establishing minimum OTP. A private right of 
action would allow Amtrak to engage the Surface Transportation Board 
(STB) in a remedial process with host railroads who engage in unlawful 
dispatching practices. The STB is the rightful venue for these disputes 
because passengers, like captive shippers, have no corrective market 
power over freight railroads' behavior. Amtrak, like captive shippers, 
can't simply shop around for another railroad with better OTP.
7. Protecting Stakeholder Equity
    As a result of several policy changes at the federal level--most 
notably the creation of the Sec. 209 program in PRIIA--states and local 
agencies have been asked to play a greater role in financing passenger 
rail services over the past decade. Questions have been raised over the 
intervening years about what protections exist to ensure local 
investment is not stranded by network planning over which these 
communities have little say.
    Congress recognizes this imbalance and is taking steps to correct 
it, with House Appropriators using the report language accompanying the 
Fiscal 2020 Transportation-HUD bill to encourage greater communication 
between Amtrak and local stakeholders:

        ``Amtrak has made changes to policies and procedures relating 
        to charter trains, private cars, station agents, call centers, 
        food and beverage service, and law enforcement, all of which 
        have impacts on its ridership, employees, and communities. 
        Therefore, the Committee directs Amtrak to increase engagement 
        with customers, employees, stakeholders, and the public on 
        proposals to change operations and services, including 
        providing an opportunity to comment on policies prior to 
        finalizing decisions.'' [Emphasis added]

    Appropriators further directed Amtrak to ``conduct comprehensive 
outreach and consultation'' with a whole range of stakeholders, 
including ``passenger rail organizations,'' noting that Amtrak ``must 
engage in an open and transparent process'' which takes into account 
anyone who might be affected by changes, for good or ill.
    We are grateful for the work that this Congress has already carried 
out and would ask this subcommittee to continue to advance these goals 
in the upcoming reauthorization, working to ensure stakeholders have 
access to a fair and equitable process in determining any and all 
planning decisions that affect the national rail network and the 
communities served.
8.  Invest in Sustainable Service Levels
    Rail Passengers understands the constraints under which Amtrak 
operates--both legal and fiscal--and we want very much to be good 
partners in fighting for the best passenger-rail service possible. But 
our members also insist that a basic level of service, at stations and 
on-board, must be protected for these services to maintain their long-
term viability. It is simply unsustainable to ask passengers to pay 
thousands of dollars in train fare and serve them meals from the 
freezer aisle--even if it's the freezer aisle at Whole Foods. And the 
death by a thousand cuts that flow out of this degradation to service 
isn't any better than a sudden decision to eliminate a corridor.
    When analyzed in terms of its effect on ticket revenue--not as a 
stand-alone profit center--food and beverage service on most trains, if 
not all, generates more in revenue than it costs to provide. In other 
words, food and beverage (F&B) service is incrementally profitable. We 
believe it satisfies the two requirements that the U.S. DOT Inspector 
General set forth in its report: that food & beverage service be 
provided ``at no net cost to the taxpayer'' and have ``a positive 
effective on net cash flow.''
    We have also publicly shared our disappointment in the new 
contemporary food and beverage service as it was executed on the Lake 
Shore and Capitol Limited lines. Among the issues we raised:

    <bullet>  The need for more hot choices;
    <bullet>  Consideration for dietary needs such as kosher 
requirements, vegetarian, low-sodium/healthy, and common allergies;
    <bullet>  Better presentation (no more dinner-in-a-box!);
    <bullet>  Better provisioning (diners should not run out of food in 
the first few hours of an overnight journey);
    <bullet>  Continue to allow Coach passengers to buy meals in the 
diner if they choose;

    Amtrak tried to address some of the issues we've raised, notably 
the addition of more hot items, but food continues to run short during 
service and special dietary needs remain a challenge. Moreover, Amtrak 
remains many months away from the ability to allow coach passengers to 
buy a meal--for any price--while traveling on a long-distance train. 
This alone is a significant degradation in passenger service, 
especially for those traveling more than six or seven hours.
9.  Increased Transparency in the Rail Sector
    Rail Passengers strongly believes that the continuing debate 
concerning the future shape of Amtrak's National Network has been 
distorted by an overreliance on fully allocated costs rather than 
avoidable costs, as required by statute.
    For more than 13 years, Congress, federal agencies, and states have 
called for more accurate, precise and transparent reporting of Amtrak's 
component routes. Numerous arms of government including the Federal 
Railroad Administration, the USDOT Office of Inspector General (OIG) 
and the General Accounting Office have all found Amtrak's route 
accounting system deficient and not compliant with federal statute 
requiring disclosure of avoidable costs. Rail Passengers believes that 
reauthorizers should direct Amtrak to publicly report the financial 
performance of each individual route employing the avoidable cost 
methodology.
    The U.S. DOT for decades has already developed and refined a 
working model to a high level of maturity for addressing precisely the 
kind of transparency in another travel mode: airlines. The type of 
information gathered in Form 41 financial filings and T100 market data 
filings is ideal for developing an informed picture of the state of 
America's air-transportation enterprise.
    Existing FRA datasets do a reasonably good job of capturing 
commodity shipments, for example, but lack the depth and consistency 
that a Form 41/T100 approach could produce. In rail operations, new 
metrics could be derived from better data collection and more complete 
fact gathering. These could, and should, inform public policy.
    As just one small example, Rail Passengers believes that by 
gathering and publishing such data, FRA could beneficially help to set 
not only a minimum on-time performance standard, but a data-driven 
target for exceeding minimum standards that could offer significant 
financial incentives to host railroads that not only deliver superior 
OTP but reduced trip times and greater frequencies. This could perhaps 
take the form of bonus payments that rise on a scale calibrated to OTP 
achievements, incentivizing private investments in a rail network that 
can serve not only freight customers but passenger trains at the high 
service levels a robust national infrastructure demands.
    A systematic, transparent and detailed data-collection regime that 
mirrors the statistics now gathered and reported in air travel could 
also lead to more nuanced regulatory approaches to addressing the 
multiple root causes of persistent delays. With more reliable 
information as to the costs and benefits of such investment, additional 
agreements could be more easily made creating an influx of public 
investment into the national rail system, easing more than just 
passenger bottlenecks.
                               Conclusion
    Rail Passengers is working for ``A Connected America,'' a concept 
our association developed that aims to put 80 percent of Americans 
within 25 miles of a rail station within 25 years. A Connected America 
is not only good for passengers but good for America's cities and 
towns, an economic engine in the communities it serves. We believe 
passengers should be able to drive, bike, walk or take transit to those 
stations as they choose, whether traveling for work, school or leisure. 
They should have the choice of multiple frequencies each day in dense 
corridors. They should be able to take the train to airports to 
continue their journeys onward. In short, they expect a modern, 
frequent, reliable and safe service as part of a robust ecosystem of 
travel choices, from ride-sharing vehicles and bikes to cars, trains 
and jetliners. It's what America deserves.
    We stand ready to work with authorizers to create a collaborative 
process involving all of Amtrak's important stakeholders: mayors, 
employees, and yes, passengers. We are excited to work with Congress 
and Amtrak to redraw the map of America's passenger rail network for 
2040 and beyond.
                                appendix
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Lipinski. Thank you, Mr. Mathews.
    I now recognize Mr. Guy for 5 minutes.
    Mr. Guy. Thank you, Chairman. Thank you, Ranking Member 
Crawford, and Chairman DeFazio for holding this hearing today. 
It is an honor to be a part of the panel.
    As you said, my name is Bob Guy. I serve as State 
legislative director in Illinois for SMART-Transportation 
Division. Actually we have----
    Mr. Lipinski. Can you pull your mic a little closer?
    Mr. Guy. You bet.
    Nationally, we represent 80,000 transportation workers, 
most of whom work in the passenger and freight rail operating 
crafts. As Congress undertakes reauthorization of the FAST Act, 
it is important to note that in 2015, for the first time in 
legislative history, intercity passenger rail and Amtrak 
reauthorization language were included as part of this 
comprehensive 5-year surface transportation reauthorization. In 
doing so, Congress laid the groundwork for the development of a 
truly multimodal transportation system. Congress should build 
on that momentum by increasing Amtrak funding levels, which 
allow for current operations to flourish, and be able to plan 
for future growth throughout the entire network. There is no 
better way to accomplish those goals than having predictable 
dedicated funding that will help preserve and grow the Amtrak 
authorization provisions in title XI of the FAST Act.
    As with all modes of transportation, long-term, robust, 
stable, Federal funding for Amtrak service and development is 
crucial to its success. We ask that Congress reauthorize and 
continue strong funding for Amtrak and the three rail grants 
created in the FAST Act. These grants administered by the 
Federal Railroad Administration would also greatly benefit 
State corridor service that has seen substantial ridership and 
revenue growth over the last decade. There is already a buzz in 
the Midwest with the announcement last week of FRA's 
Restoration and Enhancement Grant fund availability of $24 
million.
    These grants are successful and they work. The grants would 
also solidify Amtrak partnerships with States by preserving the 
reliable Federal funding that is needed to expand and improve 
service along these successful corridors.
    Along with strong Federal funding, Congress should also 
identify possible revenue streams, solely for the use by Amtrak 
and intercity passenger rail projects, that benefit State-
supported service and the national network.
    State-supported corridor service should supplement, not 
replace, Amtrak's national network. Far too many rural 
communities would lose vital transportation service if long-
distance service was reduced and/or eliminated. In the Midwest 
alone, we have seen modest ridership growth in the eight long-
distance routes that originate in the Nation's largest rail hub 
of Chicago. We have 80 station stops in the Midwest, with many 
of them in rural communities not served by other reliable means 
of transportation. Long-distance service must be protected.
    As railroad workers, we want a strong rail industry, both 
freight and passenger. Our members, and railway labor in 
general, provide vital work that allows our economy to thrive 
and people to get to where they need to be in an 
environmentally friendly and safe fashion.
    The reauthorization must continue to ensure that strong 
worker protections are in place for those who perform core 
traditional railroad work. Congress must ensure worker 
protections provided under rail specific statutes, like the 
Railway Labor Act, the Railroad Retirement Act, and the 
Railroad Unemployment Insurance Act remain intact.
    Rail workers are stakeholders in the industry, and these 
protections allow us to partner with Amtrak and States to help 
improve and expand service across the country. These worker 
protections are most important when considering risky 
privatization agendas that some might have. Permitting private 
companies to seize certain routes or segments of the Amtrak 
system would give investors the perceived authority to extract 
profits from assets paid for over many decades by American 
taxpayers and rail passengers.
    Freight railroads, who were the masters at generating 
revenue, couldn't make passenger rail profitable. It was 
crippling their freight network, which is why Congress created 
Amtrak some 40 years ago. Amtrak was established to save 
passenger rail service in America. Congress should allow Amtrak 
to be America's railroad and support their ability to maintain 
a qualified workforce that meets customers' demands now and 
well into the future.
    We also can't discuss reauthorization without talking about 
safety. Preserving and increasing the Amtrak authorization 
provisions in title XI of the FAST Act will allow continued 
elevation of safety levels across the Amtrak system. Along with 
new locomotives and passenger coaches, it would drive another 
ridership surge as younger professionals are driving less and 
seeking more environmentally and electronic-device friendly 
transportation options.
    Other points of priority for Amtrak reauthorization should 
be to allow Amtrak a private right of action to address a host 
railroad's handling of statutorily protected preferences for 
passenger rail. Amtrak needs to have more options when dealing 
with delays caused solely by a host railroad. Additionally, for 
many years, Amtrak has been forced to pay millions of dollars 
resulting from accidents occurring on other railroads, even 
though Amtrak was not negligent. When other railroads are 
responsible, those carriers should pay the damages, not Amtrak. 
This has added to the necessity for Congress to appropriate 
funds to keep Amtrak operating. We have included some 
legislative language in the written testimony that was 
submitted. Congress should also strongly consider adding a 
labor representative to the Amtrak board of directors. Railroad 
employees have a wealth of expertise on the needs for Amtrak. 
Having input from the rail labor stakeholders also would help 
Amtrak avoid making decisions that could negatively impact 
service or customers' needs. There is already a model on the 
Federal level and that is the Railroad Retirement Board, where 
you have a three-member board consisting of labor-management 
and the chairman.
    Reauthorization should also include a path forward to 
legislatively address the disturbing and upward trend of 
assaults on passenger and commuter rail workers. Currently, our 
members are not offered any type of standard deescalation or 
self-defense training by the carriers, nor do they receive any 
mandated counseling or psychological assistance post-incident.
    Mr. Regan noted one of my Illinois members who was shot in 
2017; that brother's name is Michael Case. He was performing 
his duties at a station stop in Naperville, Illinois. And while 
that is an extreme example, we could probably fill the hearing 
room any day to hear about the assaults and attacks on 
passenger rail and commuter rail employees.
    There have also been some efforts already as a result of 
that 2017 incident, our own Illinois Senator, Tammy Duckworth, 
introduced the Passenger Rail Crew Protection Parity Act, and 
there are currently two pieces of transit employee assault 
legislation in both the Senate and the House. Such legislation 
could simply provide passenger and commuter rail crewmembers 
the same Federal protections as airline crewmembers.
    Finally, Congress, when considering Amtrak reauthorization, 
must also take a hard look at the effects that longer freight 
trains and so-called Precision Scheduled Railroading are having 
on passenger rail on-time performance. A recent Government 
Accountability Office report found that freight trains are 25 
percent longer, and a byproduct of PSR. Poor on-time 
performance costs Amtrak and State-supported service ridership 
which, in turn, costs revenue. We have a corridor in Illinois 
where on-time performance sits below 30 percent; that is simply 
unacceptable.
    Public dollars, both Federal and State, are invested in the 
private host railroad infrastructure for the purpose of 
benefiting passenger rail, not the other way around. Congress 
needs to hold the host railroads responsible for their handling 
of passenger rail because the protection of public funds 
warrants it. Once again, thank you. And I look forward to 
answering any questions. Thank you.
    [Mr. Guy's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Bob Guy, Illinois State Legislative Director, 
International Association of Sheet Metal, Air, Rail and Transportation 
                    Workers-Transportation Division
    My name is Bob Guy and I am the Illinois State Legislative Director 
for the Transportation Division of the International Association of 
Sheet Metal, Air, Rail and Transportation Workers (SMART TD). SMART TD 
is an organization representing approximately 80,000 transportation 
workers most of whom are employed in freight and passenger rail 
operating crafts.
    I want to thank Chairman Lipinski and Ranking Member Crawford for 
holding this timely and vital hearing, and for inviting me to join this 
panel.
    As Congress undertakes reauthorization of the FAST Act, it is 
important to note that in 2015, and for the first time in legislative 
history, intercity passenger rail and Amtrak reauthorization language 
were included as part of this comprehensive five-year surface 
transportation reauthorization. For that we say thank you. In doing so, 
Congress has laid the groundwork for the development of a truly multi-
modal transportation system. Congress should build on that momentum by 
increasing Amtrak funding levels which allow for current operations to 
flourish and to be able to plan for future growth throughout the entire 
network.
    There's no better way to accomplish those goals than having 
predictable, dedicated funding that will help preserve and grow the 
Amtrak authorization provisions in Title XI of the FAST Act within 
reauthorization. As with all modes of transportation, long term, 
robust, stable federal funding for Amtrak service and development is 
crucial to its success. We ask that Congress reauthorize and continue 
strong funding for Amtrak and the three rail grants created in the FAST 
Act. These grants, administered by the Federal Railroad Administration 
(FRA), would also greatly benefit state corridor service that has seen 
substantial ridership and revenue growth over the last decade. The 
grants would also solidify Amtrak partnerships with states by 
preserving the reliable federal funding that is needed to expand and 
improve service along these corridors. Along with strong federal 
funding, Congress should also identify possible revenue streams solely 
for the use by Amtrak and Intercity Passenger Rail projects that 
benefit state supported service and the national network.
    State supported corridor service should also supplement, not 
replace, Amtrak's national network. Far too many rural communities 
would lose vital transportation service if long distance service was 
reduced and/or eliminated. In the Midwest alone, where I'm from, we've 
seen modest ridership growth on the eight long-distance routes that 
originate in the nation's largest rail hub, Chicago. We have 80 station 
stops in the Midwest, with many of them in rural communities not served 
by other reliable forms of transportation. The long-distance service 
must be protected.
    As railroad workers, we want a strong rail industry, both on 
freight and passenger rail. Our members, and rail labor in general, 
provide vital work that allows our economy to thrive and people to get 
to where they need to be in an environmentally friendly and safe 
fashion. Reauthorization must continue to ensure that strong worker 
protections are in place for those who perform core traditional 
railroad work. Congress must ensure worker protections provided under 
rail-specific statutes like the Railway Labor Act, Railroad Retirement 
Act and the Railroad Unemployment Insurance Act remain intact. Rail 
workers are stakeholders in the industry, and these protections allow 
us to partner with Amtrak and states to help improve and expand service 
across the country.
    These worker protections are most important when considering risky 
privatization agendas that some might have. Permitting private 
companies to seize certain routes or segments of the Amtrak system 
would give investors the perceived authority to extract profits from 
assets paid for over many decades by American taxpayers and rail 
passengers. Freight railroads, who are masters at generating revenue, 
couldn't make passenger rail profitable as it was crippling it's 
freight network, which is why Congress created Amtrak some 40 years 
ago. Amtrak was established to save passenger rail service in America. 
Congress should allow Amtrak to be America's railroad and support their 
ability to maintain a qualified workforce and meet customer's demands, 
now and well into the future.
    We also can't discuss reauthorization without talking about safety. 
Preserving and increasing the Amtrak authorization provisions in Title 
XI of the FAST Act within reauthorization would allow continued 
elevation of safety levels across the Amtrak system. Along with new 
locomotives and passenger coaches, it will drive another ridership 
surge as younger professionals are driving less and seeking more 
environmentally and electronic-device friendly transportation options.
    Other points of priority for Amtrak reauthorization should be to 
allow Amtrak a private right of action to address a host railroad's 
handling of statutorily protected preference for passenger rail. Amtrak 
needs to have more options when dealing with delays caused solely by a 
host railroad.
    Additionally, for many years Amtrak has been forced to pay millions 
of dollars resulting from accidents occurring on other railroads, even 
though Amtrak was not negligent. When other railroads are responsible, 
those carriers should pay the damages, not Amtrak. This has added to 
the necessity for Congress to appropriate funds to keep Amtrak 
operating. Therefore, we offer the following amendment for your 
consideration:

        ``Notwithstanding any other statutory, common law, or public 
        policy or agreement, the National Railroad Passenger 
        Corporation shall not be liable for damages or liability, in a 
        claim arising out of an accident or incident, unless the said 
        Corporation is negligent in causing the accident or incident.''

    Congress should also strongly consider adding a labor 
representative to the Amtrak Board of Directors. Railroad employees 
have a wealth of expertise on the needs for Amtrak. Having input from 
the rail labor stakeholders also would help Amtrak avoid making 
decisions that could negatively impact service or customer's needs.
    Reauthorization should also include a path forward to legislatively 
address the disturbing and upward trend of assaults on passenger and 
commuter rail workers. Currently, our members are not offered any type 
of standard de-escalation or self-defense training by the carriers, nor 
do they receive any mandated counseling or psychological assistance 
post incident. It is unconscionable to fathom that an employee be 
expected to live with the consequences of an attack, much less be 
required to finish their assigned trip. However, compounding this issue 
even further is the fact that an employee is often unable to report the 
assault until after the crew reaches its final destination, which can 
be hundreds of miles away. Legislation is needed to establish federal 
jurisdiction for passenger and commuter rail operations, as assaulted 
employees are not always able to seek help or file a report within the 
same jurisdiction as the incident occurred. All too often, assaulted 
employees find themselves under the jurisdiction of a local government 
agency that unfortunately does not take assaults quite as seriously or 
is uncertain as how to best progress the complaint. Therefore, having a 
federal statute would not only provide much needed consistency and 
transparency for all stakeholders, but it would also provide an 
unconvoluted process. I'm particularly sensitive on this topic, as one 
of my own Illinois members was shot while he was performing duties 
during a station stop in 2017 in Naperville, IL. I'm happy to report 
that he has physically recovered the best that he could but would never 
wish for any of his fellow rail workers to experience what he did that 
day.
    In closing, Congress, when considering Amtrak reauthorization, must 
also take a hard look at the effects that longer freight trains and so-
called Precision Scheduled Railroading (PSR) are having on passenger 
rail on-time performance (OTP). A recent Government Accountability 
Office Report (GAO) found that freight trains are 25% longer and a by-
product of PSR. Poor OTP costs Amtrak, and state supported service, 
ridership which in turn costs revenue. We have a corridor in Illinois 
where OTP performance sits below 30%, that's simply unacceptable, 
especially considering that Amtrak shoots for an 80% OTP across the 
board. Public dollars, both federal and state, are invested into 
private host railroads infrastructure for the purpose of benefitting 
passenger rail, not the other way around. Congress needs to hold the 
host railroads responsible for their handling of passenger rail, 
because the protection of public funds warrants it.
    I once again thank you for the opportunity to testify before your 
Committee.

    Mr. Lipinski. Thank you, Mr. Guy.
    I finally recognize Ms. Mortensen for 5 minutes.
    Ms. Mortensen. Thank you, Chairman Lipinski, Ranking Member 
Crawford, and Chair DeFazio, and the other members of the 
esteemed committee. I served in two oversight roles in 
California that are relevant to the discussion before you 
today. I am the executive director of the authority that 
manages the San Joaquin Amtrak intercity service, the sixth 
largest corridor in the Nation. I have also shepherded the ACE 
commuter rail program based out of Stockton in the Central 
Valley for the last 20 years. Both these services do run 
through the Central Valley and into the urban areas of the 
Greater San Francisco Bay Area and Sacramento. From these two 
roles, I have developed the unique perspective on the 
differences between managing an Amtrak contract and managing 
Herzog, a private sector unionized contractor, on two systems 
that are both fully funded by the State and local taxpayers. 
Shockingly, despite both of these being publicly funded, one 
route costs three times as much as the other on a per-
passenger-mile basis.
    While working on this testimony, I was inspired by the 
great Charles Dickens and the following is my tale of two 
services--ACE and the San Joaquin. It was the best of times, it 
was the worst of times. One of our operators focuses on 
customer responsiveness, data sharing, collaboration and shared 
performance expectations. Costs are rational, they are 
developed jointly with our agency and worked in a true 
partnership. Because of these factors, this service is growing.
    The other operator focuses a lot on protecting its 
proprietary data, solely develops its own service plan, 
staffing allocation and other costs without our input, and has 
no shared performance objectives with our governing board. 
Costs are not rationally tied to actual service provided. 
Management suggestions by the agencies are often discarded, and 
the operator seems to have no incentive or interest in 
partnership. Because of these factors, this service is 
declining. I would ask you which operator you would want 
running your business, or even your district office.
    One operator, Herzog, actively controls expenses and comes 
in under budget year after year. And during the last California 
recession, they worked with me to both tighten our belts, so 
that no rail service was cut, and no employees were laid off.
    The other operator, Amtrak, exceeds its own budget 
projections year after year, with little, if any, explanation. 
Their only remedy has been to seek additional funding from our 
State. To doublecheck these trends, we aggregated data from the 
2018 National Transit Database. We wanted to compare our ACE 
service and our commuter rail peers with the Amtrak San Joaquin 
contract. Not surprising, but still shocking, we found that 
they were triple the cost, not only of ACE, but of our peer 
commuter rail properties as well. How do we reconcile knowing 
both are funded publicly by our State and local taxpayers? 
Going back to the days of Mr. Joe Boardman, myself, and our 
agency, we have asked for critical cost-sharing data; we have 
asked for explanations of significant cost increases; we have 
asked to try to at least get to the middle on the food and 
beverage program. I believe it is an amenity that passengers 
want, but we are losing almost $2.5 million a year, and we have 
just asked to try to close that gap.
    We would like to be able to collaborate on maintenance 
practices on the equipment that we own. And we like rationale 
for why when service cuts are put in place as a management 
decision to control costs, costs instead go up with no 
explanation. Our attempts to discuss these issues with various 
Amtrak leadership typically start with, we will look into it, 
ultimately though transition to defensiveness, resistance, and 
then, in the end, just futility.
    But this critique of national Amtrak is by no means 
intended as an indictment of the hardworking men and women of 
Amtrak in California. In fact, there have been many local 
Amtrak personnel who have swum upstream against the current on 
our behalf, and their efforts are greatly appreciated. But the 
fact of the matter is, local Amtrak employees are held hostage 
to this same broken national structure. We have been struggling 
for years to make this make sense for the California taxpayers. 
And yet to be fair, Amtrak is almost forced to seize our State 
funding as bankroll to meet some congressional mandates placed 
upon them.
    I know it can and should work much better than this; I have 
that experience, that comparison. The San Joaquin service can 
thrive and grow. The California taxpayers can get affordable, 
high-quality service equal to their investment. We already have 
the living proof for how that can be done. I hope our agency 
can work with members of this committee to craft some solution 
to improve what goes into the reauthorization bill.
    Thank you.
    [Ms. Mortensen's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Stacey Mortensen, Executive Director, San Joaquin 
                         Joint Powers Authority
    Good morning Chairman Lipinski, Ranking Member Crawford, and 
Members of this esteemed Subcommittee. My name is Stacey Mortensen and 
I am the Executive Director of the San Joaquin Joint Powers Authority 
(SJJPA), which oversees a state supported Amtrak route known as the San 
Joaquin service. I also serve as Executive Director of the San Joaquin 
Regional Rail Commission (SJRRC) which oversees the successful Altamont 
Corridor Express (ACE) commuter rail service. Both services run through 
California's Central Valley and into the metropolitan areas of 
Sacramento and the San Francisco Bay Area. Through these two roles, I 
have developed a unique perspective on the differences between managing 
Amtrak on a state/locally funded service and managing Herzog Transit 
Services Inc. (Herzog), a private contractor, on a state/locally funded 
service.
    Let me first begin by commending the tremendous leadership of 
Congressman DeSaulnier, who is our valued resource on all 
transportation issues affecting the greater San Francisco Bay-area. We 
are honored to have the opportunity to serve his constituents on the 
San Joaquin route. We would also like to thank our local 
representatives Congressman Harder and Congressman McNerney, who have 
been tremendous advocates for increased rail service around the greater 
Stockton-area. Congressman Harder has also been a tremendous asset to 
us as we continue to work together on potential legislative solutions 
to ensure efficient and cost-effective passenger rail in the Central 
Valley.
    In 2012, the California legislature passed AB 1779 to protect and 
improve existing rail service through the San Joaquin Corridor. The San 
Joaquins have been entirely funded by the state for many years. The 
corridor runs up the Central Valley from Bakersfield to Stockton and 
then splits to take riders to Sacramento or Oakland. The route spans 
365 miles and has 18 stations. The San Joaquins are Amtrak's sixth-
busiest state supported service and include a $25 million per year 
Connecting Bus program, which is as big or bigger than many of the 
other state supported routes. During fiscal year (FY) 2018, the San 
Joaquins carried 1.1 million passengers and the state provided nearly 
$46 million in subsidies. State funding for FY 2020 is projected to 
exceed $50 million. AB 1779, enabled regional government agencies to 
form the SJJPA to more actively manage the service and create better 
responsiveness to passenger needs. However, the structural limitations 
of our Amtrak contract coupled with the Passenger Rail Investment and 
Improvement Act (PRIIA) Section 209 cost methodology process has 
rendered our reorganization effort nearly useless.
    My experience leads me to a tale of two services. I was part of the 
start-up of the ACE commuter rail program in 1998 and through a 
competitive solicitation, we selected Herzog as our operations and 
maintenance contractor. ACE has 4 weekday trains in the peak period and 
runs over an 86-mile route between the Central Valley and Silicon 
Valley. ACE trains carry 6,500 daily passenger trips and over 1.5 
million riders annually. This nearly equals the ridership of the 
Capitol Corridor, Amtrak's 4th busiest route with 15 daily trains 
running 7 days a week.
    With Herzog as our ACE partner, we collaborate daily on fleet 
deployment issues, such as bike cars, where we often need to 
accommodate over 250 bikes each way on just four trains. Other daily 
and weekly collaboration efforts include evaluating on and offs at 
station locations to assess dwell time issues, developing custom public 
address announcements, often with only a few hours' notice, to ensure 
our customers are informed of critical information, and determining 
whether or not we need additional fare inspectors based upon passenger 
loads. We evaluate the condition of the fleet, schedule overhauls and 
minor modifications together and jointly budget for annual capital 
expenditures. We regularly meet to evaluate vacant positions, new 
positions and the performance of staff, in both agencies. Herzog prides 
themselves on coming in under budget and returning unused public funds, 
allowing us to further improve the ACE service for the riders.
    The dedicated Herzog employees are represented by the Northern 
California Carpenters Regional Council (NCCRC). The Carpenters have 
been a tremendous partner in supporting passenger rail efforts across 
Northern California and we have greatly benefitted from their members' 
commitment to safety, efficiency and on-going skill building. Herzog 
performs as an extension of our agency and as a reflection of the goals 
and objectives of our Rail Commission governing board. The relationship 
with Herzog has been an instrumental part of the ongoing and growing 
ACE success.
    Additionally, we work closely with our host railroad partners in 
the ACE corridor--Union Pacific and Caltrain--and appreciate those 
relationships. Despite being a smaller railroad agency, we have had a 
very successful history with Union Pacific in terms of access 
agreements and mutually beneficial network improvements. Our long 
partnership ensured implementation of Positive Train Control (PTC) 
within the mandatory deadline last year. We recently launched our first 
Saturday service and look forward to continually improving and expanded 
our service to meet the needs of the region.
    In summary, the ACE is serviced by a responsive contractor that is 
motivated to achieve our shared goals and objectives in a cost-
effective manner, and host railroads who find value in our partnership 
and work to make our service a success.
    The tale of the San Joaquin Amtrak service began even before the 
state legislation in 2012. Significant state funding had been invested 
in the rail network and Amtrak's annual operating costs were escalating 
quickly. Yet, despite the investments and rising costs, on-time 
performance was on the decline and no new service had been introduced 
in over 10 years. The goals of the new governing board were reasonable: 
normalize the San Joaquin expenses closer to the services being 
provided, and form a direct working relationship with Burlington 
Northern Santa Fe (BNSF) Railway, similar to our successful and valued 
relationship with Union Pacific.
    However, we have encountered significant, structural challenges 
with our attempts to manage the San Joaquin service. Amtrak's lack of 
data transparency, resistance to data sharing and collaboration, 
inability to fairly determine a cost sharing formula and, higher-than-
average costs when compared to other public passenger rail services has 
caused our agency to question the future viability of the service under 
this structure. Going back to the days of Mr. Joe Boardman, our agency 
has repeatedly requested critical data sharing information; 
explanations of significant cost increases; resolution of repeated Food 
and Beverage losses of $2-2.5 million annually; increased involvement 
in host railroad incentive payments; collaboration in the maintenance 
procedures on the state-owned equipment; and a rationale for why 
service cuts end up costing as much or more than the previous service. 
In a recent meeting with Amtrak, I was told very directly that service 
cuts or reducing the number of railcars used would not necessarily save 
us any money. I find that absolutely astonishing. Further, attempts to 
discuss these issues with Amtrak's leadership are often met with 
resistance and defensiveness and have left me with the impression that 
they feel our agency has no right to involve ourselves in something 
they see as their own service, despite its state/local funding source.
    This critique of national Amtrak is by no means intended as 
indictment of the hard-working men and women of Amtrak in California. 
In fact, there have been several local Amtrak personnel who have tried 
to swim upstream on our behalf and their efforts are greatly 
appreciated. But, the fact of the matter is local Amtrak employees are 
held hostage to a broken national structure. When it comes to any of 
our requested changes, the structural limitations of Amtrak have 
crushed any attempt at resolution, despite having local Amtrak employee 
buy-in. We have been struggling for several years to justify the 
continued, disparate financial burden the Amtrak contract places on 
California taxpayers.
    In summary, San Joaquin service is run by an operator that 
firewalls staff from meaningful collaboration, follows its own goals 
and objectives that may not be compatible with the San Joaquin 
governing board, is unable to make service adjustments to control 
costs, and creates a barrier for direct discussion with the host 
railroad. And since we have not made any headway with Amtrak changing 
some of its practices, I believe we have been forced into looking for a 
different operator for this service.
    As this Subcommittee is well aware, these issues with state 
supported routes are neither novel nor isolated to our experience. In 
2016, the Government Accountability Office (GAO) conducted a study to 
review Amtrak's efforts to reorganize and implement PRIIA provisions 
intended to reform it. The report found that ``Amtrak has not developed 
clear information detailing the specific costs and activities,'' of its 
state supported route segment and that ``several material weaknesses 
and significant deficiencies'' have hindered Amtrak's ability to create 
consistent and timely accounting documents and financial information to 
support service decisions.
    The GAO report also highlighted several complaints from our sister 
rail agencies and state Departments of Transportation (DOT) over cost 
and transparency issues. In some cases, certain state DOTs reported 
that Amtrak nearly doubled their taxpayer cost burdens for their state 
supported routes from year-to-year. Since the PRIIA 209 program 
requires states to pay whatever costs Amtrak identifies, there is no 
real incentive for Amtrak to hold down costs or find ways to perform 
its work more efficiently. These trends are particularly troubling 
considering that Amtrak's leadership has identified routes between 100-
400 miles as a growth opportunity for the corporation.\1\ If Amtrak 
does believe these routes are a growth opportunity, this Congress must 
require Amtrak to undergo significant changes to ensure it is also a 
steward of local and state taxpayer dollars and ensures their dollars 
do not subsidize Amtrak's other business segments, which already 
receive ample federal subsidies.
---------------------------------------------------------------------------
    \1\ Saporta, Maria. ``Why Delta's Richard Anderson Went from Planes 
to Trains.'' Atlanta Business Chronicle. 27 Sept. 2017.
---------------------------------------------------------------------------
    Our main objectives in overseeing the two passenger rail services 
entrusted to us is to set reasonable and transparent expectations for 
the service, contract with qualified entities to provide the service, 
and pay those contractors and workers fairly for the service provided. 
Recently, our team utilized aggregated data from the Federal Transit 
Administration's (FTA) National Transit Database (NTD) to compare the 
costs of our commuter rail service to our commuter rail peers and to 
our San Joaquin Amtrak route. Our initial findings were shocking. For 
2018, we found that Amtrak's costs were triple the costs of our ACE 
service--on a per passenger mile basis. In our role as stewards of 
state taxpayer money, we are struggling to find any legitimate 
justifications for Amtrak to charge an operation cost that is three 
times more expensive than our unionized private contractor for our ACE 
service--both of which are funded by the people of California. Despite 
this disheartening cost disparity, we have continued to meet all of our 
Amtrak state supported route contract requirements and Section 209 
payments.
    We appreciate our burgeoning relationship with the BNSF, as they 
host the majority of the San Joaquin service over their network. But we 
find that with Amtrak in the middle, mixed signals are often sent about 
the service priorities and performance incentives. Further, we have no 
issue with paying our fair share to access infrastructure owned by 
private entities and value creating propositions for both private 
companies and California intercity passenger rail travelers.
    Our experience with our state supported route has led us to believe 
that we can do a better job of providing publicly funded intercity 
passenger rail services, that make the best use of state taxpayer 
dollars and provide strong labor protections, by contracting out, 
rather than continuing our agreement with Amtrak. While Section 217 of 
PRIIA allows us to contract out our service today, we believe Congress 
could ensure certain operating capacity and labor and safety 
requirements on the part of a state rail agency and certain cooperation 
requirements on the part of Amtrak to protect intercity passenger rail 
service from disruption, in a contracting-out scenario. Again, our 
issues have never been with the local Amtrak personnel and we would 
suggest displaced Amtrak workers maintain hiring preferences with 
whomever wins an intercity passenger rail contract.
    We believe we already meet any potential threshold for making 
capital improvements in the San Joaquin corridor, and we continue to 
meet and exceed stringent Federal Railroad Administration (FRA) 
standards for the ACE System Safety Program Plan, and have the 
personnel and policies in place to complete the same program for the 
San Joaquins. We constructed our own maintenance facility to service 
ACE trains in 2014, and it will soon expand its services to begin 
safety testing and preventive maintenance for new Siemens railcars that 
will be utilized on the San Joaquin route. We are proud this facility 
houses nearly 80 jobs for Herzog, SJJRC, and Siemens employees. We 
believe this investment in a state-of-the-art rail maintenance facility 
is a type of capacity investment that Congress could require of state 
rail agencies that contract out, to ensure they are capable of 
effectively managing and maintaining their state supported route. 
Additionally, our enabling state legislation contemplated the future 
potential for contracting out and, in consultation with labor groups in 
California, includes a provision for compliance with the Railway Labor 
Act.
    In conclusion, we have experienced A Tale of the Two Services. One 
service contractor focuses on responsiveness, data sharing, 
collaboration and shared performance expectations. Costs are rational, 
correlated to actual service and developed jointly between the two 
partners. This service is growing.
    The other service contractor overly focuses on protecting its 
proprietary data, solely determines resource allocations and planning 
decisions, and has no shared performance objectives. Costs cannot be 
rationally tied to actual service and cost methodologies cannot be 
developed jointly. Due to these factors, service is declining.
    We cannot, in good conscience, continue with the current Amtrak 
arrangement knowing that we have no way to control costs or improve the 
service, and that meanwhile we are burdening taxpayers with three times 
the cost for a comparable service. We have made every possible attempt 
over the last several years to request that Amtrak meet us in the 
middle, but have made no progress. In fact, we have no issue with 
Amtrak making a profit--as any corporation should be able to--but not 
at the expense of transparency, collaboration, and fairness. We would 
like to begin the process of contracting out and ask for your 
assistance and guidance to ensure there are no related service 
disruptions. We look forward to working with this Subcommittee as it 
contemplates surface transportation and Amtrak reauthorization bills in 
the coming months.
    I look forward to answering any questions the Subcommittee may have 
about our story and unique experience managing two, publicly funded 
passenger rail services.

    Mr. Lipinski. Thank you. I want to thank everyone for your 
testimony today. Before we move to questions, I would like to 
ask unanimous consent to enter into the record a statement from 
the Transport Workers Union of America. Without objection so 
ordered.
    [The information follows:]

                                 <F-dash>
Statement of the Transport Workers Union of America, AFL-CIO, Submitted 
                 for the Record by Hon. Daniel Lipinski
    Chairman Lipinski, Ranking Member Crawford, and members of the 
committee, on behalf of the members of the Transport Workers Union of 
America, AFL-CIO, thank you for the opportunity to discuss issues 
related to the future of Amtrak and its hard-working employees. The 
Transport Workers Union represents over 151,000 members across the 
railroad, airline, transit, universities, utilities and services 
sectors. The TWU is submitting this testimony on behalf of its Amtrak 
members.
    Amtrak is an essential component of our national transportation 
system and must be supported, not dismantled, privatized or starved 
into bankruptcy. Amtrak offers the only national intercity passenger 
rail service in the U.S., providing a vital transportation link for 
millions of people across the country. Amtrak's popularity continues to 
grow, setting a record for ridership in fiscal year 2019 by carrying 
32.5 million passengers. Amtrak's 20,000 employees make this service 
possible. They include the TWU members who work onboard providing food 
and beverage service to passengers, and in shops as carmen and 
cleaners, maintaining, repairing and servicing Amtrak cars.
    Each year, Congress provides Amtrak with federal funds to support 
the railroad's operations, infrastructure, and equipment needs. Amtrak 
uses these funds to provide rail service across the country--to rural, 
suburban and urban communities--via its Northeast Corridor, Long-
Distance, and State-supported routes. Increasingly, the Administration, 
some members of Congress, and Amtrak's board have sought to use federal 
funds to pay contractors to provide core Amtrak services, including 
onboard services. Amtrak's on-board service workers' main priority is 
to keep passengers safe. Their job duties are unique and demanding and 
require intensive training that prepares them to respond to a wide 
range of potential events, including derailments, medical emergencies, 
terrorist threats, and fires. On-board workers are the essential eyes, 
ears, and first responders on the railroad.
    These workers also provide food and beverage services--an essential 
part of the passenger rail experience and one that many Amtrak 
customers depend on during their trips.
    On board service workers work long, grueling hours. Single shifts 
on the Northeast Corridor, for example, usually last 12 to 18 hours. On 
long distance trains, the job functions and environment are even more 
demanding. During three- to six-day trips, on-board workers generally 
are on duty for 16 hours each day.
    Unlike many workers, on-board employees do not make overtime pay 
after working eight hours in a day or even 40 hours in a week. It is 
common for on-board attendants to work 18-hour days with a minimal 
crew. Efforts to privatize these services in the name of cost savings 
ignore the unique working conditions onboard Amtrak and the level of 
specialized training required of the workforce. Outsourcing these jobs 
will not result in a cheaper, safer workforce--it will simply undermine 
passenger safety and the rights of existing workers who have dedicated 
their careers to the railroad.
    Privatization efforts also ignore the fact that passengers don't 
want the quality of their onboard services to decline. Amtrak has made 
several attempts in the past to change its onboard service and they 
always have resulted in a decrease in customer satisfaction. For 
instance, the recent change to boxed lunches on long distance trains 
east of the Mississippi resulted in an online petition in support of 
traditional dining car service, which has been signed by more than 
118,000 riders.
    Ultimately, past outsourcing efforts have failed because they have 
been based on politics rather than on sound business practices. 
Airlines don't contract out their flight attendants because they know 
that doing so would diminish customers' experience of their service. 
Installing vending machines onboard trains or replacing freshly made 
meals with a boxed lunches results in the same decrease in customer 
satisfaction and will only hurt the railroad's reputation.
                               Conclusion
    Congress's investment in Amtrak is vital to maintaining a safe and 
reliable national passenger railroad. It is essential that Amtrak 
workers, as stakeholders and frontline experts in on-board services, 
facilities, equipment and on time performance, be involved in 
discussions about the future of the railroad. Management that seeks to 
ignore workers' perspectives or that believes it can replace workers 
with vending machines is undermining its financial performance and 
endangering the long-term prospects of the railroad. We encourage the 
committee to exercise the full extent of its oversight powers to bring 
Amtrak management's goals back into alignment with the broader needs of 
our American economy and its working families.

    Mr. Lipinski. We will now move on to Member questions, each 
Member will be recognized for 5 minutes. I will begin by 
recognizing the chair of the full committee, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Anderson, you mentioned the tools for online 
performance. We heard a little bit about Precision Scheduled 
Railroading, we had some very disappointing testimony from Mr. 
Batory from the FRA regarding some of these 3-mile-long trains 
and issues with that. And as Ms. Nathanson pointed out, they 
don't have a 3-mile-long siding in the Willamette Valley, and I 
assume elsewhere around the country. So what tools do you need?
    Mr. Anderson. First, we need the FRA to complete the 
standards in metrics, which was created by this committee, I 
think when Congressman Oberstar was chair, to set up an on-time 
metric system. We litigated it for 10 years, finally won after 
two trips to the Supreme Court. So we need that finalized.
    Second, as a number of the panelists said, a private right 
of action in order to enforce preference rights that we have 
under Federal law. In the 40 years since Amtrak has been 
created, we only had one situation where the Department of 
Justice sought to enforce our preference right.
    So the bottom line is, we need the standards and metrics 
completed by the FRA with a real enforcement mechanism, and 
then we need to have an Amtrak private right of action. Because 
the single biggest threat to Amtrak's long-term viability is 
host railroad delays. It is about 80 percent of the delays on 
the national network. And when you can't run on time, it is 
just core to the product.
    Mr. DeFazio. Also, in reference to my constituents who 
purchase sleeper cars, they would like, I won't go into it now, 
but a sort of analysis of what your revenues are, or potential 
revenues from that kind of service versus full coach car, and 
how that all pencils out because I mean--and I will hand you 
this letter on the way out. I have to leave early, but I would 
like to know. Also, last week it came to our attention, we 
weren't aware of it, it actually came from Politico, that you 
instituted a mandatory arbitration policy, which seems--I have 
read it, it is pretty tough. We did address issues of aggregate 
liability by limiting claims to $200 million back to 1997, 
perhaps that should have been indexed. In any case that is 
existing law. So I am curious why we need this mandatory 
arbitration policy for covering every and any kind of complaint 
customers could have?
    Mr. Anderson. It is pretty standard, mandatory arbitration. 
I mean, if you think about how we deal with all our claims 
under the Railway Labor Act, there is a system board of 
adjustment. It is a pretty common way of trying to streamline 
and make the claims process more efficient. As you said, we 
have a statutory limit on damages, and on top of that, there 
are no punitive damages.
    And the arbitration actually is faster. It gives all the 
same remedies so our goal is to--actually, we spend a fair 
amount on service and recovery at Amtrak, and you have probably 
read some of the articles in the Washington Post about that. 
Because we want to be a customer friendly railroad. But at the 
same time, we want to have an efficient, lawful method for 
promptly and fairly resolving any passenger claims.
    Mr. DeFazio. OK. Mr. Mathews, what is in the survival pack? 
What do we need? I only ride the Northeast Corridor or Portland 
to Eugene, I don't do the long-distance train.
    Mr. Mathews. So for a lot of our long-distance passengers, 
particularly in the sleeper cars, we have kind of a rolling 
museum out there as you know.
    So the savvy passenger carries duct tape, shims, plastic 
and wooden, to kind of keep the doors from rattling, Velcro 
that holds the curtains together, so that way you can actually 
keep your curtains closed.
    There is usually--I have got in here a little hand 
sanitizer, because you never know, and then also a power strip 
because there is really never enough power in the cabin to do 
what you got to do. But everyone has their own version of this. 
But Velcro and duct tape are pretty common.
    Mr. DeFazio. Mr. Anderson?
    Mr. Anderson. We are making really big investments in the 
long-distance equipment right now. We are replacing all the 
locomotives. We took our grant from last year. We are going to 
make an $800 million investment on all new locomotives for the 
long-distance network.
    We are replacing all the bedding, all the pillows, all the 
mattresses in the long-distance and the Superliner II's and 
Amfleet II's which are the coach cars, we are putting through 
complete overhauls in our shops in Beech Grove.
    So we are making a lot of investment, and to your point, we 
grew long-distance revenue and long-distance passengers this 
year faster than Amtrak has grown it in probably the last 10 
years.
    Mr. DeFazio. Yeah.
    Mr. Anderson. And next year, we are going to grow the long-
distance network passenger accounts even higher. So we are 
making a lot of investments there. We hear you loud and clear 
about the importance of the national network, but we can't do 
it if our passengers have equipment that is not in good shape.
    So we are putting a lot of the national grant, probably, 
all in, about $900 million into the long-distance service.
    Mr. DeFazio. Yeah. OK. About 10 years ago--and I will be 
done in a moment, Mr. Chairman--I remember having Mr. Boardman 
here, and I was predicting with the baby boomers retiring and 
with the air travel so unpleasant, that more and more people 
who had time would opt to do that. And I think you are seeing 
some of that, but we do have to provide them a quality product. 
Thank you.
    Thank you, Mr. Chairman.
    Mr. Lipinski. The Chair now recognizes Mr. Crawford, 
Ranking Member Crawford, for 5 minutes.
    Mr. Crawford. Thank you, Mr. Chairman. Mr. Anderson, I hear 
you right, you are replacing your locomotives?
    Mr. Anderson. Yes, sir.
    Mr. Crawford. Let's talk about that. Some of your creditors 
recently filed suit, alleging inappropriate handling of 
Amtrak's Bombardier-Alstom HHP-8 locomotives. Is it true that 
Amtrak has retired all those locomotives after only 10 years of 
revenue service?
    Mr. Anderson. I know we are retiring those locomotives, but 
those locomotives weren't on the national network. The 
locomotives that I am talking about are the P42s. Those are 
diesel locomotives that handle the long-haul trains in the 
national network.
    Those locomotives are worn out, and we did an RFP, and 
probably the most important thing we can do for Amtrak is to 
replace the P42 long-haul locomotives.
    Mr. Crawford. What is Amtrak doing with the HHP-8 
locomotives today?
    Mr. Anderson. Those locomotives were retired, and they are 
being maintained because they are on leases. They were replaced 
several years back by the ACS-64s up and down the corridor.
    Mr. Crawford. Switching gears just real quick, it is my 
understanding that some Amtrak trains operate with one 
crewmember in the cabin of a locomotive, and is that accurate?
    Mr. Anderson. It is accurate.
    Mr. Crawford. And can you tell me if you believe that is a 
safe way to operate?
    Mr. Anderson. It is a safe way to operate in the places 
where--remember we have a conductor on the train, too. So we 
have a locomotive engineer in the cabin, a conductor. On some 
of the longer routes like the Coast Starlight, we have two 
engineers in the cab. So we aren't engaged at all in the issues 
on the freight side about crew size. We are pleased with how it 
operates, and I think our engineers do a great job operating 
the railroad.
    Mr. Crawford. Ms. Mortensen, in your testimony, you 
mentioned your unique experience operating both an intercity 
passenger rail service, operated by Amtrak, and a commuter rail 
line that utilizes a private operator. Groups such as the 
National Railroad Construction and Maintenance Association like 
to remind us of the many costs and efficiency benefits of 
contracting work to private contractors.
    Can you expand on the pros and cons of contracting out in 
your experience with private operators?
    Ms. Mortensen. Well, and I want to be clear that this is 
still a unionized workforce. I think there was some concern 
that contracting out always means nonunion, and that is not 
true in our case. I would say that when we first went out to 
bid Amtrak Bombardier and Herzog bid, and the cost structure is 
one very large factor, but I think the partnership approach, 
working together with the agency, working as an extension of 
staff, following performance metrics, I think that is a big, 
big difference than Amtrak operating State-supported routes 
from a national perspective.
    Mr. Crawford. Thank you. I yield back.
    Mr. Lipinski. OK. I will now recognize myself for 5 
minutes. I want to first start with some things that I think 
the panel has agreement on. First of all, I assume everyone 
agrees increased infrastructure spending for Amtrak would be 
helpful to Amtrak, in this next bill would be something good to 
do?
    I think everyone's nodding yes.
    Does everyone agree, a little more thorny point, but I 
think everyone seems to agree on giving Amtrak a private right 
of action. Anyone disagree with that?
    All right. So we will start--because we have things that 
there is agreement on. So let me move on to some other issues. 
I want to ask Mr. Regan, Mr. Guy, and Mr. Dinsdale, how do cuts 
to Amtrak employees hurt, one, safety, and two, has it hurt 
Amtrak service?
    If you could be quick, just give me a couple of examples on 
each. Let's start with Mr. Regan.
    Mr. Regan. Well, I think if you look at the services being 
provided, I think it hurts ridership. If you are cutting back 
on food and beverage employees, for instance, if you are 
cutting back on call center employees, if you are cutting back 
on the station agents, you are hurting the customer experience 
in that regard. And I think it is going to drive down ridership 
in the long-term, not be healthy for the railroad.
    Mr. Lipinski. Mr. Dinsdale?
    Mr. Dinsdale. Yes. In regards to the safety issue, Amtrak 
employees are trained in emergency evacuation, first aid, and 
on the other side, as far as the service, it is important to 
understand how skilled these people are.
    Now, you saw this bag. Every train attendant that I know 
carries something in their bag that they have fashioned out of 
their own home because of things that go wrong on the train, 
whether it is air conditioning or toilets, something that they 
have, that they can fix en route, instead of telling a 
passenger, look, we have no one on here, we are going to have 
to wait until we get to Albuquerque or Denver.
    And so I think by replacing them with unskilled, 
unqualified people, is both a safety issue and a service 
problem.
    Mr. Lipinski. Thank you. Mr. Guy, do you----
    Mr. Guy. I think when you talk about reducing a workforce, 
then you are leaving those that remain to do more. And when you 
are reducing a workforce that is in charge of inspections and 
fixing equipment and what not, it makes it harder to keep that 
up to a state of good repair, regardless if new equipment is 
coming.
    So wouldn't want to see worker reductions to the point 
where safety is jeopardized. We don't think it is, but that is 
a path we don't want to see.
    Mr. Lipinski. And Mr. Guy, you had mentioned having a labor 
representative on the board of Amtrak. How do you think that 
would help change the current situation?
    Mr. Guy. We consider ourselves sort of the face of Amtrak. 
The passengers interact with our members, you know, on board 
trains most often. So we can hear concerns and complaints at 
times for those, and we can sprinkle that up to our leadership. 
And having that at a board level will better help Amtrak make 
decisions that could potentially impact negatively and 
positively the service.
    Mr. Lipinski. Mr. Dinsdale, I think it was you who had in 
your testimony, correct me if I'm wrong, about some cuts that 
Amtrak had made, and you were saying if they had spoken to 
Amtrak employees--Amtrak wound up going, turning those around. 
And if they had actually spoken to Amtrak employees when cuts 
occurred, that they probably would not have done that in the 
first place. Can you expand on that?
    Mr. Dinsdale. Yeah, I didn't quite hear the whole question.
    Mr. Lipinski. Was there a situation where Amtrak had made 
cuts to employees that they wound up going back on? I believe 
it was your testimony, I could be wrong on that, but Amtrak 
then wound up changing their mind and eliminating those cuts?
    Mr. Dinsdale. Well, the only part I can think of in my 
written statement was the hiring of the outsource people. 
Initially the story was, the call volume was down, and they 
didn't need as many employees. Well, they, in fact, have as 
many employees at the outsource company as they had before.
    Mr. Lipinski. It was the--let me be a little more clear on 
this. The food and beverage, the cutting of the food and 
beverage service.
    Mr. Dinsdale. Yeah. In Florida, they had an issue where 
when they make these cuts, they come to us to try to avoid 
violating law, by offering an early retirement, enhanced 
retirement package, or a straight buy-out. And a number of 
people applied in Florida to go to different cities, and they 
had to withdraw their offer to let them transfer because they 
needed them in Florida.
    Mr. Lipinski. I thank you.
    I may come back for more questions. I have questions for 
Mr. Anderson about Chicago Union Station and also some 
questions for the panel about cost transparency, but I will 
yield back, and I will recognize Mr. Smucker for 5 minutes.
    Mr. Smucker. Thank you. I would like to start by saying I 
support the goal of ensuring we have passenger train service 
available, and we should continue to grow that. It is important 
in my area. I am in Pennsylvania, sort of central southeast 
Pennsylvania, Keystone line, travel on a regular basis and then 
travel here on a regular basis as well.
    I do have questions, Mr. Anderson. I have concerns about 
what is happening with the arrangements with Amtrak and SEPTA 
in the southeast Pennsylvania region. I know that Federal law 
encourages Amtrak to make agreements with the private sector in 
order to maximize revenue and reduce reliance. We expect you to 
try to increase revenue where you can, but do you consider 
public commuter railroads to be private entities?
    Mr. Anderson. No.
    Mr. Smucker. Can you tell me a little bit about your view 
of the dispute with SEPTA in southeast Pennsylvania, then?
    Mr. Anderson. Yeah. Historically, they basically used a lot 
of Amtrak stations and real estate for free, and that lease is 
up. And under Federal statute, we are not supposed to cross-
subsidize commuters. It is pretty clear. And so it has been 
submitted to the Surface Transportation Board.
    All we really have to have out of that is to make sure 
there is no cross subsidies and we tried to work with SEPTA to 
negotiate that. I actually think SEPTA does a really good job, 
and it is a well-run railroad.
    Mr. Smucker. I think both Amtrak and SEPTA are very, very 
important to the region, but when--I think what you are 
attempting to do is impose rent.
    Mr. Anderson. Pardon?
    Mr. Smucker. I think what you are attempting to do is 
impose rent on stations that Amtrak owns but are really only 
serviced by commuter railroads. Wouldn't co-development 
agreements with the commuter railroads be a more effective way 
to generate revenue while preserving and improving critical 
commuter rail service on which our communities rely?
    Mr. Anderson. You know, in theory that would be true, but I 
just don't know the answer to your question. I could go do some 
research on it, but I don't know specifically about co-
development agreements with SEPTA.
    But I mean, we have done some with--the Paoli station is a 
great example of a great success with SEPTA. So I am hopeful 
that through the STB process, we have had a great relationship 
with SEPTA for a very long time. It has had very strong 
management. They run a very good railroad. I am hopeful that 
through this STB process that we will get this resolved in a 
reasonable way for both of us.
    Mr. Smucker. Yeah. I mean, I think rather than just move 
public dollars back and forth--again, these are both public 
agencies benefitting the public with Federal dollars. So I 
think rather than moving those dollars back and forth, I would 
like to see us clarify the law to exclude public transportation 
agencies from Amtrak's responsibility to maximize its revenues. 
And even maybe perhaps another idea better yet would be for 
Amtrak to transfer to SEPTA those stations which Amtrak is no 
longer using. Would that make sense?
    Mr. Anderson. At one time there was, under a previous 
administration, maybe 1\1/2\ years ago, some conversation about 
the State buying those stations from us, but I mean, Chairman 
Lipinski has the same issue with Metra. We are not--you know, 
statutorily, we have a lot of rules, and you can see that there 
are States that don't like them because--and we have high 
costs, right? So there is always a tug of war. Oregon has to 
pay more, JPA in California has to pay more, because section 
209 PRIIA is very clear in terms of how its structure works, 
and how we are not to cross-subsidize across commuter lines.
    And we do a lot of work for commuter railroads, Sound 
Transit, Metro in L.A., we run all their trains, Connecticut. 
And we are very careful about apportioning these so that the 
section 209 States don't end up with a subsidy. So it is 
complex.
    Mr. Smucker. It is. It just doesn't make sense to me that 
we have----
    Mr. Anderson. I hear you.
    Mr. Smucker [continuing]. This continued, ongoing dispute 
between both agencies. I am certainly willing to work with you 
in any way that we can, if we need to clarify anything in the 
law itself or if----
    Mr. Anderson. OK.
    Mr. Smucker [continuing]. We can find other resolutions, so 
thank you.
    Mr. Anderson. That is a reasonable request.
    Mr. Lipinski. The Chair now recognizes Mr. Malinowski for 5 
minutes.
    Mr. Malinowski. Thank you, Mr. Chairman.
    Mr. Anderson, I wanted to ask you about an issue that was 
raised in a letter to you by Chairman DeFazio and other members 
of this committee about proposed cuts to Amtrak's police force. 
We received a response from Amtrak to that letter in which your 
chief administrative officer wrote that cuts to the police 
force, quote, ``will not impact the level of security that we 
provide in stations or on trains.''
    It would seem to me that cuts to a police force, this or 
any other, by up to 20 percent, which is our understanding of 
what is planned, would absolutely impact the ability of that 
police force to provide protection to those who they are duty-
bound to protect. Twenty percent is a pretty significant 
number. From a commonsense point of view, it is hard to imagine 
that there would be no impact, and I wonder if you could 
further elaborate, first of all, on that conclusion that there 
would be no impact on security?
    Mr. Anderson. Well, you have got to look at where the labor 
is deployed, right? So if it is in offices and you have a ratio 
of one manager for every seven people that are out working on 
the railroad, and you look at the geographic dispersion of 
where people were working, in rural areas where we weren't 
getting a lot of policing, what we have actually done, which 
addresses a number of the issues which I am incredibly 
sympathetic to--and was involved in the aviation industry in 
passing Federal laws against violence against crewmembers--we 
needed many more policemen on our trains. And that is what we 
have done.
    The number of riders, much like the Air Marshal Service 
that TSA uses in aviation, we have morphed the department from 
a kind of traditional management-heavy organization, to an 
organization that puts a lot of policemen on trains and in 
stations.
    Mr. Malinowski. Well, good. That is what I want to 
specifically ask you about. And let's remember the context. I 
am sure you are aware that the United States in the last 
several years has been experiencing an increase in domestic 
terrorism. I mean, we have been at risk of terrorism from 
multiple sources for many years since 9/11, but there is a 
particularly pernicious new threat that we have seen manifested 
in shootings in places of worship, in a synagogue in 
Pittsburgh, Poway, against Jewish Americans, against Hispanic 
Americans at a shopping mall in Texas. It is not just random 
violence with guns, but violence that is motivated by a 
specific ideology. And not to be too alarmist, but we have 
trains running between Washington and New York City, the heart 
of what some people with antigovernment ideologies consider to 
be the establishment of the United States. I can walk on those 
trains without a metal detector, which is very different from 
the situation in airports. What would happen if somebody opened 
fire on a train with hundreds of people on the Northeast 
Corridor? How equipped is Amtrak to deal with that situation?
    Mr. Anderson. Well, that is actually where we have 
centralized our forces. So we have--we can get with you with 
the statistics, but we have dramatically increased the number 
of policemen riding on our trains, invisible in our stations. 
That is precisely what we wanted to do.
    Mr. Malinowski. Can you give me a little bit more 
granularity on that?
    Mr. Anderson. I have the data--yep, yep. We have--I mean, I 
can pull the data. I have got it in this binder----
    Mr. Malinowski. OK.
    Mr. Anderson [continuing]. Because I anticipated your 
question. But, look, we have also undertaken a really 
significant hardening of the industrial assets up and down the 
corridor from signal huts to server farms in stations. We have 
done a complete analysis of where those vulnerabilities are. We 
are taking a fair amount of our national network grant and 
putting fencing up and down the corridor in the dense areas. We 
have added--I think our number of train marshal rides is up 
over 1,000 percent year on year.
    So with you all the way on that. We wanted to refocus and 
reconcentrate our assets in the most dense areas and to get 
much more coverage of our police officers visible to our 
employees and customers on our trains.
    Mr. Malinowski. Thank you. Let's continue that 
conversation. I yield back.
    Mr. Anderson. I would be glad to.
    Mr. Lipinski. The Chair recognizes Mr. LaMalfa for 5 
minutes.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    Mr. Anderson, thank you for your time here today, and me 
personally, I really enjoy the train trips we make on the east 
coast here sometimes up North and back and even just commuting 
from Baltimore from the airport. So, you know, I think there is 
a really great place for passenger rail where it can be 
fiscally responsible.
    So anyway I wanted to cover with you a couple things caused 
by congressional mandate and then open it up to you at the end 
of my comments on what do you actually need from Congress in 
your professional opinion for us to remove barriers?
    First, for example, on the dining service on the trains, 
that changed. It was, my understanding, downgraded. What effect 
do you think that that had on customers and eventually even 
ticket sales?
    Mr. Anderson. Look, we track this. There is a lot of 
anecdote about food because there are people that love the 
long-distance service in the halcyon days of sitting in the 
dining car in your coat and tie. And I appreciate that and we 
need to invest more in that in a few sort of stellar trips. But 
when you make these kinds of changes, you make these kinds of 
changes based on data. And we have very good data about what 
our customer preferences are.
    And our customer service scores across Amtrak have been 
very strong on virtually all of our routes. And our ridership 
is growing, and it is growing significantly. We grew by----
    Mr. LaMalfa. So changes--I mean, I got to keep going on my 
time. I am sorry, but----
    Mr. Anderson. All right. Sorry.
    Mr. LaMalfa. So changes to that have not negatively 
affected ticket sales, you would say?
    Mr. Anderson. No, not at all.
    Mr. LaMalfa. OK. Thank you for that.
    Something more perhaps locally, charter trains, private 
cars, things like that, there has been additional fees, 
restrictions, et cetera, to where--like in my part of the State 
of northern California, it seems from what anecdotes from what 
we have been told in our office, that it is hardly used 
anymore. So what is the issue with private cars, charter trains 
being able to attach to ongoing Amtrak----
    Mr. Anderson. Once again, you have people wed to a system 
that is decades old, where they got very, very low rates and 
could pick what trains they could put their car on and take it 
off whenever they wanted. And we were taking a lot of passenger 
train delays.
    We already take enough delays. We can't delay 280 people on 
a train because 3 people in a private car want to get off on a 
siding, number one.
    And number two, the inspector general did a report on 
tracking our costs and being certain that the private car 
owners--and it is not inexpensive to own a private car--pay 
full freight, and that is what we did, and a lot of them got 
upset about it, because they had a sweetheart deal for a long 
time.
    Mr. LaMalfa. So doing that on rural areas maybe versus 
urban stations wouldn't really make a lot of difference, you 
think?
    Mr. Anderson. It does, if you have got to pull off on a Y 
and take a delay.
    Mr. LaMalfa. Yeah.
    Mr. Anderson. So we limited the places where we would pick 
up a private car or drop off a private car to stations where we 
had enough time and we had a Y so that it was easy to pull the 
car on and off.
    Mr. LaMalfa. Yeah. OK. So time is money, right? I get it.
    In California, the whole high-speed rail thing is being 
wrestled through right now. A program that was initially $33 
billion looks like it is going to exceed $100 billion. It is 
going to in some places displace Amtrak; others, supposedly, 
augment it.
    So what about this concept of having more full-speed trains 
on conventional tracks? My understanding is you can go 120, 125 
miles per hour on conventional tracks. You don't need the fully 
designed high-speed rail, elliptical tracks, et cetera. What 
can we do to further make higher--conventional speeds and 
actually close that gap and make the giant cost difference come 
closer and use conventional trains and conventional layouts?
    Mr. Anderson. I think you hit the nail on the head about 
where the future is going to be. We can grow the national 
network and jobs at Amtrak significantly if we partnered with 
the freight railroads and co-invested, because the freight 
railroads have usually a maximum speed of 79 miles an hour.
    In the Northeast Corridor, we are going to get speeds up in 
locations to 160 miles an hour with the new Acela. Today it is 
150. So the real answer, long-term in these short corridors in 
urban areas is to do precisely what you just said, which is to 
figure out a way to co-invest with the freight railroads to 
take up track speeds, pull out bottlenecks, and allow us to be 
able to operate at--you know, if you can operate in a 100-mile 
zone, a 100-mile trip, at 125 miles an hour, you will take a 
lot of cars off the highway. So you are exactly right.
    Mr. LaMalfa. Thank you. I yield back.
    Mr. Lipinski. The Chair now recognizes Mrs. Napolitano for 
5 minutes.
    Mrs. Napolitano. Thank you, Mr. Chairman, and let me 
recognize a distinguished guest in the audience today, Mr. 
David Kim, secretary of the California State Transportation 
Agency. Many of you know David as he was previously the Deputy 
Administrator of the Federal Highway Administration, worked in 
Washington for L.A. Metro, for Governor Gray Davis, and our 
former colleague and now Attorney General Xavier Becerra. 
David, I am delighted Governor Newsom appointed you to lead the 
transportation industry, and I look forward to working with you 
and on the passenger rail. I am glad you are here listening. 
Welcome, sir. He is right over there.
    Mr. Dinsdale, I also am, with Mr. Lipinski, concerned about 
Amtrak's efforts to close in-house call centers and outsource 
the work. In January, they were told they had a low calling, 
and then later they opened up centers in Florida and in Ohio. 
And I am concerned that Amtrak got rid of these in-house 
employees because they no longer want to pay the livable wages 
with benefits to their workers. What is your take on this 
situation, and what proof do we have that they were low in 
calls into the call center in California?
    Mr. Dinsdale. Thank you for the question, Congresswoman. 
First of all, I would like to go back to where we had our first 
conversation with them. It was May in 2018. We had been hearing 
rumors that they were going to close the Riverside call center. 
So we asked for a meeting and we met with no less than three of 
their vice presidents, and they told us, we are not closing it. 
We are going to invest in that office.
    We are only going to open an office in Florida for 
rollovers, when there is some sort of weather issue on the east 
coast. The other call center is in Philadelphia, and evidently 
there was a problem when you had a nor'easter a couple years 
ago, so this allegedly was going to be an office where they 
could roll these calls over to. And I am sitting in this room 
going, you don't know where Riverside is? It is in the middle 
of the desert. So that is not going to be a weather issue.
    That office would be the place they probably should have 
kept open if they were going to close one. But the fact is, 
they need both call centers. And the result of having 350 
people working in this--between the two offices in Ohio and 
Florida--is a clear indication that the call volume has not 
dropped. Because that is the amount of employees that they 
reduced by closing the Riverside call center.
    Mrs. Napolitano. Do they have benefits?
    Mr. Dinsdale. I am sorry?
    Mrs. Napolitano. Do they have benefits, the Florida people 
and the Ohio people?
    Mr. Dinsdale. No. Absolutely not.
    Mrs. Napolitano. I am very concerned about that, because 
that means jobs are lost and transplanted to another State to 
which I don't mind if we had the extra work. I have another 
question for Ms. Nathanson. We held a hearing a little while 
back on the growing length of trains operated by the freight 
railroads. Your testimony addresses the issue. Can your current 
network capacity, yours, allow for such long trains, and how 
long does it impact the full passenger service in your area?
    Ms. Nathanson. Thank you for the question. In short, no. My 
region can't accommodate additional extended-length trains. In 
Oregon, we have had only 1 siding out of 12 that was long 
enough to accommodate the long trains that we have running in 
Oregon--8,000, 10,000 feet long. We had only one siding that 
was long enough. So that obviously isn't adequate. But in 
addition to sidings that aren't long enough to accommodate the 
freight trains, as long as a siding is able to be used as 
storage, basically a parking lot for cars when they are not in 
service and not moving along the track, if the siding is used 
for storage, then the siding can't be part of the system to 
allow a passing lane. So that means that our passenger trains 
will continue to be impeded.
    Mrs. Napolitano. Well, I have long held a great concern 
over the length of trains now being used by railroads because 
they impact every community. And there are only a few areas 
that can maintain that length of train, and now I am hearing 
they are even bigger than that.
    A question for Mr. Guy. I am concerned about the fact that 
Amtrak is paying for accidents occurring that they are not 
responsible for. Why?
    Mr. Guy. I think that is what is currently the law. They 
don't have a private right of action. Is that the portion you 
are talking about?
    Mrs. Napolitano. Well, to pay millions resulting in an 
accident occurring on other railroads even if they are not 
negligent is not acceptable.
    Mr. Guy. Yes. I--and that costs Congress and States more in 
operations because the host railroads, if it is solely their 
responsibility, they are not responsible for it. Amtrak is.
    Mrs. Napolitano. Well, that is surely something we should 
address in this committee. And Mr. Chairman, I have other 
questions, but I will put them in writing. Thank you, sir.
    Mr. Lipinski. Thank you, Mrs. Napolitano. The Chair will 
now recognize Mr. Davis for 5 minutes.
    Mr. Davis. Thank you, Mr. Chair. Mr. Guy, welcome, great to 
see you here in DC. I always enjoy working with you in 
Illinois. Appreciate what you and your members do. I actually 
wanted to introduce you, but Chairman Lipinski hogged it all to 
himself. So sorry about that. Must be the majority's 
prerogative.
    Mr. Lipinski. Yes, it is.
    Mr. Davis. You know, it is great to be able to have a great 
working relationship with you and the members that make up your 
union. Regan, great to see you again, man. I am still trying to 
grow as good a beard as you. It is not even close.
    Mr. Regan. You will get there.
    Mr. Davis. Not even close. Hey, I am going to leave you 
guys alone with my questions, but thanks for your testimony, 
and thanks for a lot of the points that you brought up. I have 
got a big concern because the Illini and the Saluki routes run 
through my district in central Illinois, and we have a 
terrible, terrible on-time performance issue. I know Chairman 
DeFazio mentioned this. I know that Representative Nathanson 
mentioned the on-time performance in her opening statement. I 
just can't tell you how many constituents in Champaign-Urbana 
that I have heard from about this issue. And it impacts the 
decisions to actually ride on the train.
    I mean, how do we continue to make Amtrak a viable source 
of long-distance transportation if people make a cost-benefit 
analysis and say, you know what, I am not going to take the 
chance. You know, we have invested billions of dollars in the 
Chicago to St. Louis corridor for passenger rail, and I want to 
make sure that we continue to make it a viable mode of 
transportation.
    So beyond my district--I mean, actually specifically in my 
district, can you address any of the concerns along the Illini 
and the Saluki routes?
    Mr. Anderson. Look, it comes down to host railroad delays. 
The freight railroads do not run Amtrak on time. When you look 
in the Northeast Corridor where Amtrak controls the dispatch in 
the corridor, we run an incredibly reliable railroad, and so do 
the nine commuter railroads that we dispatch.
    Mr. Davis. This is why I am going to have a roundtable next 
week with the rails and with folks who represent Amtrak because 
I want to get people together. I mean, I have heard that it is 
maybe a short shunt issue.
    Mr. Anderson. Well, there is a shunting issue, but actually 
the FRA and Ron Batory have really been pretty aggressive with 
the railroads about the shunting issue. But overall, it is 
freight train interference.
    And until Congress decides that the 1970 law that gave us a 
preference at incremental cost is going to have teeth in it, 
and that we are required to be operated on time, we won't see a 
change in that.
    And you are not going to be able to grow a transportation 
product--I have spent my whole life in transportation career--
if you don't run on time, you are not going to have a product. 
Because that is what you sell.
    Mr. Davis. So Mr. Anderson, what you are telling me is, 
there is nothing Amtrak can do, nothing its board of directors 
can do, nothing that anyone along those lines can do in your 
agency to help address this? My issue is going to be going 
directly to the CN, directly to the UP, directly to any other 
rail line that runs through my district?
    Mr. Anderson. That is going to be the answer. Now, I will 
say that we have a host railroad group at Amtrak that works 
very closely with the host railroads where we try our best to 
adjust our schedules, adjust our consists, and work with them, 
but we are going to need a longer term solution because you 
could really grow passenger rail and all the jobs that these 
folks represent, if we had access to the short-haul markets 
around the U.S. in dense, urban corridors.
    And the answer is going to have to be enforcement of our 
preference rights and then some sort of a joint cooperation 
agreement where we make investments, like we did in Chicago to 
St. Louis, but really come with real benefits. And we haven't 
gotten the benefits of that investment.
    Mr. Davis. No, we haven't clearly. We are still making some 
of those investments----
    Mr. Anderson. We are.
    Mr. Davis [continuing]. In the Springfield area to 
consolidate tracks, and that is a great project. I have been 
working on it since before I even got to Congress. But it is 
very frustrating because I hear a lot of talk about the 
passenger rail service in urban areas. I don't represent urban 
areas.
    I represent many urban areas, and I represent rural 
America. The key is, how in the world are we going to get a 
partnership to exist that is going to allow us to have thriving 
passenger rail service that goes beyond just the commuter rail 
service in our urban areas?
    Mr. Anderson. Well, Amtrak can't do commuter. That is what 
we do. We--if you look at where our ridership is strongest, it 
is the rural areas, 300 miles--from 300 miles in to cities, and 
that is our bread and butter on the long distance actually. 
That is where 90 percent of the people on the long-distance 
travel. So it is our lifeblood.
    Mr. Davis. Well, we want to see you succeed, we want to see 
passenger service grow, and we want to see on-time performance, 
especially on those two routes. So we want to work with you.
    Mr. Anderson. He gave you the answer with a private right 
of action.
    Mr. Davis. Well, thank you very much. And I yield nothing 
back to you, Mr. Chairman.
    Mr. Lipinski. Thanks for nothing. The Chair will now 
recognize Mr. Cohen for 5 minutes.
    Mr. Cohen. Thank you, Mr. Chair. I have been a fan of train 
transportation since I was a child and a supporter of Amtrak. 
It is important for America.
    One of the parts of passenger service that has made it so 
wonderful to Americans over the centuries has been the fine 
dining service and the opportunity to go on the train and live 
and have certain style. When I was 10, my father and I took the 
City of New Orleans from Memphis to Champaign-Urbana, got off 
the train, spent the night at the Inman Hotel with a pigeon on 
our windowsill. Got up the next morning very early to get on 
the Panama Limited so we could enjoy the outstanding French 
toast that they served on the way into Chicago. Came back on 
the Panama Limited, had one of the thickest, finest filet 
mignons.
    Now Amtrak is cutting out dining service. This is 
shortsighted and foolish. It is like Delta Air Lines taking 
away amenities to passengers on their airplanes and making air 
traffic more like traveling on a bus.
    Mr. Mathews, you have had people contact you and let you 
know about their thoughts about the elimination of food 
service, allegedly to try to get more millennials who don't 
like to sit with others and want to just look at their phones. 
What have your people told you about the elimination of food 
service?
    Mr. Mathews. Mr. Cohen, thank you for the question. 
Reaction has been--we will call it charitably, we will call it 
mixed. I have a stack of letters in my office from folks who 
recount experiences just like the one you did. They look back 
fondly at some of the meals that they enjoyed and the people 
that they met.
    To some extent, one of the things that is missing, it is 
not just the food, it is the experience. It is the shared 
experience of meeting people on the train and having that 
shared meal, which in the modern era has become increasingly a 
precious thing.
    Because we don't come together in public spaces very often. 
The interesting thing is that, yes, we have had some 
millennials who will tell us that they would prefer not to 
visit with other people, but have probably had an equal number 
of millennials tell me that that is the part they enjoy.
    In fact, my own son, before he was an adult, made a point 
of traveling on a different reservation at dinner than we had, 
because he wanted to meet other people on the train. And he 
would come back and tell us who he met that day at lunch or at 
dinner.
    So it is a very, very individual thing, but I have got 
stacks of letters in my office from folks who really don't want 
to see that pass. They understand that maybe we can't have the 
big thick filet anymore, but the idea of sitting at a table 
with no table cloth, a plastic bag, a pile of plastic trash, 
that is just not what they were looking for and certainly not 
what they paid for.
    Mr. Cohen. You have 79,000 signatures?
    Mr. Mathews. It is actually a little more than that now, 
sir.
    Mr. Cohen. People want to have the food service?
    Mr. Mathews. Yes, sir.
    Mr. Cohen. When you go on a Pullman car, you get food, but 
you expect to get prepared food, not paper-sack food.
    Mr. Mathews. Paper-sack food is clearly not what anyone was 
paying for on that service.
    Mr. Cohen. Thank you. Mr. Anderson, there was this backlash 
in June of 2018, and you modified it, I think, in July of 2018. 
Did that backlash not affect you in understanding that a lot of 
people enjoy that experience and that is part of what makes 
train traffic passenger rail service so nice?
    Mr. Anderson. I didn't turn my thing on. You know, we do 
this based on market survey data and customer feedback. So we 
give a survey to all of our customers online after their trip, 
and we adapt our service to what customers tell us. And we do 
it--we don't do it on anecdote. We do it based on data. And our 
ridership has grown strongly this year across the board.
    Mr. Cohen. I travel on Amtrak, the Acela, probably six 
times a year----
    Mr. Anderson. Thank you.
    Mr. Cohen [continuing]. And have done that for 12 years. I 
don't think I have ever got one survey from you. So I don't 
know if you are not doing it on Acela in the New York run. I 
don't know where you are doing it, but it is a nice part of 
travel. In your statement, you said, ``we remain focused on 
customer service and this organizes our efforts every day as we 
strive to provide the most appealing transportation choices 
possible.'' Let me just remind you, sir, the last time you were 
testifying and I was questioning, you promised me, you assured 
me that Delta, when they merged with Northwest, would not leave 
the Memphis hub, that the Memphis hub was there in perpetuity, 
that you loved Memphis, that you loved the Rendezvous, that you 
liked Arnold Perl and you would not leave Memphis, that the 
Amsterdam flight, from Memphis to Amsterdam nonstop, would not 
stop. Those weren't true.
    So I have a problem respecting what you say here, and I 
think you really should consider the humanity and the romance 
and the appeal of the train travel with food, which is 
important and good, and not just do it like Delta Air Lines 
that took all the meals away, stuffed us into planes worse than 
Federal Express puts packages on their airplane.
    Fred Smith treats his people better than you treated people 
on Delta, and I hope you don't continue that on Amtrak. I yield 
back the balance of my time.
    Mr. Lipinski. The Chair will now recognize Mr. Fitzpatrick 
for 5 minutes.
    Mr. Fitzpatrick. Thank you, Mr. Chairman. Mr. Anderson, 
thank you for being here. Question for you. Many of my 
colleagues on both sides of the aisle were disturbed with the 
closure of the Riverside call center. We have call centers in 
our region in southeastern Pennsylvania, in the Philadelphia 
region.
    Can I assure those workers that what happened in Riverside 
will not happen in Philadelphia?
    Mr. Anderson. Would you repeat that? I have a hearing----
    Mr. Fitzpatrick. Yeah. So the call center in Riverside, the 
closure----
    Mr. Anderson. Right.
    Mr. Fitzpatrick [continuing]. Was concerning to a lot of my 
colleagues, Republican and Democratic alike.
    Mr. Anderson. Yep.
    Mr. Fitzpatrick. We have call centers in our region, in 
southeastern Pennsylvania, and I want to know if I can get your 
assurance that what happened in Riverside will not happen in 
Philadelphia?
    Mr. Anderson. We actually purchased a call center and made 
a pretty big investment in that call center as the main call 
center for Amtrak. So that is a permanent part of the 
infrastructure. Look, what is going on in America today is not 
something that is my making. We sell 90 percent of our tickets 
digitally now, and that is going to continue to grow. Everybody 
wants to communicate and do business with you through their 
phone.
    And our call volumes have been dropping and they will 
continue to drop. And once we roll out the new self-service 
devices that are being programmed and built today, to all of 
our stations across the system, look, Americans are going to a 
digital world that is self-service. I mean, we can ignore that, 
but it will be at our peril.
    Mr. Fitzpatrick. But that doesn't impact the customer 
service aspect of this. You still need human beings for that. 
Would you agree?
    Mr. Anderson. No. It does. And it did in the airline 
industry, and it will at Amtrak. People want to communicate 
with you and transact all their business over their phone.
    Mr. Fitzpatrick. Well, clearly customer service cannot be 
digitalized. Purchasing tickets can.
    Mr. Anderson. Well, purchasing tickets and doing all your 
interactions with Amtrak on your frequent flyer account, store 
credit card, filing complaints, whatever it is, that is the way 
people want to do business with us. That is--and we are making 
big investments----
    Mr. Fitzpatrick. Sir, when it comes to customer service, I 
respectfully disagree.
    Mr. Anderson. Well, on the train, different question. On 
the train, that is where our customer service really is strong 
at Amtrak and our employees do a very good job. We just have to 
give them better tools and better equipment. But our customers 
rate our employees on the train very high. But most of our 
customers, their only interaction with us from a customer 
service, human standpoint is on the train.
    Mr. Fitzpatrick. I will leave that for the moment. I want 
to shift to SEPTA. My colleague, Mr. Smucker, started down this 
road. In southeastern Pennsylvania, three of SEPTA's lowest 
performing regional rail lines operate on Amtrak-owned track. 
Do you believe that Amtrak has a responsibility to ensure that 
service for tenant railroads is not unduly disadvantaged by 
Amtrak's service?
    Mr. Anderson. Well, we actually dispatch on the corridor at 
about a 98-percent reliability. So I would have to understand 
where you got your data and what you're tracking. Because we 
have responsibility for dispatching onto the corridor and off 
of the corridor. And our dispatch numbers on and off the 
corridor are quite high.
    Mr. Fitzpatrick. Do you believe that SEPTA has a legal 
right under Federal law to run over Amtrak's Northeast Corridor 
lines, or is that at Amtrak's discretion?
    Mr. Anderson. No, they have--look, this is in the 
regulations. We have the Northeast Corridor Commission. All the 
railroads have slots, and we all share the corridor with Amtrak 
running the maintenance of way in the dispatch.
    Mr. Fitzpatrick. But you believe it is their legal right, 
or is that at Amtrak's discretion?
    Mr. Anderson. No, I believe it is the legal right of not 
just them but MBTA, all the commuter railroads up and down the 
corridor who have their lines that come on to the corridor, 
have the right to use the corridor, and that is why we have the 
Northeast Corridor Commission, which SEPTA is a member of, 
which governs--and DOT is a member of that--which governs the 
use of the corridor.
    Mr. Fitzpatrick. And what do you view as Amtrak's role and 
responsibility in working with commuter lines like SEPTA? SEPTA 
is a huge part of our community. A lot of people rely on it, 
and oftentimes as you are well aware, sir, you are at odds with 
the commuter rail lines like SEPTA.
    Mr. Anderson. I disagree with that. I don't think we are 
at--now, we have one issue with SEPTA over the station issue. 
But if you look----
    Mr. Fitzpatrick. Would you elaborate on it?
    Mr. Anderson. Well, this is what I described to your 
colleague earlier. But, no, we do well with our partners up and 
down the corridor. It is the busiest commuter railroad in the 
world, and we have about a 98-percent dispatch reliability on 
and off the corridor, and Amtrak is doing a very good job 
maintaining the corridor the last 3 years.
    We actually had our capital replacement charges taken to 
100 percent by all the States and railroads up and down the 
corridor. So I actually think we do a good job running the 
corridor. It is a busy railroad, and it has a huge backlog of 
infrastructure work, $40 billion. If we could get on with it, 
it would be better for your railroad and all the other 
railroads that use the corridor.
    Mr. Fitzpatrick. So before yielding back, Mr. Chairman, Mr. 
Anderson, back to my original point of the call center, I will 
tell you surely, yeah, many of us are purchasing our tickets 
digitally. There are certain facets that cannot be replaced by 
a machine or a robot, that we need human beings to be on the 
phone.
    And customer service is always going to be human being-
driven, and I just implore you to stand by what you committed 
to me today, that the Philadelphia call center will not be 
harmed in any way.
    Mr. Anderson. Got it.
    Mr. Mathews. May I respond to Mr. Fitzpatrick for a moment?
    Mr. Lipinski. Yes.
    Mr. Mathews. Just from the passenger's point of view, we 
could not agree more. There is certainly--sure, we are all 
digitizing, and we are all using our phones to buy tickets, but 
when you look at the Amtrak network and the places that it 
serves, there are places that still don't have broadband 
internet.
    So sometimes grandma has to pick up the phone and talk to a 
human being, and frankly, the human beings at the Philadelphia 
call center are terrific, and we hear that all the time from 
our members. And they are disappointed with some of the 
outsource service that they are getting, because they are not 
getting the same level of service or understanding of rail.
    Mr. Fitzpatrick. Sure. And moreover the senior population, 
I got to imagine, is purchasing their tickets through calling 
in and not----
    Mr. Mathews. That is correct, sir.
    Mr. Fitzpatrick [continuing]. The internet.
    Mr. Mathews. That is correct, sir.
    Mr. Lipinski. The Chair now recognizes Mr. Lynch for 5 
minutes.
    Mr. Lynch. Thank you, Mr. Chairman. I want to thank all the 
witnesses for your willingness to come for this committee and 
help us with our work.
    So I am a former iron worker president for Local 7 in 
Boston. I worked very closely with all of my rail brothers and 
sisters in various unions, and I was in the State legislature 
when Amtrak had the contract for our commuter rail, Mr. 
Anderson. And the reason that Amtrak no longer has that 
commuter rail contract and we went with someone else was 
because the hostile relationship that Amtrak had with the rail 
unions, because of the bad relationship there.
    They voiced many of the complaints here about union-busting 
and, you know, lack of respect and consideration, lack of a 
willingness to work with the unions in the area, so we just had 
to suspend the contract with Amtrak because we couldn't deal 
with them. Then we brought in another firm that had a good 
relationship and agreed to work with the unions, and at least 
that relationship has gotten very much better.
    We still have the oldest rail system, one of the oldest 
rail systems in the country, so we have our problems, but at 
least now we have labor and management working together. So, 
you know, what I am hearing here today from my union brothers 
is not good. It sounds like nothing has changed at Amtrak, and 
you know, I agree with my colleagues here on both sides of the 
aisle that we don't want our rail workers to be low-wage, low-
pay, low-benefit workers. We want them to be treated with 
respect.
    And so, you know, that is not how we roll in America today. 
That is not what we expect of--you know, we give Amtrak special 
privileges and special courtesies, and we try to work with you 
more as a utility than a competitive environment. And we expect 
that our workers, whatever State, that work for Amtrak, will be 
treated with respect. And it is not going to go well for Amtrak 
if you continue down this road. It is just not going to. We 
have higher expectations of Amtrak, and you are not meeting 
those expectations.
    Let me get to something else here. On May 12th, 2015, we 
had an Amtrak derailment in Philadelphia. I guess the train was 
going about 102 miles an hour, causing 8 fatalities and 238 
injuries. That crash resulted in a $265 million court 
settlement between the survivors and Amtrak. Then on December 
18, 2017, a train in Washington State, the Amtrak Cascades 
passenger train derailed, killing 3 and injuring 65, and that 
crash has also resulted in multimillion-dollar settlements paid 
to victims and survivors.
    Now this January, Amtrak changed their terms and conditions 
to require mandatory arbitration for Amtrak passengers, 
including in cases of gross negligence, disfigurement, and 
wrongful death. As an attorney, I have always felt that forcing 
people into mandatory arbitration was a disincentive for 
rigorous safety precautions on the part of the operator or the 
manufacturer. Because it basically limits the rights of the 
individual injured passengers or the workers. And that is what 
I am worried about.
    Do you think these passengers were overpaid, the ones that 
lost family members on either of these derailments that I 
mentioned?
    Mr. Anderson. No, in both instances we admitted liability 
and engage----
    Mr. Lynch. I think you had to. Right? I mean, the facts----
    Mr. Anderson. No, it was the right thing to do. I was on 
the scene in DuPont, Washington, and I called the Governor and 
said, we are going to take full responsibility. So--no, I 
actually believe that if you looked at the employees, the 
employees in the railroad industry are all subject to binding 
arbitration. Did you know that?
    Mr. Lynch. Sure.
    Mr. Anderson. Yeah. It is under the Railway Labor Act. 
Right?
    Mr. Lynch. Right. You have a contract with them. These are 
passengers, though.
    Mr. Anderson. Right.
    Mr. Anderson. My point simply is----
    Mr. Lynch. This is for personal injury.
    Mr. Anderson. Are you going to let me finish?
    Mr. Lynch. I am not sure.
    Mr. Anderson. OK. Go ahead.
    Mr. Lynch. You know. You are going down a different road. I 
understand that there is an arbitration requirement there. But 
these are people who just are on their way to work. Their loved 
ones were on their way to work, or traveling to and from home. 
And so now you are going to force them, and these are basically 
adhesion contracts. To ride on Amtrak they have to accept this 
mandatory arbitration, they don't have a choice. They can't 
renegotiate what is on the back of the ticket.
    And I just think that this creates a disincentive for you 
to be as robust as possible in your pursuit of safe conditions 
on your railroad, on Amtrak. And I just think it is a 
disservice to the passengers that we care about. And it 
reflects I think a downward spiral in terms of Amtrak's 
positions.
    Mr. Regan, or Mr. Dinsdale, or Mr. Guy, do you want to 
comment on this, about the fact that they are going down this 
road in terms of mandatory arbitration?
    Mr. Dinsdale. Well, I think it makes a passenger question 
whether they want to board the train because I mean you are 
telling me right away that you don't have my safety as a 
concern.
    Mr. Lynch. Right.
    Mr. Dinsdale. You are boarding my train at a risk.
    Mr. Lynch. Just for the record, we don't allow the airlines 
to do this. We don't allow the airlines to put mandatory 
arbitration----
    Mr. Anderson. You could----
    Mr. Lynch [continuing]. For those families.
    Mr. Anderson. It is allowed under U.S. Supreme Court 
precedent.
    Mr. Lynch. I understand that. But again, going back to what 
you said before, in those cases you did the right thing. 
Mandatory arbitration is not the right thing.
    I yield back.
    Mr. Anderson. We just disagree.
    Mr. Lipinski. The Chair now recognizes Mr. LaMalfa for 5 
minutes.
    Mr. LaMalfa. Thank you, Mr. Chairman. I want to come to Ms. 
Mortensen on a couple of issues there in the valley.
    You talked about success being had--being able to work with 
a private partner, the Herzog group, recently in your earlier 
comments. So are there more opportunities to see more success 
on a broader scale with this type of partnership?
    Ms. Mortensen. I think it is much more wide scale now than 
it was when I first went out to bid 20 years ago. So it is much 
more common.
    I do think there are still answers with Amtrak, if some of 
the structural limitations could be removed we should be able 
to get data. We should be able to know why costs go up. We 
should be able to collaborate and say, we have got to change 
the service, the environment is different and we need to do it 
together.
    Mr. LaMalfa. What are the barriers to doing that?
    Ms. Mortensen. The limitations on Amtrak largely section 
209 drove a lot of them because nothing can be uniquely done 
for one property, it has to be done I wouldn't say equitably--
it has to be done the same for all.
    Mr. LaMalfa. What do you call----
    Ms. Mortensen. The recent Amtrak reauthorization which 
stipulated that they had to recover all of their costs and in 
certain manners.
    Mr. LaMalfa. Well recovering costs would be seen as a good 
thing, but this is causing a barrier to--please elaborate.
    Ms. Mortensen. Well, I think it is a good thing if there is 
just a ``them'' on the other side, but when Congress asked 
Amtrak to fully recover their costs, one of the biggest places 
and you have heard Amtrak say this, is the State-supported 
route. So they really go to your constituents and grab that 
money to recover their costs because that satisfies the 
definition but it doesn't necessarily satisfy the service that 
your constituents want.
    Mr. LaMalfa. Do you see a different way to accomplish both? 
Congress being--you know, just costs being covered but with the 
dynamic you are talking about actually produce a greater 
ridership and a greater revenue that would, you know--go ahead.
    Ms. Mortensen. Well, I think it does. And I think for the 
union reps that are here, that produces more jobs. It is not 
like that money just goes into a hole. That money gets 
reinvested into the system because there are different demands. 
And so--and there are a lot of latent demands for service. So 
you really just take the marbles and move them around but put 
them back into more service.
    Mr. LaMalfa. Interesting. OK. So what should we be doing in 
Congress, I guess, to facilitate that the next go round?
    Ms. Mortensen. Well, I think some support in terms of the 
cost allocation methodology. I think one of the biggest issues 
for us is the maintenance of equipment. It is our equipment and 
we don't have a say in how it is maintained, which is unusual.
    And then the national program require that costs be 
assessed not based on how much equipment we used or how much 
labor is used to turn the wrench, but it is a proportional 
share of Amtrak's overall series of equipment. Right?
    So Stacey in California might use two train sets, but if 
the kind of train sets I have are used across the country and 
Amtrak has to allocate all of those costs, they just throw them 
all in a barrel and then re-spit them out to me, and now they 
have no relationship to how much work is being done.
    Mr. LaMalfa. Interesting. OK.
    Ms. Mortensen. And so I think certain--and I think Amtrak 
would agree that some of that is beneficial with a little more 
transparency and then it takes some of the heat off. A lot of 
it is just lack of transparency.
    Mr. LaMalfa. Being in the San Joaquin area talk to me 
please a little bit about, you know, the voters some years ago 
authorized a high-speed rail system to go from S.F. to L.A. and 
then come through the valley there. The prices tripled from 
what the voters saw: $33 billion to about $100 billion now. And 
it is many years behind, they don't even have all the land 
secured. And they have no plan to get over the Grapevine into 
L.A. with the rail.
    What do you see that this is doing to the overall 
transportation structure in the San Joaquin Valley with trying 
to keep after this high-speed rail system versus what he could 
be doing with augmenting like we talked about a higher speed 
Amtrak at 120 miles per hour.
    Ms. Mortensen. Well, I do think the State is beginning to 
look at ways of what can be built right now. We are not 
anywhere near the $100 billion purse. So making the best use of 
the infrastructure that is under construction now and will be 
completed in the next 5 years. I think there are ideas to 
operate that, perhaps not at 220 miles per hour but a more 
manageable speed.
    One thought that has come out more recently is a one-seat 
ride across where there is a train that runs faster on the 
high-speed segment rather than dumping people off at a transfer 
point, that train then carries on at a lower speed on the 
conventional corridor.
    And there are some compatibility issues that would have to 
be worked out but that would make it a very good bang for the 
buck, which goes in the direction of what you are saying.
    Mr. LaMalfa. Well, we invested so many billions though and 
what was promised to voters, it is basically a violation of 
contractor fraud that for $33 billion they were going to get a 
complete high-speed rail line from S.F. to L.A., and now it is 
just going to be a little faster portion between Merced and 
Bakersfield at many, many billions of dollars. So that is not 
what the voters signed up for.
    Ms. Mortensen. I know.
    Mr. LaMalfa. To continue down this road--basically you get 
to Bakersfield 20 minutes sooner than you would have for many 
billions of dollars and much ag land lost and parts of cities 
effected. Should we pull the pin on this thing and just try to 
upgrade Amtrak railroad that we have?
    Ms. Mortensen. I think there is an avenue forward that 
pulls back from where high-speed rail was going initially. I 
don't think it is the--and I voted no on it just to be 
transparent, but the voters voted yes. I do think there is a 
way to get there. It will take longer and we will need to build 
something usable in steps and phase it which was not planned, 
but I do think there is a way out.
    I am a troubleshooter and a puzzle person. So I think there 
is a way, but we have to get away from the idealist notion and 
make those investments and frankly those ag takes make them 
worth something. Don't just leave it stranded, put it to use 
and put higher speed trains on it and give the California 
taxpayer some benefits.
    Mr. LaMalfa. Make some lemonade out of lemons. OK.
    Ms. Mortensen. I think so. Sometimes you have to do that.
    Mr. LaMalfa. Thank you.
    Ms. Mortensen. Thank you.
    Mr. Lipinski. I now recognize Mr. Payne for 5 minutes.
    Mr. Payne. Thank you, Mr. Chairman. I would just like to 
say to Mr. Anderson, you are almost done.
    Mr. Anderson. Thank you.
    Mr. Payne. You seem to be a bit aggravated and looking at 
your watch, the clock. This is just a little time out of your 
career to speak to the Members of the United States House of 
Representatives.
    Mr. Anderson. I have spoken here many times over 25 years.
    Mr. Payne. Wonderful, wonderful.
    Let me just say that an organization's worth can be 
reflected in the morale of its workers. As someone that rides 
the Acela twice a week sometimes, four times a week, you have a 
great, great staff. But it goes a long way in working with them 
and understanding what they need for their quality of life to 
have morale, be positive. This talk of union busting is just 
really, really troubling. But I just wanted to put that on the 
record.
    But in your testimony you highlight the need for Amtrak to 
upgrade and replace its aging feeder trains. What consequences 
do you foresee if Amtrak does not refleet and what effect do 
you think it will have on the passengers?
    Mr. Anderson. Congressman, thank you for your remarks. We 
are in the midst of the largest refleeting in Amtrak's history. 
So part of what we are trying to do is conserve our cash and 
our balance sheet now we just got an investment grade upgrade 
because we bought the new locomotives for the national network, 
the Siemens Charger locomotives, which will ensure that the 
long-distance network and the national network has a really 
good locomotive fleet. So that was number one.
    Number two, is the new Acela train sets, that is 29 of 
them, we will start delivering in 2021. They are being made in 
New York. Number three, we have got to replace the Amfleet I 
fleet which is the Northeast Regional fleet in the corridor, it 
has to be replaced, it is going to reach of the end of its 
life. We have--we get some criticism for holding cash on our 
balance sheet, but we are holding that cash because we need to 
spend $2 billion to refleet the Northeast Corridor and the 
State-supported network.
    We aren't going to ask our State partners to help fund 
that. We want to fund it directly from Amtrak, but it is 
probably the most critical thing we need to do in the corridor 
is replace the Amfleet I's and Amfleet II's, I think that order 
and the tough thing is there are just not many people who make 
this equipment, but we should have that order placed in the 
next 6 months.
    And we hope to go to modern unit trains much like Europe, 
you know, where you have--basically you don't need a cab car or 
a cafe car for the corridor. It would be much like the Acela in 
the regional fleet.
    And then our goal is once we do that is to have more stops 
on the corridor and connect more cities up and down the 
corridor, and have the flexibility with a lighter weight, less 
expensive, more energy efficient, less emission train set to be 
able to do the expansion that the national network really 
needs.
    And we have all of those locations identified where 
corridor service with a modern train set could be very 
effective and help us grow Amtrak, grow Amtrak jobs and serve 
the American public more effectively.
    Mr. Dinsdale. Mr. Chairman, could I comment on something 
Congressman Payne asked?
    Mr. Lipinski. Yes. Go ahead.
    Mr. Dinsdale. In regards to the morale, a few years back 
Amtrak brought a consultant on the property to work with labor 
and management and through this work we were able to increase 
the revenue. It was in my written and oral statement. And what 
we did is we asked six employees that work on the train to come 
in and to create what was called Just for You Meals, meals that 
coach passengers could eat at their seat on their lap because 
they couldn't get into the dining cars. And this created a 
great amount of revenue.
    But the point was this, we told management we need to get 
the employee buy-in on this. This is how we do it. These six 
people came in and in 4 hours they created these meals, 
breakfast, lunch and dinner that ran between $8 and $15 in 4 
hours, something that Amtrak couldn't do in 40 years. So this 
has been--the carpet was pulled out from under them, we got the 
buy-in for a couple of years. We created new revenue in the 
millions on one train--the Coast Starlight--and the people were 
engaged. Now they see that is no longer done.
    Not only that, the abolishment of all the jobs that we are 
getting, 89 coming, the 500 in Riverside, the reduction in food 
service on the trains. They see the complete opposite 
happening. We sold them on the buy-in and now they see that 
that is not happening.
    Thank you.
    Mr. Payne. I yield back.
    Mr. Lipinski. The Chair now recognizes Mr. Espaillat.
    Mr. Espaillat. Thank you, Mr. Chairman. And thank you all 
my colleagues on the subcommittee for allowing me the 
opportunity to join you at this hearing. And thanks for all the 
witnesses for including me here also for a few minutes so I can 
revisit with Mr. Anderson a very local issue that we discussed 
in the past.
    Mr. Anderson, as you know I had serious disagreements over 
the number of billboards that Amtrak has carelessly installed 
in the 13th Congressional District along Riverside Drive. The 
district has countless numbers of billboards from 125th Street 
to the northern part of the island of Manhattan of Washington 
Heights.
    However, Amtrak was the first entity to recently and 
unapologetically sully one of the last havens of natural beauty 
in Manhattan, in the northern part of Manhattan, by installing 
a digital billboard that blocks the iconic view of a natural 
landscape overseeing the Palisades and the George Washington 
Bridge across the river to New Jersey. That directly conflicts 
with State and city conservation programs.
    And as I noted it is a scenic view for many New Yorkers and 
by the State of New York and the city of New York. In fact, it 
is right across a cemetery, maybe 100 feet from a cemetery 
where hundreds of people rest, including some of my family 
members.
    So a number of my constituents and even the local city 
council member Mark Levine has repeatedly expressed their 
concerns regarding this digital billboard and others to Amtrak, 
specifically council member Levine and others maintain that 
they had almost no notification or input from Amtrak before the 
billboard was installed.
    And I personally feel as though Amtrak's response to my 
personal communication with senior officials, including 
yourself, Mr. Anderson, left a lot to be desired. While I 
recognize the need for Amtrak to find ways to monetize its 
assets, I strongly believe that you need to come to local 
communities when you are seeking to make consequential 
decisions such as this one.
    At the very least, Amtrak could have done a better job at 
including the community and elected officials in this process. 
The community is still willing to find a compromise for the 
billboard and I hope this registers today.
    Still it is worth noting today that I have introduced 
legislation that will require Amtrak to follow local laws and 
land-use procedures for things such of this nature, as digital 
billboards. Visual pollution, much has been said about visual 
pollution and I could find no better case than this one.
    We fought for many, many weeks and months to protect the 
view of the Palisades from a foreign company that attempted to 
build above the tree lines in the neighboring State of New 
Jersey. But this digital billboard is really one that perhaps 
has a better place.
    I do have one question for you, Mr. Anderson. Are you 
willing to meet again with the community and with the elected 
officials to reconsider the placing of this billboard, an area 
that should be sacred because of its natural beauty and scenic 
view?
    Mr. Anderson. I am happy to have Amtrak representatives 
meet with you and constituents there. I think we did change the 
size of the billboard in response to community feedback, but 
the rights that Amtrak has, you know, under Federal law to use 
its property is very similar to what the Metro has in New York 
and what other railroads have.
    And, you know, our responsibility is to make sure we are 
good stewards of that asset. But we would be happy to have 
representatives meet with you or other constituents.
    Mr. Espaillat. A rose is a rose by any other name. You 
still have a billboard intrusive in a scenic view right across 
a cemetery in one of the most pristine, beautiful areas of New 
York City. And I think it is probably the worst decision. You 
could have done it somewhere else. And we are willing to work 
with you to find an alternative location.
    Mr. Anderson. I think it is clear that a lot of people are 
in line to decide what is the worst decision I have made.
    Mr. Espaillat. Put this one in the first three, according 
to me.
    Mr. Anderson. You know, you have been a real gentleman, I 
will make it first.
    Mr. Espaillat. Thank you so much. I hope you reconsider.
    Thank you, Mr. Chairman. I yield back.
    Mr. Lipinski. The Chair now recognizes himself for 5 
minutes.
    I just want to address--really one main thing we had 
earlier--actually Mr. LaMalfa had raised with Ms. Mortensen 
issues of transparency, and you know, cost transparency, for 
Amtrak. I mean, this is I think a very serious issue. Because I 
have heard this complaint elsewhere about not knowing what is 
being charged. And I think that it is something that needs to 
be worked on and perhaps legislated on in this reauthorization.
    I wanted to just end by asking Mr. Anderson as I said in my 
opening statement, I still believe that Chicago Union Station 
operation should be turned over to Metra, the commuter 
railroad. Ninety percent of the passengers that go through 
Union Station there have been a number of issues that have 
occurred there at Union Station.
    So in the meantime, Mr. Anderson, how are you committed to 
improving your operations at Chicago Union Station?
    Mr. Anderson. Good question. And we are actually I think 
making some progress with Metra on the operating agreement and 
I think we have actually come to agreement on a pretty big 
capital effort to apply for some grants to do some initial work 
in the concourses, but we dispatch their trains with a 99-
percent on time.
    Our intention is to continue to do that. At the same time 
we have invested tens of millions into the Chicago Union 
Station train hall, restoring the original building, restoring 
the roof. We are adding another entrance right now 
overhauling----
    Mr. Lipinski. The great hall looks really nice now, but 
most people don't even see that. What they are concerned about 
is their train arriving and leaving on time.
    Mr. Anderson. They do. And as I said, we dispatch Metra at 
99 percent. I mean the data is there. The dispatch rate for 
that--for their system from Amtrak dispatching is 99 percent. 
And our intention is to continue to do a good job for them in 
terms of running their trains on time.
    Mr. Lipinski. It is something that we will continue to 
discuss, especially as we move forward with the 
reauthorization.
    Mr. Anderson. Yep.
    Mr. Lipinski. I will yield back my time. Any other Members? 
There is only one Member here.
    Mr. LaMalfa, any other questions? OK.
    Seeing as there are none, I would like to thank each of the 
witnesses for your testimony today. Your contributions have 
been very informative and helpful as we move forward as we are 
now writing this reauthorization for Amtrak and also the 
surface transportation reauthorization. We will continue to 
take everything I said here into consideration and talk to you 
more moving forward.
    I want to ask unanimous consent that the record of today's 
hearing remain open until such time as our witnesses have 
provided answers to any questions that may be submitted to them 
in writing. And I want to ask unanimous consent that the record 
remain open for 15 days for any additional comment and 
information submitted by Members or witnesses to be included in 
the record of today's hearing. Without objection, so ordered.
    If no other Members have anything to add, the subcommittee 
stands adjourned.
    [Whereupon, at 1:27 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              


  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    I want to thank Chairman Lipinski for holding this hearing, and I 
want to thank our witnesses for attending.
    Today's hearing is a good opportunity to assess the changing 
landscape for intercity passenger rail service and discuss 
opportunities for improving the national network.
    As this Committee prepares to reauthorize surface transportation 
programs, it is critically important for Amtrak and passenger rail 
agencies to continue to look for ways to improve service while reducing 
costs.
    Given the limited federal dollars available for intercity passenger 
rail projects, it is paramount that projects are prioritized to 
accomplish stated national goals.
    I am encouraged that Amtrak continues to implement methodologies to 
accurately allocate operating and capital costs associated with 
Amtrak's business lines, and that they continue to ``think like a 
business'' by realizing efficiencies.
    Several commuter rail agencies have implemented competitive 
contracting for commuter rail operations and other services as a way to 
provide the highest level of service at the lowest costs.
    Doing so ultimately drives increases in ridership and more mileage 
out of the taxpayer dollar.
    I look forward to discussing how state rail agencies might seek to 
effectively implement contracting, including operations and 
maintenance, that would provide quality service and reduce costs.
    While modes such as automobiles and airplanes carry more people 
than passenger rail, we must innovate, preserve flexibility, and make 
rail more competitive and financially viable.
    Thank you again to our witnesses, and I look forward to our 
discussion.

                                 <F-dash>
 Prepared Statement of Hon. Eddie Bernice Johnson, a Representative in 
                    Congress from the State of Texas
    Mr. Chairman, as the nation's primary provider of intercity 
passenger rails services, it is important that Amtrak continues to 
modernize and provide the best quality services possible.
    I would like to focus on the future of Amtrak and the present. The 
time for high speed rail in the United States is long overdue. As 
Americans travel throughout different countries using high speed rail, 
they are shocked by the comfortable, convenient and reliable high speed 
rail services provided in other countries and ask, ``Why is this not 
available throughout America?''
    The Central Texas High-Speed Train will be the first truly high-
speed train project in the United States. This project will connect 
North Texas and Houston in 90 minutes, bridging the gap between our two 
economic powerhouses. More than 10,000 jobs will be created directly by 
the project during each year of construction, and more than 1,500 
permanent jobs will also emerge. Overall, the direct economic impact is 
expected to exceed $36 billion over the next 25 years.
    Moreover, it is clear that millions of Texans are ready to embrace 
this service. In a comprehensive ridership study, it was found that 
over 6 million Texans are expected to ride the train annually between 
2029 and more than 13 million by 2050. The vast majority of Texans who 
traveled between Greater Houston and north Texas in the last 12 months 
say that they would use the train. Only 14% of respondents stated that 
they would not consider any alternative but their personal vehicle.
    As a Texan, I know how expansive our nation is and how crucial 
long-distance transportation is to the economic health of our 
communities. The Central Texas High-Speed Train is a prime example of 
the economic benefits of passenger rail systems and the positive 
reaction of constituents.
    While it is true that some Americans are unwilling to give up their 
personal vehicles entirely, having access to reliable, comfortable, and 
safe passenger rail can help alleviate highway congestion and 
greenhouse gas emissions.
    Additionally, with the growing concern for sustainability, I am 
confident that many Americans would embrace the opportunity to take 
advantage of high-speed rail. We cannot continue to assume that 
Americans will only use cars when we do not make a viable alternative 
available to them.
    The Dallas area continues to grow in population. It is essential 
that Amtrak and state-supported rail systems have a strong federal 
partner helping them keep pace with changing demographics and 
population growth. Passenger rail services can be financially viable if 
we make the necessary infrastructure investments. The dollars put into 
such projects and improvements will yield millions in economic 
benefits.
    Mr. Chairman, the need for an efficient, reliable, and modern mode 
of transportation between American cities has never been more urgent, 
and I urge the members of this body to support investment in high-speed 
rail infrastructure. Amtrak can be a leader by continuing to join our 
efforts in Texas in bringing efficient transportation alternatives to 
our great and growing state.

                                 <F-dash>
Letter of November 12, 2019, from Constituents of Hon. Peter A. DeFazio
                                                 November 12, 2019.
    Dear Congressman DeFazio:
    My wife, Mary Maggs, and I like to travel by train. We like the 
relaxed atmosphere and the luxury of watching the scenery as we travel. 
Looking out those windows is truly the greatest show on earth. Our 
favorite train is the Coast Starlight. I am told that it is considered 
one of the ten best trains in the world, and I can see why.
    We travel in the sleeper car. We have had both roomettes and 
compartments. We like them both. We value the dining experiences in the 
dining car, meeting other passengers, other people who like to travel 
by train, and are often on long cross country excursions. Just like 
them, we can choose to travel by any means we want.
    I am not going to say that we will never travel on the Coast 
Starlight again, but, based on the downward trend in amenities for the 
sleeper car passengers, it is less likely, and we can no longer 
recommend it to our friends.
    Recent changes, especially the elimination of the parlor car, make 
it difficult to justify the cost of the ticket. The elimination of the 
parlor car, is huge. It has impacted our train travel experience more 
than any other single (bad) decision by Amtrak. With the elimination of 
the parlor car, the entire train competes for the very limited space in 
the lounge car.
    To add insult to injury, Amtrak's failure to maintain any 
reasonable standards in that car, make it even worse. Coach passengers 
camp out in the lounge car. They stake out an area with their 
belongings and leave them there for the entire day. They leave personal 
belongings to ``save'' the space for when they return. And, at night, 
they lay out sleeping bags and sleep there. At times, the lounge car 
resembles an on board homeless camp.
    If we cannot have a place to relax, to enjoy a beverage, to watch 
the scenery, to have conversations with other passengers, we are not 
going to travel on the train. It is as simple as that. I believe the 
elimination of the parlor car was one of the worst decisions Amtrak has 
ever made. Sleeping car riders are the first class passengers on the 
train. The loss of important amenities, like the parlor car, reduces 
significantly the value of that first class ticket.
    This would be the equivalent to buying a first class airplane 
ticket and learning that, while you still get the large comfortable 
seats, there would no longer be a first class flight attendant, and you 
would have to go to the back of the plane to use the restroom.
    One outstanding feature with the Coast Starlight is the employees. 
They obviously care more about the passengers than Amtrak does. They 
are simply great, even though they are prevented from being even 
better.
    The airlines provide, even coach passengers, with the airline 
magazine. Amtrak has an excellent magazine, The National. It is nowhere 
to be found on the train. Not in sleeper compartments, not in coach, 
not in the lounge. How stupid is that? Attendants try to make up for 
Amtrak providing no information to travelers about the train or the 
route. They make their own route information packets, along with in-car 
directional signs, that add enjoyment to the ride. I am told, they do 
it at personal risk. Amtrak does not approve.
    In the not too distant past we have attended wine and cheese 
tastings in the Parlor car. Beverage service was provided. One could 
have meals delivered there. One could relax and enjoy the ride. There 
were no sleeping bags on the floor, no bundles of personal belongings. 
The pressure was reduced for the lounge car as well. Passengers, 
including, coach passengers could actually enjoy it. None of that is 
available now. Why should we continue to pay for first class without 
first class amenities? Most likely we will not.
        Sincerely,
                                   Robert Warren
                                   Mary Maggs Warren

                                 <F-dash>
  Statement of Ian Jefferies, President and Chief Executive Officer, 
                   Association of American Railroads
                              Introduction
    On behalf of the members of the Association of American Railroads 
(AAR), thank you for the opportunity to submit this testimony.
    AAR has a diverse membership of freight and passenger railroads, 
both large and small. The freight railroad members, which include the 
seven U.S. Class I railroads as well as around 170 short line and 
regional railroads, account for the vast majority of U.S. freight 
railroad mileage, employees, and traffic. Amtrak is a member of the 
AAR, as are various commuter railroads that in aggregate account for 
more than 80 percent of U.S. commuter railroad trips.
    Like freight railroads, passenger railroads play a key role in 
alleviating highway and airport congestion, decreasing dependence on 
foreign oil, reducing pollution, and enhancing mobility. All of us want 
passenger railroads that are safe, efficient, and responsive to the 
transportation needs of our country.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Meanwhile, America is connected by the most efficient, affordable, 
and environmentally responsible freight rail system in the world, a 
systemoverwhelmingly built and maintained by the freight railroads 
themselves. Whenever Americans grow something, eat something, trade 
something, mine something, or make something, it's likely that freight 
railroads were involved somewhere along the line. Looking ahead, 
America cannot prosper in an increasingly competitive global 
marketplace without a best-in-the-world freight rail system.
    America can and should have both safe, effective passenger 
railroads and a safe, productive, freight rail system. Mutual success 
for passenger and freight railroads requires collaboration and a 
recognition of the challenges--especially capacity--that railroads 
face. Government efforts should balance the country's need to move 
people and goods safely and efficiently.
     Freight and Passenger Rail Partnerships: Decades in the Making
    Well into the 20th century, railroads were the primary means to 
transport people and freight in the United States, but that didn't 
last. Thanks to the huge expansion of America's highway system and the 
development of commercial aviation, private railroads were losing 
around $725 million annually by 1957--equivalent to approximately $5 
billion per year in today's dollars--on passenger service.
    These massive losses continued for years, largely because 
government regulators made it very difficult for railroads to 
discontinue unprofitable passenger rail service. In essence, for 
decades railroads were forced to lose huge sums every year providing a 
public service that fewer and fewer people chose to use. By 1970, 
passenger rail ridership had plummeted to around 11 billion passenger-
miles, down 88 percent from its 1944 peak of 96 billion, despite a 40 
percent increase in population during that time. The massive passenger 
losses were draining a rail system that was also facing unrelenting 
pressure on its freight side from subsidized trucks and barges, leading 
to railroad bankruptcies, consolidations, service abandonments, 
deferred maintenance, and general financial deterioration.
    A major goal of the Rail Passenger Service Act of 1970 (RPSA), 
which created Amtrak, was to preserve a basic level of intercity 
passenger rail service while relieving private railroads of the 
obligation to provide money-losing passenger service that threatened 
the viability of freight railroading.
    Given the huge financial drain, railroads generally welcomed the 
opportunity to largely exit the passenger business, but first they had 
to provide the backbone of today's system. Freight railroads initially 
helped capitalize Amtrak in cash, equipment, and services; these 
payments to Amtrak totaled around $850 million in today's dollars. 
Freight railroads were also required to provide preference to Amtrak 
passenger service over freight service, a benefit that still continues. 
Finally, when operating on a host railroad's tracks, Amtrak generally 
is required to pay only incremental costs with no requirement for 
capital investment for improving and expanding infrastructure 
capacity.\1\ To this day, this low track usage fee is a major indirect 
subsidy absorbed not by taxpayers or Amtrak riders, but by freight 
railroads.
---------------------------------------------------------------------------
    \1\ Agreement provisions for receiving financial incentives related 
to performance can also count as being compensatory to the host freight 
railroad.
---------------------------------------------------------------------------
    Today, freight railroads provide the foundation for most passenger 
rail. Amtrak owns approximately 730 route-miles, primarily in the 
Northeast Corridor, which account for about 40 percent of Amtrak's 
total ridership. Nearly all of the remaining 97 percent of Amtrak's 
nearly 22,000-mile system consists of tracks owned and maintained by 
freight railroads. Freight railroads also furnish other essential 
services to Amtrak, including train dispatching, emergency repairs, 
station maintenance, and, in some cases, police protection, claims 
investigation, and communications capabilities.
    In addition, hundreds of millions of commuter trips each year occur 
on commuter rail systems that operate at least partially over tracks or 
right-of-way owned by freight railroads, and most of the higher speed 
and intercity passenger rail projects under consideration nationwide 
involve using freight-owned facilities.
    Principles to Guide Passenger Rail Operations on Freight-Owned 
                               Corridors
    Each project involving passenger and freight railroads should be 
evaluated on a case-by-case basis. Projects have a better chance of 
success if certain overarching principles are followed. These 
principles should not be seen as barriers. Instead, they should be seen 
as a means to ensure what all of us want: the long-term success of 
passenger rail and a healthy freight rail system that shippers all over 
the country rely on every day.
    First and foremost, safety always comes first. Railroads are an 
extremely safe way to move people and freight, and everyone in 
railroading wants to keep it that way.
    Second, current and future capacity needs of both freight and 
passenger railroads must be properly protected. Today, freight 
railroads carry around twice the volume they did when Amtrak was 
formed. Freight corridors are expensive to maintain and many freight 
corridors lack excess capacity. Passenger rail use of freight rail 
corridors must be balanced with freight railroads' need to provide 
safe, reliable, and cost-effective freight service to present and 
future customers. To improve capacity and the safety of the rail 
network, in recent years privately owned freight railroads have spent 
$25 billion per year, on average, on maintenance and capital 
improvements, ultimately benefiting Amtrak, surrounding communities, 
and the nation a whole. In terms of expanding existing passenger 
service or improving existing passenger service levels, such goals 
typically require significant infrastructure capacity investment, 
whether based on current freight traffic levels or potential future 
traffic levels. Adding new infrastructure necessary for additional 
passenger trains is appropriately the responsibility of the public 
being served by that passenger service, not the freight railroads.
    Third, proper funding is necessary, especially as Amtrak looks to 
change and expand service offerings. As laid out in AAR's surface 
transportation reauthorization recommendations, policymakers should 
provide passenger railroads--including Amtrak--with the dedicated 
funding they need to operate safely and effectively, and to pay for 
expanded capacity when they require it. It is not reasonable to expect 
Amtrak to be able to plan, build, and maintain an adequate network that 
provides optimal transportation mobility and connectivity when there is 
excessive uncertainty regarding what its capital and operating funding 
will be from one year to the next. If Congress provides predictable and 
needed levels of federal funding support, Amtrak and its state partners 
could better deliver a future of improved reliability, enhanced 
capacity, more service, and reduced trip times.
    Fourth, all railroads are committed to providing reliable service 
to all their customers--shippers and passengers. All parties must 
recognize that the priority of Amtrak's trains over freight trains does 
not mean there will be no delays to Amtrak trains. We're all familiar 
with the high occupancy vehicle (HOV) highway lanes here in Washington. 
These lanes give preference to automobiles with more than one person 
inside, allowing them, in theory, to get where they're going with 
little or no delay. That doesn't always happen, though. Sometimes bad 
weather, unexpected heavy traffic volume, accidents, or other problems 
cause motorists in HOV lanes to be delayed. The same principle must be 
applied to the rail network: Amtrak is given preference, but preference 
cannot mean a guarantee.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    There are a number of additional considerations involved in 
freight-hosted passenger service, including liability issues and tax 
considerations.
                      On-Time Performance Metrics
    Ever since Amtrak was created, Amtrak and freight railroads have 
worked together to establish and implement the rules and procedures 
governing their interactions. Most of these rules and procedures are 
spelled out in formal bilateral operating agreements negotiated between 
Amtrak and host railroads. The agreements often include clauses that 
provide incentives and penalties to freight railroads to help ensure 
that Amtrak trains meet specified on-time targets. These basic 
operating agreements--some of which were entered into more than two 
decades ago--are now, in some cases, showing their age.
    For example, Amtrak long distance train schedules have not adjusted 
in response to the changing environment around them, including 
tremendous growth in the U.S. economy and related freight volumes. As a 
result, outdated schedules that do not reflect or respond to changing 
conditions (e.g., necessary seasonality, track work, and ridership 
patterns or needs) can give rise to misleading measurements of 
performance or an unrealistic ability to deliver on-time performance. 
The freight railroads and Amtrak are in a far better position than 
anyone else to determine, working together, how these operating 
agreements should evolve and how they should be structured.
    Keeping both Amtrak and freight trains running on time is a 
tremendously complex issue. When Amtrak was created, freight railroads 
had significant excess capacity. Since then, not only has this excess 
capacity been consumed, but the freight rail industry has spent 
massively (more than $685 billion from 1980 to 2018) to maintain and 
add new capacity, primarily in response to freight traffic growth. This 
spending includes capital expenditures and maintenance expenses related 
to locomotives, freight cars, tracks, bridges, tunnels and other 
infrastructure and equipment. While capital investments may be 
necessary to add passenger capacity, part of improving on-time 
performance is to modify Amtrak's expected running time.
    Day-to-day realities of the nearly 140,000-mile rail network come 
into play too. For example, when track conditions warrant it, freight 
railroads temporarily reduce allowable operating speed for safety 
reasons. These ``slow orders'' can delay trains of all types, but 
safety must take precedence over everything else. Similarly, railroads 
must devote sufficient time to needed track and signal maintenance. 
This often produces unavoidable delays in the short term for freight 
and passenger trains, but improves service reliability and enhances 
safety in the long term.
    The establishment and periodic review of reasonable and realistic 
schedules and determination of meaningful on-time performance metrics 
should be undertaken jointly by host railroads and Amtrak and governed 
by private, bilateral contracts that consider the unique circumstances 
of particular routes. One-size-fits-all solutions will not work on a 
network as complex or important as our nation's rail system.
    The AAR has been a long-standing participant, on behalf of its host 
freight members, in the work of the Federal Railroad Administration 
(FRA) to develop appropriate metrics and standards for measuring 
Amtrak's performance. The AAR supports the process that FRA 
Administrator Batory is taking to allow stakeholders to provide input 
and information relevant to FRA's task. The FRA is appropriately 
consulting with such stakeholders to develop a proposal and then will 
submit the proposed rules to an open and transparent comment process. 
Freight railroads commend the FRA for the steps it has already taken to 
consult with host freight railroads and Amtrak to reduce the overall 
time for the eventual promulgation of the resultant rulemaking. Freight 
railroads stand ready to cooperate fully with the FRA, Amtrak, and 
other appropriate parties as this important process continues.
                  Positive Train Control (PTC) Update
    Before I close, I want to provide this committee with an update on 
railroad efforts to implement PTC. The seven Class I freight railroads 
all met statutory requirements by having 100 percent of their required 
PTC-related hardware installed, 100 percent of their PTC-related 
spectrum in place, and 100 percent of their required employee training 
completed by the end of 2018. In aggregate, Class I railroads had 93 
percent of required PTC route-miles in operation as of October 2019. 
Each Class I railroad expects to be operating trains in PTC mode on all 
their PTC routes no later than 2020, as required by statute. In the 
meantime, railroads, in coordination with Amtrak, other passenger 
railroads, and other tenant railroads, are continuing to test and 
validate their PTC systems thoroughly to ensure they are interoperable 
and work as they should.
                               Conclusion
    Having both safe, effective passenger railroads and a safe, 
productive, freight rail system should be the common goal of all of us 
because it is in America's best interests. I am confident that together 
the freight railroads and Amtrak can find common ground that benefits 
all parties.

                                 <F-dash>
    Statement of the State-Amtrak Intercity Passenger Rail Committee
    Chairman Lipinski, and Ranking Member Crawford, I am pleased to 
submit written testimony on behalf of the State-Amtrak Intercity 
Passenger Rail Committee (SAIPRC).
    SAIPRC is a multi-agency body comprised of Amtrak, the U.S. 
Department of Transportation Federal Railroad Administration (FRA), and 
20 state member agencies from 17 states. Our mission is to promote 
collaboration, planning, and the continued growth of the state-
supported intercity passenger rail services across the country--the 
Amtrak routes 750 miles or less (off the Northeast Corridor) which are 
funded by the states in which they run.
    SAIPRC was authorized by the FAST ACT and is directed by Congress 
to oversee the ongoing implementation of Section 209 of the Passenger 
Rail Investment and Improvement (PRIIA) Act of 2008, which required 
Amtrak and the states to develop a standardized methodology for 
allocating the operating and capital costs of state-supported services. 
This methodology was first implemented in Fiscal Year (FY) 2014 and 
guides how states pay Amtrak for costs associated with each route and a 
proportional share of costs associated with more than one route.
    As Congress considers the future of Amtrak and contemplates the 
reauthorization of surface transportation legislation, the states and 
Amtrak recommend that Congress promote the expansion and growth of the 
state-supported services. Specifically, the states and Amtrak recommend 
that Congress support the collaborative efforts of SAIPRC, help address 
key challenges like on-time performance, and provide continued and 
additional funding to replace aging equipment, support investments in 
safety and reliability, and encourage economic growth.
                      The State-Supported Services
    The state-supported services are a critical and growing part of 
Amtrak's national network, connecting cities across the country and 
forming important links to the Northeast Corridor and Long Distance 
routes. The 28 state-supported services include routes in all regions 
of the country and connect city pairs like Los Angeles to San Diego, 
Seattle to Portland (OR), Chicago to St. Louis, Washington DC to 
Richmond, Boston to Brunswick (ME), Oklahoma City to Fort Worth, and 
many more. In FY 2019, the state-supported services carried a record 
15.4 million annual passengers--47% of all Amtrak riders nationwide.
    Since the implementation of PRIIA Section 209, the states have 
assumed substantial funding responsibility for the state-supported 
services. In FY 2018, the state members of SAIPRC contributed over $800 
million in operating and capital assistance to Amtrak in the form of 
ticket revenue and direct financial payments to support the Amtrak-
operated services. Since FY 2014, the states have contributed 
approximately $4.7 billion in ongoing operating and capital assistance 
to Amtrak--in addition to major investments in capital projects across 
the country.
                      The Future of Passenger Rail
    The state-supported services represent the future of passenger rail 
growth in the United States. Since FY 2007, annual ridership on the 
state-supported services has grown by approximately 3.5 million annual 
riders, a 29% increase over the last twelve years.
    Across the country, states have partnered with the federal 
government to repair and expand passenger rail corridors. For example--

    <bullet>  North Carolina completed a multi-year investment package 
in 2018, supported by a $520 million federal grant, that modernized and 
expanded the rail corridor between Raleigh and Charlotte resulting in a 
45% increase in ridership in just two years.
    <bullet>  Connecticut completed a multi-year modernization of the 
New Haven-Hartford-Springfield rail line in 2018, enabling the state to 
more than double passenger rail service in the corridor and sparking a 
48% jump in Amtrak ridership from FY 2017 to FY 2019.
    <bullet>  California, Washington, and the Midwest states completed 
the acquisition of 63 diesel locomotives in 2019, which supported the 
creation of manufacturing jobs across the country and promise to 
improve the reliability of the state-supported services.
    <bullet>  Virginia completed major capital investments to address a 
bottleneck in Richmond in FY 2018, which enabled the state to introduce 
a new round trip between Washington, DC and Norfolk and resulted in a 
57% increase in ridership year-over-year.

    Recognizing our success in growing ridership and revenue, Amtrak 
and the states recommend that Congress promote the expansion of the 
state-supported services. Amtrak and the states can work together, in 
partnership with the federal government, to improve existing corridors 
and introduce new services that complement the current Amtrak national 
network. In turn, these investments will improve the reliability of 
passenger rail, expand ridership, and support economic growth across 
the country.
                     Collaboration and Transparency
    The growth and expansion of the state-supported services requires 
strong and continued collaboration among Amtrak, the states, and the 
FRA. SAIPRC is focused on enabling its members to work together to 
address shared problems and to provide states with the information they 
need to make smart business decisions and improve their state-supported 
services.
    SAIPRC has created four working groups comprised of SAIPRC's member 
organizations to help achieve these goals.

    <bullet>  The Marketing Working Group is focused on developing 
shared strategies to grow ridership and revenue.
    <bullet>  The Equipment Working Group collaborates on major 
investments in new rolling stock and ensures that existing equipment is 
maintained in a state of good repair.
    <bullet>  The Cost Sharing Working Group is focused on improving 
the transparency of costs and ensuring the accuracy of the cost sharing 
process.
    <bullet>  The On-Time Performance Working Group collaborates to 
identify and reduce causes of delay.

    In recent years, Congress has provided strong support for SAIPRC. 
The states and Amtrak are grateful for that support and request that 
Congress continue to provide annual funding for SAIPRC's activities, 
while encouraging SAIPRC's members to increase transparency and 
continue refining the PRIIA 209 methodology.
                          Funding Partnership
    The growth of the state-supported services also requires a strong 
partnership with the federal government. While states have assumed 
substantial funding responsibility for ongoing operating and capital 
investments, the federal government must continue to fund the one-time 
capital investments that are needed to maintain rail infrastructure, 
replace aging passenger railcars and locomotives, reduce delays, and 
expand service to communities across the country.
    Over the last few years, Congress has demonstrated strong support 
for intercity passenger rail through legislation and annual 
appropriations. The passage of the FAST Act represented a significant 
milestone for passenger rail, by authorizing three new discretionary 
grant programs aimed at improving the nation's passenger and freight 
rail network:

    1.  Consolidated Rail Infrastructure and Safety Improvements 
(CRISI) Program
    2.  Federal-State Partnership for State of Good Repair (SOGR) 
Program
    3.  Restoration and Enhancement grants

    Over the last two years, Congress has appropriated $848 million and 
$650 million to the CRISI and Federal-State Partnership for SOGR 
programs respectively. Thanks to this strong federal support, Amtrak 
and the states, in partnership with the freight railroads, are pursuing 
important projects to further improve the safety, reliability, and 
efficiency of rail service.
    While Amtrak and the states appreciate these robust levels of 
funding, additional federal investment is still needed to support 
future growth. Recent applications to key discretionary grant programs 
have far outstripped available funding levels and states have 
identified numerous projects that need additional funding to advance to 
construction. In order to sustain the economic growth that results from 
passenger rail investments, Congress must increase annual funding 
levels for Amtrak's annual grant and the discretionary programs for 
passenger rail, and work in partnership with the States and Amtrak on 
strategies to replace aging railcars and locomotives.
                          On-Time Performance
    Despite the recent growth of the state-supported services, frequent 
delays and poor on-time performance are a significant challenge facing 
the Amtrak national network. The U.S. freight rail network is an 
important economic engine for the country. In many cases the state-
supported services run in territory controlled by freight railroads and 
use tracks that are also used by freight trains. Under these 
conditions, freight and passenger trains may conflict with one another, 
creating delays for riders and potential challenges for freight 
activity.
    Amtrak and the states urge Congress to advance policies that 
improve the on-time performance of passenger rail service. For example, 
federal investment in highway-railroad grade crossing eliminations is 
an important tool for enhancing safety and reliability, while federal 
grant programs can support the elimination of capacity bottlenecks, 
which helps mitigate conflicts between trains, reduce delays for 
riders, and facilitate the movement of freight.
                               Conclusion
    The state-supported Amtrak services are a major component of the 
Amtrak national network and demonstrate that the growth of passenger 
rail corridors is not isolated to any one part of the country but 
extends to every region in the United States. SAIPRC supports a 
critical partnership between the states, Amtrak, and the FRA so that we 
can work together to nurture these services, expand ridership, and 
support mobility and economic growth.
    The new discretionary grant programs that Congress established as 
part of the FAST Act have been extremely beneficial in moving many 
projects forward. Amtrak and the states thank Congress for the good 
work done in this area and would ask that these programs be continued 
and expanded. SAIPRC looks forward to working with Congress as it 
begins reauthorization of surface transportation legislation. We 
believe that rail should be part of any surface bill and, as your work 
continues, please feel free to look to the states and SAIPRC as a 
resource.
    I appreciate the opportunity to submit this written testimony and 
SAIPRC looks forward to the opportunity to address this subcommittee 
again in the future.
        Thank you,
                                      Jennifer L. Bergener,
   Chair, State-Amtrak Intercity Passenger Rail Committee (SAIPRC),
  Manager Director, Los Angeles-San Diego-San Luis Obispo (LOSSAN) 
                                              Rail Corridor Agency.



                                Appendix

                              ----------                              


Questions from Hon. Peter A. DeFazio to Richard Anderson, President and 
   Chief Executive Officer, National Railroad Passenger Corporation 
                                (Amtrak)

    Question 1. Amtrak's FY 2020 grant request stated that, ``Comparing 
February 2019.with the same month in 2018, delays to Amtrak trains due 
to Private Cars (excluding one delay related to a service disruption) 
have declined by over 87%.'' Because the number of delays were not 
provided for the years referenced, it is difficult to assess the 
frequency of delays. However, the October 14, 2019 Amtrak Inspector 
General's report (OIG-A-2020-001) states that Amtrak's Finance 
Department ``provided data showing that private railcar operations 
resulted in more than 2,800 minutes of delay in the first 5 months of 
FY 2018--an average of 21 minutes per move.'' Given that Amtrak has 
data on these delays, please provide, for each delay attributed to a 
private car in FY 2018, the location, date, and number of minutes of 
delay.
    Answer. The itemized data requested is commercially sensitive. 
However, we can release summary information to staff via a briefing. 
However, FY 2018 showed a 43.4% reduction in private car-related delay 
minutes, as compared to FY 2017.

    Question 2. Mr. Anderson knows that airlines make a lot of money 
off of business class and first-class services. Airlines invest in 
premium seating, dining, and the overall experience for passengers--and 
passengers are willing to pay for that service, sometimes 10 times the 
cost of a coach seat. But Amtrak seems to be going the opposite 
direction for and reducing premium services across the board--like 
parlor and dining car meal service--for their overnight and first class 
passengers. What onboard services bring in the most revenue for Amtrak? 
Has Amtrak done any polling or research to see if some passengers would 
be willing to pay more for premium services, and what those services 
might be, on the long-distance routes? If so, please provide that data 
to the Committee.
    Answer. Amtrak offers a variety of onboard services across the 
three service lines and addresses the unique customer needs in each 
segment of the business. For example, premium product offerings defined 
as First Class are offered only on Amtrak's Acela service in the 
Northeast Corridor. Premium products in the long distance network are 
represented by sleeper car services, with a distinction in product 
quality between bedroom and roomette products. Amtrak gathers customer 
feedback via many channels including careful monitoring of demand 
patterns which represent what customers are willing to pay for Amtrak 
services. Market research is gathered on service attribute details from 
current and potential customers, and Amtrak continues to identify and 
develop product enhancements addressing what customers indicate they 
find valuable to them. Through pricing and inventory management, Amtrak 
works to assure that all its product offerings are optimally priced in 
the marketplace.

    Question 3. In June 2019, I wrote to you raising concerns for the 
announced reduction to the Amtrak Police Department (APD) workforce, 
requesting specific information about the assessment Amtrak used to 
determine the size of the cuts, how the cuts would be implemented, and 
their impacts to safety and security. In his October 2019 reply, Mr. 
Stadler wrote that Amtrak determined that more officers are needed to 
patrol trains, not just stations, and that the changes being made to 
the police force would ``reallocate'' their physical presence to 
provide a more visible deterrent to the crimes Amtrak is experiencing.
    3.a.  At the hearing, you stated Amtrak has data that shows it 
``dramatically increased the number of policemen riding on our trains, 
visible in our stations.'' Please provide that data.
    Answer. Amtrak's first priority is to provide a safe and secure 
experience for our customers and our employees. Amtrak has more than 
450 police personnel. We want the right level of safety and security 
for our customers and employees, including keeping our passengers and 
employees safe on trains and in stations, securing right-of-ways, and 
deterring threats. Our APD staff is spread out across our entire 46-
state, 21,000-mile network, and we continually work to ensure they are 
stationed where they can have the biggest impact on safety and security 
of our passengers.
    To that end, our data have shown an increase in safety incidents on 
trains, in stations and along rights-of-way. The goal or our recent 
redeployments is to have more APD presence at these locations, as 
uniformed police presence is proven to deter criminal activity. This 
means more uniformed personnel on trains and in stations, in the areas 
where the risk is highest. We identified the appropriate number of APD 
staff for each location based on six criteria: ridership; miles of 
right-of-way; Part A criminal offenses (person); Part B criminal 
offenses (property); non-critical incidents, including medical 
emergencies; and calls for service (911). Our rationale is that with 
more APD staff in high-priority areas making them more present to the 
most passengers and employees, we can deliver the same or better safety 
and security performance while honoring on our Congressional mandate to 
deliver these services more efficiently. Since we've deployed officer 
in the manner, year-to-date train rides have increased 75 percent or by 
almost 50,000 additional segment rides, and overall patrol activity has 
increased by 67 percent resulting in 138,000 additional activities. We 
will continue to carefully monitor safety incidents across our network.

    3.b.  Please indicate the number of APD employees employed on May 
3, 2019 and on November 1, 2019 and specify how many of those were 
uniformed officers. If Amtrak intends to continue reducing the size of 
the APD workforce, please indicate the target number of APD employees, 
including how many of those will be uniformed officers.
    Answer. Please see attached table for a breakdown of force size at 
various dates.

Questions from Hon. Peter A. DeFazio on behalf of Hon. Anthony G. Brown 
 to Richard Anderson, President and Chief Executive Officer, National 
                Railroad Passenger Corporation (Amtrak)

    Question 4. MARC's Penn Line operates on Amtrak's Northeast 
Corridor, and its operations are limited in terms of speed, frequency 
and reliability by the Civil War-era B&P Tunnel in Baltimore. The 
replacement of this tunnel is required to run more MARC trains, which 
will triple MARC Penn Line ridership and greatly enhance the economic 
and transit-oriented development potential along the corridor. The B&P 
Tunnel has been identified as the second priority for Amtrak outside of 
the Gateway Program, and it has a completed EIS from 2017 for its 
replacement. However, it is my understanding that Amtrak has made 
limited progress to advance the design of the tunnel, address community 
concerns or identify a funding strategy since spring 2017.
    What progress has been made to advance the B&P Tunnel over the past 
12 months?
    Answer:
    <bullet>  Continued development of advanced utility, track (Charles 
Interlocking Configuration), and bridge (Franklintown, Lafayette, 
Warwick) design.
    <bullet>  Developing Benefit-Cost Analysis (BCA) for Project to 
support future grant applications.
    <bullet>  Engaged property owner/real estate developer for key 
properties.
    <bullet>  Coordinated with BGE (local utility company) regarding 
utility relocations and new utility service.

    Where will this project be in terms of development at the end of 
2020?
    Answer. The project will continue the engineering refinements and 
high-level project delivery strategies to address community concerns, 
reduce overall project costs, and increase operational efficiencies. 
The project team continues to analyze and compare the overall benefits 
and costs by engaging key stakeholders, including the FRA, Maryland 
Department of Transportation (MDOT), state and local officials, and 
Norfolk Southern and CSX representatives. In FY20, the project will 
continue design development of major project elements, including the 
Franklintown and Warwick Undergrade Bridges, CSX Bridge Pier 
Relocation, and Track A Winans to Bridge Upgrade; assess existing 
municipal infrastructure and subsurface utility engineering; perform 
additional geotechnical investigations for the Tunnel; and pursue 
strategic/priority right-of-way acquisitions.

    What hurdles exist to move forward on this project?
    Answer. A significant hurdle is obtaining commitments to providing 
financial resources by funding partners. In the near term (FY20-FY21), 
Amtrak has funding to progress design; however, design review 
agreements and executed Memoranda of Understanding with numerous public 
and private entities are required and will require considerable effort 
to complete.

 Question from Hon. Grace F. Napolitano to Richard Anderson, President 
 and Chief Executive Officer, National Railroad Passenger Corporation 
                                (Amtrak)

    Question 1. The freight rail industry is deploying increasingly 
long trains that present substantial safety risks while creating 
difficulties for communities when they block grade crossings for 
prolonged periods. The GAO recently reported that average train length 
has increased by approximately 25 percent since 2008, with carriers 
regularly operating trains as long as three miles. Further, the 
implementation of precision scheduled railroading has also led to 
greater reliance on the operation of fewer, but longer, trains.
    At the hearing, I asked you about the impacts of long trains on 
Amtrak's performance, given that Amtrak and the freight railroads 
generally operate on the same track. Can you expand on how lengthy 
freight trains and precision scheduled railroading have impacted 
Amtrak?
    Answer. Efficiency is essential for a national rail system that 
benefits passengers and freight customers alike and Amtrak has 
frequently supported efforts to enhance the efficiency of this system. 
We have undertaken joint initiatives with host railroads to facilitate 
more effective dispatching and submitted joint applications for grants 
to expand rail network capacity. We understand that Precision Scheduled 
Railroading (or ``PSR'') is an approach to operations implemented by 
some freight railroads seeking to increase operating efficiency while 
also improving economics for the company. There are examples of this 
approach leading to more efficient operations for both the freight 
carrier and Amtrak passengers.
    However, it has been our experience that the operational changes 
associated with some freight railroads' implementation of PSR can lead 
to just the opposite: a network less fluid than it was before and more 
likely to cause significant and disruptive delays to passengers.
    Often the inefficiencies are driven by the operation of trains too 
long for the existing rail infrastructure. Historically, railroads 
operated trains that could efficiently pass each other in sidings. One 
operating technique typically deployed as a strategic priority of PSR 
is the lengthening of freight trains, regardless of the length of the 
existing sidings on the line. This is occurring in many places across 
the rail network today, as confirmed by a recent report from the 
Government Accountability Office.\1\
---------------------------------------------------------------------------
    \1\ United States Government Accountability Office, ``Freight 
Trains Are Getting Longer, and Additional Information Is Needed to 
Assess Their Impact,'' May 2019.
---------------------------------------------------------------------------
    Whenever a freight train and an Amtrak train are approaching each 
other on a single track, one of the trains must enter a siding to let 
the other pass. By law, except in emergencies, freight railroads must 
provide Amtrak with preference over freight transportation. However, 
when a freight train is too long to fit in the siding, there is only 
one option: the Amtrak train must enter the siding and wait for the 
freight train to pass on the main track. Each time this happens, delays 
mount as our passengers sit and watch the freight train pass by.
    In other words, an operating practice aimed to benefit freight 
railroad shareholders and executives occurs at the expense of delayed 
Amtrak passengers.
    This happens on several Amtrak routes, and on one service the 
collateral damage to Amtrak passengers from the applications of this 
PSR practice is particularly acute.
    The Missouri River Runner consists of two roundtrip daily trains 
funded by the State of Missouri, serving 170,000 riders between St. 
Louis and Kansas City, offering a convenient, efficient, and 
sustainable alternative to other travel modes.
    However, as a result of recently deployed PSR ``long-train'' 
practices, Amtrak passengers have experienced extreme delays from 
freight trains. From April to August 2019, delays caused by freight 
trains rose more than 500%. Only 38% of Amtrak's customers were on-time 
in August and September, a 43-point decline from the prior year. Most 
of these customers averaged more than an hour late arriving at their 
destination.
    Driving this increase in freight train delays is the operation of 
freight trains that are significantly longer than the capacity of the 
line's sidings. Such decisions reduce network fluidity and limit the 
resiliency of the operation, leading to compounding delays when there 
are freight train failures or other issues that cause trains to block 
the entire line. On the Missouri River Runner, Amtrak trains are 
regularly either forced into sidings to wait for freight trains to pass 
or to follow slower freight trains for miles until there is an 
opportunity to overtake the freight train, if at all.
    Missouri River Runner trains were delayed 133 hours by freight 
trains in August and September alone, even though the host's freight 
traffic declined in the third quarter. These delays are usually 
extremely disruptive to customers, as shown by a sampling of these 
events from the last several months:

    <bullet>  An Amtrak train that had been operating on-time then 
followed a freight train for the remaining 151 miles of the route, 
causing nearly three and a half hours of delay.
    <bullet>  An Amtrak train followed a 10,000-foot freight train for 
67 miles, causing one and a half hours of delay. Upon arriving at an 
intermediate station more than two hours late, Amtrak had to terminate 
the train as the crew of a freight train ahead needed to be replaced, 
blocking the entire route. This also led to the cancellation of another 
Amtrak train.
    <bullet>  An Amtrak train followed a nearly 17,000-foot freight 
train for 69 miles, causing two hours of delay. These delays also led 
to the return train departing its origin station two and a half hours 
late.
    <bullet>  An Amtrak train followed a 12,000-foot freight train for 
66 miles, causing one and a half hours of delay.
    <bullet>  An Amtrak train was delayed for a total of one and a half 
hours due to meeting or following six freight trains.

    Every day, there are passengers across the country experiencing 
severe delays caused by freight trains. With the increasing adoption of 
Precision Scheduled Railroading and the operation of ever-longer 
freight trains, passengers become less likely to receive the preference 
over freight transportation that has been the law for over 45 years. 
Until action is taken to address these issues, Amtrak passengers will 
continue to suffer the consequences and wait for freight to operate 
first.

  Questions from Hon. Steve Cohen to Richard Anderson, President and 
   Chief Executive Officer, National Railroad Passenger Corporation 
                                (Amtrak)

    Question 1. You stated that decisions such as eliminating dining 
car service are based on market survey data and customer feedback. You 
also mentioned Amtrak sends an online survey to all your customers 
after each trip.
    1.a.  Does every single Amtrak customer receive a survey or is it 
based on certain routes?
    Answer. We survey customers to ensure responses from people who 
have traveled in every combination of route and class of service we 
offer. Every day Amtrak surveys a random sample of our customers who 
traveled on that day. We monitor the response rate to ensure that we 
obtain enough responses for each of the classes of service on each of 
our 45 routes to represent accurately all our customers who traveled.

    1.b.  What percentage of your total ridership has received an 
Amtrak survey in the past two years?
    Answer. We determine how many customers that we contact each day 
based on the expected response rate for each route. The number of 
monthly customer responses needed each month will vary by route, based 
on the level of detail that we report the results. The percent of total 
ridership will vary by route. The percent will be higher for relatively 
low ridership routes and lower for relatively higher ridership routes. 
In FY 2019, we emailed about two million requests for customers to 
complete a satisfaction survey, about 6% of our total FY 2019 trips.

    1.c.  What percentage of those who received a survey responded?
    Answer. About 9% of the customers who received a request to fill 
out a survey responded.

    Question 2. Please provide the Committee with a copy of all surveys 
that were distributed to riders in the past two years.
    Answer. Attached is the standard questionnaire that we use to 
measure customer satisfaction for our long distance routes. In addition 
to questions on this questionnaire, we have asked about 400 additional 
questions over the last two years on several additional surveys that 
were added to at the end of this survey regarding specific service 
attributes. Given this significant volume of questionnaires and 
questions, we will need a more specific criteria for determining which 
surveys to provide.

    Question 3. What percentage of survey respondents indicated that 
they preferred an alternative dining solution to the dining car 
service?
    Answer. We have seen very positive trends in customer acceptance 
since introducing the new model. Utilizing the same dining car, our 
focus has been on updating the delivery model to a more contemporary 
offering. Like most service changes, the process of managing customer 
expectations is an ongoing part of our service transformation.

    3.a.  Please provide a breakdown of the demographics of these 
respondents.
    Answer:

----------------------------------------------------------------------------------------------------------------
                                     Total Amtrak             NEC            Long Distance      State Supported
----------------------------------------------------------------------------------------------------------------
Gender..........................................................................................................
----------------------------------------------------------------------------------------------------------------
Male............................                40%                 42%                 39%                 38%
Female..........................                60%                 58%                 61%                 62%
----------------------------------------------------------------------------------------------------------------
Age.............................................................................................................
----------------------------------------------------------------------------------------------------------------
18-34...........................                18%                 19%                 16%                 19%
35-54...........................                32%                 34%                 30%                 31%
55+.............................                49%                 47%                 53%                 49%
Average.........................                 51                  51                  53                  51
----------------------------------------------------------------------------------------------------------------
Ethnicity.......................................................................................................
----------------------------------------------------------------------------------------------------------------
White...........................                77%                 80%                 72%                 76%
African-American/Black..........                 8%                  7%                 15%                  7%
Other...........................                15%                 13%                 13%                 17%
Spanish/Hispanic................                 7%                  5%                  7%                  9%
----------------------------------------------------------------------------------------------------------------
Employment......................................................................................................
----------------------------------------------------------------------------------------------------------------
Employed........................                67%                 75%                 57%                 63%
Student.........................                 5%                  3%                  4%                  6%
Retired.........................                24%                 18%                 32%                 26%
Homemaker.......................                 2%                  2%                  3%                  2%
----------------------------------------------------------------------------------------------------------------
HH Income.......................................................................................................
----------------------------------------------------------------------------------------------------------------
Under $50K......................                19%                 10%                 31%                 23%
$50K-$74.99K....................                16%                 12%                 20%                 17%
$75K+...........................                65%                 78%                 49%                 60%
Average.........................              $122K               $149K                $91K               $109K
----------------------------------------------------------------------------------------------------------------
Education.......................................................................................................
----------------------------------------------------------------------------------------------------------------
HS graduate or less.............                 5%                  3%                  9%                  6%
Some college/tech. school.......                18%                 10%                 26%                 21%
College graduate................                36%                 36%                 35%                 37%
Graduate school.................                41%                 52%                 30%                 35%
----------------------------------------------------------------------------------------------------------------


    Question 4. Please provide a rationale and methodology for how 
customer feedback on dining options factored into the decision to 
eliminate dining car service on many of Amtrak's long-distance routes.
    Answer. The food and beverage model for the single-night trains in 
the East was complex and outdated. The transition to the 
``Contemporary'' model enabled us to leverage new technology within the 
food service industry to improve our meal offerings while simplifying 
the way we service our customers to one single aligned process. The new 
format will also provide us with an opportunity to respond to the 
increasing special meal requirements of our customers in a more 
effective manner.

    Question 5. Has the feedback been more positive or negative on the 
long-distance routes since the dining services were changed based on 
survey feedback?
    Answer. Since the implementation of the ``Contemporary'' dining 
concept on the Capitol Limited and Lake Shore Limited in June 2018, 
Amtrak has continued to refine the product, adding a hot entree in July 
2018 and expanding our hot options in January 2019. On October 1, 2019, 
we introduced a new, refreshed menu offering five hot meal options and 
expanding the service onto the Cardinal, City of New Orleans, Crescent, 
and Silver Meteor. Feedback continues to improve as we make additional 
enhancements.

    Question 6. What efforts are being made to make the customer aware 
of the survey and to encourage completion?
    Answer. Amtrak has recently entered in an agreement with a new 
market research vendor which will result in a significantly more 
effective market research program. Improvements include expansion to 
multiple modes of surveys, adding text surveys, on-line surveys, and 
mobile app surveys to our current use of emailed surveys. We will also 
enhance our questionnaires and reporting. We expect these changes will 
result in a significant increase in both the number of customers to 
whom we will send survey requests and the survey completion rate.
                               appendix a
    Table mentioned in response to Chairman DeFazio's Question 3.b.:
    3.b.  Please indicate the number of APD employees employed on May 
3, 2019 and on November 1, 2019 and specify how many of those were 
uniformed officers. If Amtrak intends to continue reducing the size of 
the APD workforce, please indicate the target number of APD employees, 
including how many of those will be uniformed officers.

                                      APD Position Reconciliation by Region
----------------------------------------------------------------------------------------------------------------
                                                                                Change     Proposed     Current
                                          Actual 5/3/ Actual 10/  Actual 11/   (October      2020       versus
                                             2019       4/2019      15/2019       to       Staffing    proposed
                                                                               Present)      Level       2020
----------------------------------------------------------------------------------------------------------------
                                         New York (Adams, NY, Sunnyside)
----------------------------------------------------------------------------------------------------------------
Deputy Chief............................          1           1           1           0           1           0
Inspector...............................          1           1           1           0           1           0
Captain.................................          1           1           1           0           1           0
Lieutenant..............................          1           1           1           0           1           0
Sergeants...............................         15          14          13          -1          14           1
Police Officers.........................         53          48          48           0          56           8
Detectives..............................          2           1           3           2           1          -2
Security Guards.........................          5           5           5           0           5           0
Emergency Manager.......................          1           1           1           0           1           0
Secretary...............................          1           1           1           0           1           0
                                         -----------------------------------------------------------------------
  SubTotal..............................         81          74          75           1          82           7
----------------------------------------------------------------------------------------------------------------
      New England (Albany, Boston, New Haven, New London, Niagra Falls, Portland, Providence, Springfield)
----------------------------------------------------------------------------------------------------------------
Deputy Chief............................          1           0           0           0           0           0
Inspector...............................          0           0           0           0           0           0
Captain.................................          2           2           2           0           2           0
Lieutenant..............................          0           0           0           0           0           0
Sergeants...............................          7           7           7           0           7           0
Police Officers.........................         43          38          36          -2          38           2
Detectives..............................          4           4           2          -2           3           1
Security Guards.........................          0           0           0           0           0           0
Emergency Manager.......................          1           0           0           0           0           0
Secretary...............................          1           1           1           0           1           0
                                         -----------------------------------------------------------------------
  SubTotal..............................         59          52          48          -4          51           3
----------------------------------------------------------------------------------------------------------------
 
                    Central (Chicago, Beech Grove, New Orleans, Niles, St. Louis, Milwaukee)
----------------------------------------------------------------------------------------------------------------
Deputy Chief............................          1           1           1           0           1           0
Inspector...............................                      0           0           0           0           0
Captain.................................          2           1           2           1           2           0
Lieutenant..............................                      0           0           0           0           0
Sergeants...............................          7           6           5          -1           5           0
Police Officers.........................         30          27          26          -1          31           5
Detectives..............................          7           6           6           0           6           0
Security Guards.........................          0           0           0           0           0           0
Emergency Manager.......................          1           1           1           0           1           0
Secretary...............................          1           1           1           0           1           0
                                         -----------------------------------------------------------------------
  SubTotal..............................         49          43          42          -1          47           5
----------------------------------------------------------------------------------------------------------------
    West (Bakersfield, Emeryville, Los Angeles, Oakland, Portland, Sacramento, San Diego, San Jose, Seattle,
                                                    Stockton)
----------------------------------------------------------------------------------------------------------------
Deputy Chief............................          0           0           0           0           0           0
Inspector...............................          0           0           0           0           0           0
Captain.................................          0           1           2           1           2           0
Lieutenant..............................          0           0           0           0           0           0
Sergeants...............................          3           3           3           0           3           0
Police Officers.........................         18          15          17           2          23           6
Detectives..............................          3           3           3           0           3           0
Security Guards.........................          0           0           0           0           0           0
Emergency Manager.......................          1           1           1           0           1           0
Secretary...............................          1           1           1           0           1           0
                                         -----------------------------------------------------------------------
  SubTotal..............................         26          24          27           3          33           6
----------------------------------------------------------------------------------------------------------------
                          Mid-South (Baltimore, Raleigh, Richmond, Sanford, Washington)
----------------------------------------------------------------------------------------------------------------
Deputy Chief............................          1           0           1           1           0          -1
Inspector...............................          0           0           0           0           0           0
Captain.................................          2           2           2           0           2           0
Lieutenant..............................          0           0           0           0           0           0
Sergeants...............................         11          11          11           0          11           0
Police Officers.........................         30          31          29          -2          36           7
Detectives..............................          4           4           4           0           4           0
Security Guards.........................          1           1           1           0           1           0
Emergency Manager.......................          1           1           1           0           1           0
Assoc. Project Manager..................          0           0           0           0           0           0
Secretary...............................          1           1           1           0           1           0
                                         -----------------------------------------------------------------------
  SubTotal..............................         51          51          50          -1          56           6
----------------------------------------------------------------------------------------------------------------
               Mid-North (Bear, CNOC, Harrisburg, Lancaster, Philadelphia, Pittsburgh, Wilmington)
----------------------------------------------------------------------------------------------------------------
Deputy Chief............................          0           1           1           0           1           0
Inspector...............................          0           0           0           0           0           0
Captain.................................          2           2           2           0           2           0
Lieutenant..............................          0           0           0           0           0           0
Sergeants...............................         11          10          10           0          10           0
Police Officers.........................         53          52          51          -1          45          -6
Detectives..............................          1           1           1           0           1           0
Security Guards.........................          7           7           7           0           7           0
Emergency Manager.......................          1           1           1           0           1           0
Secretary...............................          1           1           1           0           1           0
                                         -----------------------------------------------------------------------
  SubTotal..............................         76          75          74          -1          68          -6
----------------------------------------------------------------------------------------------------------------
                                                  Corp Security
----------------------------------------------------------------------------------------------------------------
Sr. Dir. Business Services..............          1           1           1           0           1           0
Sr. Continuity Ops Mgr..................          1           1           1           0           1           0
Sr. Program Manager.....................          2           2           1          -1           2           1
Electronic Security Systems Mgr.........          1           1           1           0           1           0
Lead Video Systems Administrator........          1           1           1           0           1           0
Sr. Dir. Corp Security..................          0           0           0           0           0           0
Sr. Cap'l Sec'y Program Mgr.............          1           0           0           0           0           0
Manager Smart ID........................          1           0           0           0           1           1
Lead Acc Cont Syst Adm'r................          1           1           1           0           1           0
Sr. Project Manager.....................          0           0           0           0           0           0
Identification Card Specialist..........          3           3           3           0           3           0
                                         -----------------------------------------------------------------------
  SubTotal..............................         12          10           9          -1          11           2
----------------------------------------------------------------------------------------------------------------
                                                       SOU
----------------------------------------------------------------------------------------------------------------
Deputy Chief............................          1           1           0          -1           0           0
Inspector...............................          1           0           0           0           0           0
Captain.................................          0           0           1           1           0          -1
Lieutenant..............................          0           0           0           0           0           0
Sergeants...............................          3           3           3           0           3           0
Special Agents..........................         24          22          22           0          22           0
Detectives..............................          0           0           0           0           0           0
Security Guards.........................          0           0           0           0           0           0
Emergency Manager.......................          0           0           0           0           0           0
Assoc. Project Manager..................          1           1           1           0           1           0
                                         -----------------------------------------------------------------------
  SubTotal..............................         30          27          27           0          26          -1
----------------------------------------------------------------------------------------------------------------
                                                     Canine
----------------------------------------------------------------------------------------------------------------
Deputy Chief............................          0           0           0           0           0           0
Inspector...............................          0           0           0           0           0           0
Captain.................................          2           2           1          -1           1           0
Lieutenant..............................          0           0           0           0           0           0
Sergeants...............................          7           8           8           0           8           0
Police Officers.........................         47          45          49           4          49           0
Detectives..............................          0           0           0           0           0           0
Security Guards.........................          0           0           0           0           0           0
Emergency Manager.......................          0           0           0           0           0           0
Secretary...............................          0           0           0           0           0           0
                                         -----------------------------------------------------------------------
  SubTotal..............................         56          55          58           3          58           0
----------------------------------------------------------------------------------------------------------------
                                              Strategic Operations
----------------------------------------------------------------------------------------------------------------
Deputy Chief............................          1           1           1           0           1           0
Inspector...............................          1           1           1           0           1           0
Captain.................................          2           0           0           0           0           0
Lieutenant..............................          0           0           0           0           0           0
Sergeants...............................          8           7           7           0           7           0
Police Officers.........................          3           2           2           0           2           0
Recruitment Records.....................          1           1           1           0           1           0
NCC Manager.............................          1           1           1           0           1           0
Business Services.......................          1           1           1           0           1           0
Communication Officers..................         20          17          18           1          19           1
Emergency Manager.......................          1           1           1           0           1           0
Secretary...............................          1           1           0          -1           0           0
                                         -----------------------------------------------------------------------
  SubTotal..............................         40          33          33           0          34           1
----------------------------------------------------------------------------------------------------------------
                                                 OPR, Intel, COP
----------------------------------------------------------------------------------------------------------------
Chief of Police.........................          1           1           1           0           1           0
Assistant Chief.........................          1           1           1           0           1           0
Deputy Chief............................          0           0           0           0           0           0
Inspector...............................          2           2           2           0           2           0
Captain.................................          2           3           2          -1           2           0
Sergeants...............................          0           2           2           0           2           0
Detectives..............................          8           6           6           0           6           0
Sr. Executive Assistant.................          1           1           1           0           1           0
Dir. Admin..............................          1           1           1           0           1           0
Business Services Mgr...................          1           1           1           0           1           0
Lead Comm's Specialist..................          2           2           2           0           2           0
Computer Technician.....................          0           1           1           0           1           0
Data Reporting Specialist...............          1           1           1           0           1           0
Lead Systems Admin......................          1           1           1           0           1           0
Mgr. Infrastructure.....................          0           1           1           0           1           0
Secretary...............................          1           0           0           0           0           0
                                         -----------------------------------------------------------------------
  SubTotal..............................         22          24          23          -1          23           0
                                         -----------------------------------------------------------------------
    Total...............................        502         468         466          -2         489          23
----------------------------------------------------------------------------------------------------------------

                               appendix b
    Questionnaire mentioned in response to Mr. Cohen's Question 2:
    Question 2. Please provide the Committee with a copy of all surveys 
that were distributed to riders in the past two years.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                    
</pre></body></html>
